<html>
<title> - AMERICA'S COMPETIVENESS THROUGH HIGH SCHOOL REFORM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





           AMERICA'S COMPETIVENESS THROUGH HIGH SCHOOL REFORM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 12, 2009

                               __________

                           Serial No. 111-20

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html






                  U.S. GOVERNMENT PRINTING OFFICE
49-499                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 12, 2009.....................................     1

Statement of Members:
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
    Petri, Hon. Thomas, a Representative in Congress from the 
      State of Wisconsin.........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Balfanz, Robert, Everyone Graduates Center, Johns Hopkins 
      University.................................................    21
        Prepared statement of....................................    23
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary, and Secondary 
      Education..................................................    13
        Prepared statement of....................................    14
    Fattah, Hon. Chaka, a Representative in Congress from the 
      State of Pennsylvania......................................     7
        Prepared statement of....................................     8
    Gordon, Scott, CEO, Mastery Charter Schools..................    44
        Prepared statement of....................................    46
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     9
        Prepared statement of....................................    11
    Kondracke, Marguerite, president and CEO, America's Promise 
      Alliance...................................................    33
        Prepared statement of....................................    35
    Phillips, Dr. Vicki, director, education, Bill & Melinda 
      Gates Foundation...........................................    49
        Prepared statement of....................................    52
    Roe, Hon. David P., a Representative in Congress from the 
      State of Tennessee.........................................    16
        Prepared statement of....................................    17
    Wise, Hon. Bob, President, Alliance for Excellent Education, 
      former Governor, West Virginia.............................    55
        Prepared statement of....................................    57
    Wotorson, Michael, executive director, Campaign for High 
      School Equity..............................................    26
        Prepared statement of....................................    28

 
                        AMERICA'S COMPETIVENESS
                       THROUGH HIGH SCHOOL REFORM

                              ----------                              


                         Tuesday, May 12, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 3:00 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Payne, Scott, Tierney, 
Holt, Davis, Grijalva, Bishop of New York, Loebsack, Hirono, 
Courtney, Shea-Porter, Fudge, Petri, Castle, Bishop of Utah, 
and Roe.
    Staff Present: Tylease Alli, Hearing Clerk; Catherine 
Brown, Education Policy Advisor; Alice Cain, Senior Education 
Policy Advisor (K-12); Fran-Victoria Cox, Staff Attorney; 
Adrienne Dunbar, Education Policy Advisor; Curtis Ellis, 
Legislative Fellow, Education; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Jessica 
Kahanek, Press Assistant; Stephanie Moore, General Counsel; 
Alex Nock, Deputy Staff Director; Joe Novotny, Chief Clerk; 
Rachel Racusen, Communications Director; Melissa Salmanowitz, 
Press Secretary; Margaret Young, Staff Assistant, Education; 
Mark Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; Robert Borden, Minority General Counsel; 
Cameron Coursen, Minority Assistant Communications Director; 
Kirsten Duncan, Minority Professional Staff Member; Susan Ross, 
Minority Director of Education and Human Services Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Sally Stroup, Minority Staff Director.
    Chairman Miller. A quorum being present, the committee will 
come to order. I want to welcome our first panel, and say good 
afternoon to everyone else in attendance.
    Today we are here to take a closer look at how improving 
graduation rates in our Nation's high schools can help 
strengthen our competitiveness and the strength of our economy. 
We are also going to take a look at what is working to help 
turn around the so-called ``dropout factories'' and their 
feeder schools.
    Some may think twice about using the word ``crisis'' to 
define what is happening in our high schools, but the truth is 
we just aren't facing a crisis, the house is on fire.
    The new McKinsey report says that the achievement gaps in 
this country are the same as having, and I quote, a permanent 
national recession.
    Today, only 70 percent of students graduate with a regular 
high school diploma. Of these students, fewer than half 
graduate fully prepared for college level work or success in 
the workforce. Nearly one in five U.S. men between the ages of 
16 and 24, nearly 19 percent, have dropped out.
    About 10 percent of high schools produce close to half of 
the students who drop out. In these 2,000 high schools--so-
called ``dropout factories"--about as many students drop out as 
graduate.
    These dropout factories disproportionately impact minority 
students, producing 69 percent of all the African American and 
63 percent of the Hispanic students who drop out.
    Nationally, only about a little more than 50 percent of 
African American students and Hispanic students graduate on 
time, compared to 78 percent of the white students. It is a 
national tragedy that if you are a minority student in this 
country you have a one in three chance of attending a dropout 
factory.
    We used to be a world leader in high school graduation 
rates. Now we have fallen to 18th out of 24 among 
industrialized nations. Studies show the longer our students 
stay in school the more they fall behind their international 
peers.
    Last month's NAEP study of long-term trends show that 17-
year-old students' reading and math scores have not improved 
since the 1970s. This is astonishing. We cannot afford to 
continue this way, not for our students, our economy or our 
future competitiveness.
    A high school dropout earns an average of $250,000 less 
than a high school graduate and about a million dollars less 
than a college graduate over their lifetime.
    Each class of high school dropouts costs the economy $309 
billion in lost wages over those students' lifetime.
    In fact, the McKinsey report shows the international 
achievement gap poses a greater threat to our economy than the 
current downturn. It found that if the United States had closed 
the international achievement gap between 1983 and 1998, our 
2008 GDP would have been 1 to $2 trillion higher. That is about 
9 to 16 percent of our GDP.
    We should be producing the most qualified and talented 
workforce possible. Instead, businesses say high school 
graduates are not ready for the workplace and colleges say high 
school graduates are not ready for the rigors of college.
    It has become increasingly clear that addressing this 
dropout crisis is one of the most important things we can do to 
turn our economy around for good.
    In its current form, No Child Left Behind doesn't do enough 
to turn around low performing middle and high schools and 
improve our graduation rates, partly because we do not have 
common State standards. Each State has used different data and 
calculations to determine their graduation rates.
    A sampling of dropout factories found that almost 40 
percent had made adequate yearly progress under No Child Left 
Behind. It is safe to say that if 40 percent of a school's 
students are not graduating, that school is not succeeding.
    We need to hold schools responsible for their graduation 
rates so we can improve student performance. We also need to 
discourage schools from pushing out students who are not making 
the grade and ask schools to keep their doors open to students 
who leave and want to return.
    Earlier this year, President Obama called on Congress to 
take action. He said the dropout crisis in this country was 
bigger than any single person who chooses not to finish high 
school. I couldn't agree more. This crisis is a drain on our 
economy, it is an embarrassment to our schools, and it has to 
change.
    The President and Secretary Duncan know that we need to 
give schools the means to support and encourage students to 
stay in school. We can no longer endorse a system of acceptable 
losses.
    I hope that today's hearing will be a first good step as we 
work with the Obama administration to finally address this 
crisis.
    Lastly, I would like to thank my committee colleagues for 
their outstanding leadership in this issue, including Chairman 
Kildee's Fast Track to College Act, Representative Grijalva's 
Success in the Middle Act, Representative Hinojosa's Graduation 
Promise Act, and Representative Scott's GRADUATES Act.
    Clearly, there is great interest in moving forward with 
legislation to address this urgent problem.
    I look forward to hearing from our witnesses about what we 
can do to dramatically improve the educational opportunities we 
are providing to all high school students in this country.
    And now I would like to recognize my Republican colleague, 
Mr. Petri, for the purposes of making an opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today we're here to take a closer look at how improving graduation 
rates in our nation's high schools can help strengthen our 
competitiveness.
    We're also going to take a look at what is working to help turn 
around the so-called ``dropout factories'' and their feeder schools.
    Some may think twice about using the word ``crisis'' to define 
what's happening in our high schools. But the truth is, we aren't just 
facing a crisis--the house is on fire.
    The new McKinsey report says the achievement gaps in this country 
are the same as having, and I quote ``a permanent national recession.''
    Today only 70 percent of students graduate with a regular high 
school diploma. Of these students, fewer than half graduate fully 
prepared for college-level work or success in the workforce.
    Nearly one in five U.S. men between the ages of 16 and 24, nearly 
19 percent, have dropped out.
    About 10 percent of high schools produce close to half of our 
students who drop out. In these 2,000 high schools--so-called ``dropout 
factories''--about as many students drop out as graduate.
    These dropout factories disproportionately impact minority 
students, producing 69 percent of all African-American and 63 percent 
of all Hispanic students who drop out.
    Nationally, only about 55 percent of African-American students and 
52 percent of Hispanic students graduate on time, compared to 78 
percent of white students. It is a national tragedy that if you're a 
minority student in this country, you have a one-in-three chance of 
attending a dropout factory.
    We used to be a world leader in high school graduation rates. Now 
we've fallen to 18th out of 24 among industrialized nations.
    Studies also show the longer our students stay in school, the 
longer they fall behind their international peers.
    Last month's NAEP study of long term trends showed 17 year old 
students' reading and math scores have not improved since 1970's.
    This is astonishing.
    We cannot afford to continue this way, not for our students, our 
economy or our future competitiveness.
    A high school dropout earns an average of $260,000 less than a high 
school graduate and $1 million less than a college graduate over a 
lifetime.
    Each class of high school dropouts cost the U.S. economy $309 
billion in lost wages over the students' lifetime.
    In fact, the McKinsey report shows the international achievement 
gap poses a greater economic threat to our country than the current 
downturn.
    It found that if the U.S. had closed the international achievement 
gap between 1983 and 1998, our 2008 GDP would have been between $1 and 
$2 trillion higher--that's about 9 to 16 percent of our GDP.
    We should be producing the most qualified and talented workforce 
possible. Instead businesses say high school graduates are not ready 
for the workplace, and colleges say high school graduates are not ready 
for the rigors of college.
    It's become increasingly clear that addressing this dropout crisis 
is one of the most important things we can do to turn our economy 
around for good.
    In its current form, No Child Left Behind doesn't do enough to turn 
around low-performing middle and high schools and improve our 
graduation rates, partly because we do not yet have common state 
standards.
    Each state uses different data and calculations to determine their 
graduation rates. A sampling of dropout factories found that almost 40 
percent had made Adequate Yearly Progress under NCLB.
    It is safe to say that if at least 40 percent of a school's 
students aren't graduating--that school is not succeeding.
    We need to hold schools responsible for their graduation rates so 
they can improve student performance.
    We also need to discourage schools from pushing out students who 
aren't making the grade and ask schools to keep their doors open to 
students who leave and want to return.
    Earlier this year, President Obama called on Congress to take 
action. He said the dropout crisis in this country is bigger than any 
single person who chooses not to finish high school.
    I couldn't agree more--this crisis is a drain on our economy, it's 
an embarrassment to our schools, and it has to change.
    The President and Secretary Duncan know that we need to give 
schools the means to support and encourage students to stay in school. 
We can no longer endorse a system of acceptable losses.
    I hope today's hearing will be a good first step as we work with 
the Obama administration to finally address this crisis.
    Lastly, I would like to thank many of my committee colleagues for 
their outstanding leadership on this issue, including Chairman Kildee's 
Fast Track to College Act, Rep. Grijalva's Success in the Middle Act, 
Rep. Hinojosa's Graduation Promise Act, and Rep. Scott's GRADUATES Act.
    Clearly there is great interest in moving forward with legislation 
to address this urgent problem.
    I look forward to hearing from witnesses about what we can do to 
dramatically improve the educational opportunities we are providing to 
all high school students in this country.
                                 ______
                                 
    Mr. Petri. Well, thank you, Chairman Miller, for convening 
this hearing today to help us identify the challenges facing 
our Nation's high schools.
    The focus of the Elementary and Secondary Education Act and 
its 2001 reauthorization through the No Child Left Behind Act 
was on closing the achievement gap faced by disadvantaged 
students as they progressed in school. As we will hear today, 
our Nation is faced with what this achievement gap means for 
high schools. These schools face not only a dropout crisis but 
a crisis in preparation for a student's adult life, or rather a 
lack of preparation for a student's adult life.
    Too often, our students are entering high school unprepared 
to succeed in subjects such as reading, math, and science and 
leaving unprepared to succeed in college, trade school, or in 
the world of work.
    High school reform is seeing increased attention in 
Congress and among researchers and education experts. Even the 
Obama administration has announced its support of the October 
2008 Title I regulations that established a uniform graduation 
rate for all of our Nation's high schools.
    However, the issue of high school reform cannot be examined 
in isolation. Any effort to reform our high schools must take 
into consideration the preparations students receive in 
elementary and in middle school as well. Programs that focus on 
reading and programs that allow students to choose schools that 
are meeting adequate yearly progress can all be enhanced as we 
reform what is taking place in the Nation's high schools.
    Today our witnesses will discuss the research that 
illustrates these challenges and the reform efforts being 
driven by communities, districts, and States to attack these 
concerns. Our discussion will provide us with important 
information we will use as we move forward to reauthorize the 
Elementary and Secondary Education Act during this Congress.
    I would like to thank our witnesses for taking the time to 
speak to us today, and in particular I would like to thank the 
Members of Congress who will testify before us about their 
concerns for high school education.
    It is an important issue for our students and our workforce 
and the Nation's families and communities, and I look forward 
to learning more about the challenges remaining and the work to 
be done.
    And with that, I yield back.
    [The statement of Mr. Petri follows:]

 Prepared Statement of Hon. Thomas Petri, a Representative in Congress 
                      From the State of Wisconsin

    Good afternoon, Chairman Miller, and thank you for yielding.
    I am happy that you have convened this hearing today to help us 
identify the challenges facing our nation's high schools.
    The focus of the Elementary and Secondary Education Act and its 
2001 reauthorization, through the No Child Left Behind Act, was on 
closing the achievement gap faced by disadvantaged students as they 
progressed in school.
    As we will hear today, our nation is faced with what this 
achievement gap means for high schools. These schools face not only a 
dropout crisis but a crisis in preparation for a student's adult life. 
Or rather, a lack of preparation for a student's adult life.
    Too often our students are entering high school unprepared to 
succeed in subjects such as reading, math and science and leaving 
unprepared to succeed in college, trade school or work.
    High school reform is seeing increased attention in Congress and 
among researchers and education experts. Even the Obama Administration 
has announced its support of the October 2008 Title I regulations that 
established a uniform graduation rate for all of our nation's high 
schools.
    However, the issue of high school reform cannot be examined by 
itself. Any effort to reform our high schools must take into 
consideration the preparation students receive in elementary and middle 
school as well.
    Programs that focus on reading, and programs that allow students to 
choose schools that are meeting adequate yearly progress, can all be 
enhanced as we reform what is taking place in the nation's high 
schools.
    Today our witnesses will discuss the research that illustrates 
these challenges and the reform efforts being driven by communities, 
districts, and states to attack these concerns.
    Our discussion will provide us with important information that we 
will use as we move forward to reauthorize the Elementary and Secondary 
Education Act during the 111th Congress.
    I would like to thank our witnesses for taking the time to speak to 
us today. In particular, I would like to thank the Members of Congress 
who will testify before us about their concerns for high school 
education.
    This is an important issue for our students and our workforce and I 
look forward to learning more about the challenges remaining and work 
to be done.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you. I would like to welcome the 
first panel of our colleagues who have been deeply involved in 
this issue over many years. The first witness will be the 
Honorable Chaka Fattah, who is from Pennsylvania, serving his 
eighth term in the House of Representatives, representing the 
Second Congressional District of that State.
    A former member of the Committee on Education and Labor, 
Congressman Fattah now sits on the Appropriations Committee. 
Congressman Fattah has long been an advocate for education and 
was the architect of GEAR UP, the largest pre-college awareness 
program in this Nation's history, and has contributed more than 
$2 billion to the educational advancement and college readiness 
of low-income students. Prior to joining Congress, he served 12 
years in the Pennsylvania legislature, 6 years in the House and 
6 years in the Senate.
    Next we will hear from the Honorable Raul Grijalva, who 
represents the Seventh Congressional District in Arizona and is 
in his fourth term as a Member of Congress. He serves as 
Chairman of the Education and Job Training Task Force of the 
Congressional Hispanic Caucus. Before he was elected to 
Congress, Representative Grijalva was a member of the Pima 
County Board of Supervisors. He has also served on the Tucson 
Unified School District governing board serving as Chairman for 
6 years. During his tenure on that board, he worked with the 
courts, superintendents, and educators on a desegregation plan 
and was the lead board member on implementation of the 
integration plan.
    The Honorable Mike Castle, former Deputy Attorney General 
and State legislator and Lieutenant Governor and two-term 
Governor of Delaware. Any job you didn't hold there, Michael?
    Congressman Castle is currently serving his ninth term as 
Delaware's lone Member of the House. Not lonely, but lone. He 
was born and raised in Wilmington, Delaware and is a graduate 
of Hamilton College and Georgetown University.
    The Honorable Phil Roe represents the First District of 
Tennessee and is in his first term. A native of Tennessee, 
Representative Roe served 2 years in the United States Army 
Medical Corps as a physician. Congressman Roe has run a medical 
practice in Johnson City for 31 years, delivering close to 
5,000 babies. Congressman Roe served as mayor of Johnson City 
from 2007 to 2009.
    Welcome to the committee. You know the rules. We will give 
you 5 minutes to tell us what you want to tell us and if the 
members of the committee have questions, they will be 
recognized for that purpose. And we appreciate you taking the 
time out of your schedule to join us at this hearing on this 
subject that is of importance to you and to us.
    Thank you.
    Chaka?

 STATEMENT OF HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Fattah. Thank you, Mr. Chairman and to the ranking 
member and to all of the members of this great committee. It is 
a pleasure to be back here in my old working space here in this 
committee. I had some great days here in the House.
    I want to say a couple of things. One is that over the last 
couple of weeks I have been in a number of high schools. On 
yesterday, I was at West Philadelphia High, which would be well 
up on the dropout factory list. But I was there with the EPA 
Administrator and we were highlighting one of 111 teams in the 
world, an automobile design team, at West Philly High that was 
building a hybrid car and they have a car that can go over 100 
miles on a gallon of fuel, and they beat Toyota, MIT, and all 
comers three times so far, and they are competing now for a $10 
million prize.
    At Overbrook last week, my alma mater, we had 1,400 middle 
school kids for a GEAR UP kickoff. Overbrook would be on a 
dropout factory list by any count, but their robotics team 
scored number one in the State in the Defense Department's Sea 
Perch robotics trial.
    I was at Mastery--and you are going to hear from the head 
guy at Mastery in a few minutes. They are doing fabulous work.
    And just last week I was at the Microsoft School for the 
Future, which is in my district. It is a brand-new structure, 
been there for a few years, designed by the best thinkers that 
Microsoft could put together. It is now being marketed and 
shopped in 11 other countries in the world. There is no peer in 
terms of a high school anywhere in the world, and it is 
educating kids in one of the poorest neighborhoods and tracts 
in Philadelphia in the heart of my district and doing an 
extraordinary job.
    So there is a lot of good one could say about what is 
happening out there, but the fact of the matter is that a lot 
more needs to be done.
    When President Clinton came to Saltsburg and signed GEAR UP 
into law 11 years ago, he said that we need to transfer middle-
class aspirations to working class families in terms of going 
on to college. We have now seen over 11 years of GEAR UP, 6 
million young people, and we have seen all across the country 
in a variety of places hundreds of programs, 85-plus percent 
graduate from high school, 61, 62 percent go on to college. It 
has been an enormous success, and I thank all of my colleagues 
who worked with me on that legislation when we passed it.
    But more needs to be done. And what I think ought to happen 
is embodied in the legislation that I have authored, the 
Student Bill of Rights, which calls for a particular effort to 
provide a comparable educational opportunity to do what we are 
doing in our highest achieving schools in our lowest achieving 
schools. Give them a qualified teacher, a classroom size of 
some reasonableness, and a textbook printed in their lifetime 
and a rigorous curriculum.
    We know that it works. It works in a lot of our wealthy 
suburban districts, and we know it would work in our poor 
districts if we did it. We provide less of what we need to 
educate a child in the most challenging communities in our 
country, and then we act surprised about the disproportionate 
failure that follows from that.
    I offered the Communities Committed to College Act, which 
would create a long-term trust fund invested in so young people 
can know with a certainty that they can go on to college. 
Raising the bar and expectations is very important.
    So I embody some of my thinkings in the legislation that I 
put forward.
    When President Obama went to a public school in Denver, he 
said we need to expand programs like GEAR UP. Things that work, 
take them to scale. We are all invested in making sure that 
these young people can achieve and if we wanted to double the 
high school graduation rate, we already know that there are 
programs that work, that make that happen, and it has happened 
across the country and we could take the best practices from 
that and go forward.
    I thank you, Mr. Chairman. I thank the committee for 
listening. I would be glad to answer any questions.
    [The statement of Mr. Fattah follows:]

 Prepared Statement of Hon. Chaka Fattah, a Representative in Congress 
                     From the State of Pennsylvania

    Chairman Miller, Congressman McKeon and members of the committee, I 
would like to thank you for the opportunity to speak before you on 
improving our nation's high schools and ensuring every child, 
regardless of life circumstances, is receiving the education necessary 
to succeed in college, career and life. I am also honored to join my 
colleagues Mr. Grijalva and Mr. Castle in offering remarks and to 
welcome Scott Gordon, CEO of Mastery Charter Schools in Philadelphia, 
to Washington.
    I am excited by the opportunity we now have to improve educational 
outcomes and ensure a fair playing field for all students. With the 
leadership of this committee, President Obama and Chairman Kennedy, I 
am confident that we will begin to close the devastating gaps and 
inequities in opportunity that have contributed to under achievement 
among our nation's low income students and students of color.
    I would like to focus my remarks on those ingredients of better 
high schools which have been effective in improving student achievement 
and sending students to higher education; effective teachers and a 
rigorous, college preparatory curriculum. These critical resources are 
available in abundance to our wealthiest families, in both public and 
private schools, but available only to a chosen few poor neighborhoods 
and communities of color.
    Nationally, high-poverty districts start the year with $938 less 
state and local revenue per pupil. In a class of 25 students, that 
$23,000 difference means teachers with less experience and less 
expertise, fewer appropriate instructional materials and less access to 
current educational technology. 34 percent of classes in high-poverty 
schools are taught by teachers lacking a major or minor in their field 
of instruction, almost twice the rate for their higher-income peers. In 
high school, this often means teachers whose last academic experience 
with math or science was their own high school-level science or math 
class.
    In addition to less content expertise, teachers in poor schools are 
more likely to be pedagogical novices with three years or less 
experience. The difference in teacher experience is even greater in 
high-minority schools when compared with low-minority schools.
    Naturally, these differences in teacher experience and content 
mastery lead to wide variations in available curricula. In core 
classes, the content of which is a predictor of college success, 
students in high-poverty schools are 24 percent more likely than 
students in low poverty schools to face an out-of-field teacher. Low 
income students are less likely to be in a full college preparatory 
track and are more likely to begin post-secondary education unprepared.
    These significant academic inequities are creating formidable 
barriers for students hoping to attend college. Graduation is delayed--
if not derailed, when students must spend their first year in remedial, 
non credit-bearing courses. This problem only serves to enhance the 
financial barriers that are keeping otherwise qualified students out of 
our higher-education system.
    There are solutions to these challenges. Early college 
opportunities are helping an increasing number of students prepare for 
post-secondary learning and graduate college early or on time. 
Significant progress is being made by this committee, President Obama 
and Secretary Duncan in ensuring every child has access to an effective 
teacher and rigorous instruction.
    The American Recovery and Reinvestment Act (ARRA) will guarantee 
that states are working to ensure the equitable distribution of their 
teacher talent by enforcing previously unenforced reporting and 
remediating requirements from the No Child Left Behind Act that 
dictates low-income students and students of color not be 
disproportionately taught by less-qualified teachers. ARRA also shifts 
the way Title I funds are distributed, using the Targeted and Education 
Finance Incentive Grant formulas instead of the Basic and Concentration 
grant formulas that will direct more resources where they were 
originally meant to go, providing assistance to the schools in the most 
need.
    I am also encouraged by the work of the Education and Labor 
Committee in the Elementary and Secondary Education Act reauthorization 
discussion draft, which closed the comparability loophole and required 
states to report on the ways in which critical educational resources 
were distributed. Building on the foundation for equity in ESEA, I will 
be reintroducing the Student Bill of Rights Act this spring which 
addresses disparities in educational resources and students' 
opportunity to learn.
    This work on improving academic instruction will go a long way to 
make certain that students are ready to begin college work when they 
step on campus. The barriers to higher education are not solely 
academic. We have years of research that shows similarly qualified 
African American students are less likely than their White peers to 
advance to post-secondary education.
    The work led by Mr. Hinojosa last year to make college more 
affordable addresses a critical piece in college-going. Also, the 
recent changes to the Pell Grant program, moving it from the discretion 
of the Appropriations Committee to the mandatory side of the budget and 
increasing the maximum grant will give more low-income students the 
opportunity to earn a degree.
    Simply improving instruction and offering financial resources will 
not address other pernicious obstacles that students, many of whom 
would be the first in their family to attend college, face. Providing 
students with the certainty that their own hard work and commitment 
will be met by the work and commitment of their community establishes a 
college-going culture and builds expectations within the system that 
every student should have the opportunity to attend college. I have 
introduced the Communities Committed to College Tax Credit Act, H.R. 
1579 to support local efforts that provide college scholarships to 
local students.
    GEAR UP (Gaining Early Awareness and Readiness for Undergraduate 
Programs) has successfully put 6 million students in high-poverty 
schools on track for college. Students receive assistance in overcoming 
academic, financial and cultural barriers to college. GEAR UP increases 
access to college preparatory academic programs (including AP), offers 
scholarships to students accepted into college and provides the 
critical background knowledge about the financial aid and admissions 
processes that is particularly lacking in low-income communities.
    GEAR UP is a stunning success. Over 80 percent of GEAR UP students 
graduate from high school, while only about half of all low-income 
students graduate. This shows that when students and communities set 
their sights beyond twelfth grade, and when they are prepared for 
college, a high school diploma becomes more assumed and inevitable than 
for the population as a whole.
    Low-income students who have effective teachers, college 
preparatory curricula, financial aid and information about the college 
process are currently meeting or exceeding standards set by their 
higher income peers. This is our opportunity to invest in equitably and 
adequately distributed resources and a college-going culture. Our 
students are eager to do their part; the question is whether we, as 
policy makers and adults, are ready to rise to meet this challenge.
                                 ______
                                 
    Chairman Miller. Thank you very much. And thank you for all 
of your involvement in this issue.
    Congressman Grijalva.

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman and ranking 
member, and all the members of the committee for this 
opportunity to discuss with you a very critical issue of high 
school graduation and the dropout crisis that the chairman so 
aptly called it.
    In my role as Chairman of the Congressional Hispanic Caucus 
Education and Workforce Task Force, I would like to discuss the 
issue of high school graduation as it relates to the priorities 
of this caucus and to the goals and needs of Latinos and, quite 
frankly, all our children.
    As our Nation's fastest growing population and one of the 
largest groups of children in our public schools, one in five 
of children in our public schools are Latino, comprising 
somewhere between almost 11 million students enrolled from pre-
Kindergarten to 12th grade, almost 3 million of those students 
being high school students. Another percentage is 45 percent of 
these students are English language learners, and 80 percent of 
the 5 million students enrolled in schools are Spanish 
speaking.
    And so as you look at all those statistics you also need to 
see that these Latino children remain the least likely to 
attend preschool, the least likely to graduate from high 
school, the least likely to enroll in college, and the least 
likely to complete college. Only 15 percent of Latinos are 
proficient in reading by the eighth grade, and the dropout 
issue that we are talking about is devastating not only to our 
community but I believe overall to the Nation.
    When only half of the Latino students who enter ninth grade 
graduate with a high school diploma, it just points out the 
kind of devastation and distress that we feel in the 
communities. 600,000 to 700,000 Latino students drop out of 
school every year. I know the data, the statistics, they are 
daunting and quite frankly distressing. But the task to improve 
the education of these children I think are feasible.
    And I think Congress must work toward policies that address 
the dropout crisis for all students, but for Latinos in the 
light of the changing characteristics that I just pointed out 
in our schools.
    So let me just some very quick recommendations. The first 
one is about accountability. And the chairman mentioned State 
standards. Let's have a definition and real data about what the 
real dropout numbers are in this country, and in this Nation. 
And that speaks to the accountability and credibility of the 
statistics that we are using.
    We need training and support. Congress needs to make a very 
strong commitment to increasing support for teacher training, 
including English learner teachers and their commitment to 
these schools. Commitment to the feeder systems, I believe, as 
part of teacher training is essential.
    The high school dropout is not a phenomenon that occurs in 
high school. It occurs through that feeder system. So as we 
look at that percentage of high schools that are dropout 
factories and we look at the feeder system that feeds to these 
high schools, you realize it is a systemwide problem and not 
isolated at the high school level.
    Parental involvement is essential. Programs like family 
literacy, adult basic education, where families are learning 
together, where families can help their children succeed in 
school I think are very important.
    Targeted intervention. The legislation that was talked 
about in the introduction by the chairman are essential as the 
Graduation Promise Act will be reintroduced, and it can provide 
aid to schools with low graduation rates and target that aid.
    Middle school intervention, and I mentioned feeder school 
intervention. No plan to address high school dropout crisis 
would be effective without an adequate middle school 
intervention to aid the most troubled feeder middle schools and 
elementary schools and the most troubled high schools.
    All the research confirms that in sixth through eighth 
grade this work is essential to ensure success in high school. 
Studies show that sixth grade students who do not attend school 
regularly, have poor conduct scores, who fail math or English 
have only a 10 percent chance of graduating on time.
    Human resources. The Department of Education is making a 
commitment, a commitment that must be followed through on its 
diversity, on raising its cultural linguistic competence and 
capacity of the professional staff from superintendent to 
principals to teachers.
    And I want to give an example of something that works, and 
that is jobs. There are three programs in the area I represent, 
Jobs for Arizona Graduates, Jobs First, Jobs and Work. The 
students in those programs that are paid as part of their 
responsibility have a 95 percent graduation rate, and a 50 to 
60 percent postsecondary experience.
    This is a vital issue for the Nation, a vital issue for the 
Latino community, and I thank the Chairman and the committee 
for prioritizing this issue.
    Thank you.
    [The statement of Mr. Grijalva follows:]

   Prepared Statement of Hon. Raul M. Grijalva, a Representative in 
                   Congress From the State of Arizona

    Chairman Miller, Ranking Member McKeon and members of the 
Committee, thank you for the opportunity to speak to you today about 
the critical issue of high school graduation and the dropout crisis. I 
welcome the opportunity to address this very timely issue, and I am 
grateful to the Committee for prioritizing this important discussion.
    In my role as Chairman of the Congressional Hispanic Caucus 
Education and Work Force Task Force, I would like to discuss the issue 
of high school graduation as it relates to the priorities of the Caucus 
and to the goals and needs of Latinos and all of our children.
    Latinos are our nation's fastest growing and largest minority group 
of children. Latino children make up one in five of our public school 
enrollment, comprising more than 10.9 million students enrolled 
prekindergarten through twelfth grade. Latinos represent 17% of all 
secondary school students, that's about 2.9 million high school 
students.
    45% of Latino students are English language learners. Almost 80% of 
the five million ELLs enrolled in schools are Spanish-speaking Latinos. 
The ELL enrollment in our public schools has doubled in fifteen years, 
and by 2025, it is expected that one in four students in U.S. public 
schools will be an English language learner.
    Latino children remain the least likely to attend pre-school, the 
least likely to graduate from high school, the least likely to enroll 
in college and the least likely to complete college. Only fifteen 
percent of Latinos are proficient in reading by the eighth grade--
compared to almost forty percent for non-Hispanic White students.
    The dropout crisis has a devastating impact on the Latino 
community. Only about half of the Latino students who enter the ninth 
grade will graduate with a high school diploma. This is compared to 75% 
of non-Hispanic White students. Latino English language learners are 
even more at risk of dropping out, and only 41% of Latino ELLs graduate 
high school. Every year, between 600,000 and 700,000 Latino students 
drop out of school.
    The data and statistics are daunting but the tasks to improve 
Latino education are feasible. Congress must work toward policies that 
address the dropout crisis for Latinos in light of the changing 
characteristics of our schools.
    I would like to recommend to the committee six principles for 
inclusion:
Accountability
    We must ensure that states are held accountable for accurate counts 
of their dropout numbers. Congress must ensure that loopholes for 
counting dropouts remain closed and that the definition for what 
constitutes graduation is a fair and accurate depiction of the state of 
affairs on the ground.
Training and Support
    Congress should make a strong commitment to increasing support for 
teacher training, including for ELL teachers. An effective teacher can 
mean the difference of success or failure for a struggling student.
    We should also increase the Federal commitment to schools serving 
ELLs. We must consider a commitment to graduation for all high school 
students in light of the ever increasing number of students who have 
the added struggle to succeed in their core curriculum while gaining 
English language acquisition. If we want graduation success, we must 
put resources where they are needed. Enhanced supports for schools 
serving ELLs will go a long way toward that goal.
Parental Involvement
    Support for dropout prevention should include a commitment to 
parental involvement in the education of a child, since family support 
provides a tangible boost to success. Along this same line, we should 
provide increased support to family literacy programs, so that families 
can learn together. Such programs can reinforce the commitment to 
education and offer better opportunities to parents and children.
Targeted Intervention
    Congress should act quickly to assist those high schools that are 
most critically in need of intervention to staunch the loss of students 
to dropping out. Legislation like the Graduation Promise Act, soon to 
be reintroduced, can provide the implements of aid to schools with low-
graduation rates and help to roll back the dropout crisis.
Middle Grade Intervention
    No plan to address the high school dropout crisis will be effective 
without an adequate middle grade intervention to aid the most troubled 
feeder middle schools and elementary schools of the most troubled high 
schools. Research confirms that success in sixth through eighth grades 
is imperative to ensure success in high school and college. In fact, 
studies show that sixth-grade students who do not attend school 
regularly, have poor conduct scores, or who fail math or English, have 
only a 10% chance of graduating on time.
Latinos in Human Resources
    It is imperative that Latinos have a presence in administrative and 
policy positions to ensure inclusion of Latinos in the decision making 
process. If we want to make schools work for Latino students, we must 
ensure that Latinos, or those that have expertise in working with 
Latino students, are at the table to implement best practices.
    The Department of Education is lacking in diversity, which impacts 
the overall interpretation and understanding of education policy in 
regards to Latino students. The overall education structure is missing 
Latinos as professors for training teachers, recruiting and retention 
of teachers in our classrooms, and training, recruiting and retention 
of Superintendents and Principals. We must work on increasing the 
workforce of Latinos in education if we are to improve Latino 
education.
    These changes are an important element in improving graduation from 
high school. In addressing this dropout crisis, we must be aware of 
strategies that have been proven effective to retain and recover 
students on the verge of dropping out. We must be aware of the changing 
composition of our student body and address the changing needs of our 
students. These are important elements in a long term strategy for a 
goal of graduation for all of our students.
                                 ______
                                 
    Chairman Miller. Thank you. Congressman Castle.

STATEMENT OF HON. MICHAEL N. CASTLE, RANKING REPUBLICAN MEMBER, 
   SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY AND SECONDARY 
                           EDUCATION

    Mr. Castle. Thank you, Mr. Chairman and Mr. Petri and 
members of the committee. And first of all, I agree with 
everything I have heard so far from the first two speakers, and 
I have read most of the other testimony and I agree with that 
too. I just don't know that we can afford everything. But these 
are all good suggestions that we need to do to deal with the 
important issue of strengthening America's competitiveness 
through high school reform, although that translates to 
individual student achievement, as we all know.
    I am a strong supporter of No Child Left Behind, at least 
conceptually, that we passed in 2001 to address the achievement 
gap that did exist to improve education for all students but 
particularly for poor minority students with their more 
affluent peers. We have had some progress in that area, and we 
look at scores for elementary and middle school testing and we 
realize that great strides have been made, but not in high 
schools. It tends to diminish a little bit when we get there.
    The long-term trend for the NAEP Report, the National 
Assessment for Educational Progress Report, found that 17-year-
olds' test scores in math and reading haven't significantly 
improved since the 1970s.
    At a time when students need education and job training--I 
think we have all touched on that--to succeed in the 
competitive global market, three out of every 10 students fail 
to finish high school. Barely one-half of disadvantaged 
minority students graduate from high school. Compounded by the 
fact that the median income for dropouts is much lower than 
high school and college graduates--and you touched on that, Mr. 
Chairman--but on an annualized basis dropouts earn $14,000, 
high school graduates $24,000, and college graduates $48,000. 
Just that enough, we ought to put that on the TV screen after 
every show every night, I think, and let people see it and show 
how important graduating from high school and perhaps college 
really is.
    As we work to reauthorize No Child Left Behind--and I hope 
we do that in the next few months or year or so--we must work 
to ensure that students are prepared for college or the 
workforce when they graduate. And graduation rates have 
concerned me for some time, and Mr. Scott, too, I might add.
    Graduating from high school is absolutely significant, and 
virtually every employer starts with that. And yet a lot of 
these students that we just discussed cannot show that they 
have done that. But there is a lot of misleading data and 
contradictory calculations with respect to that. Currently 
``graduation rate'' is defined as the percentage of students 
who graduate from secondary school with a regular diploma in 
the standard number of years. And they throw that out to the 
States and then the States can do pretty much whatever they 
want.
    The governors started to look at this a few years ago. A 
lot of us have introduced legislation to look at it. It has 
been in some of the drafts of No Child Left Behind. I don't 
think the States should have that much latitude in defining and 
setting their own standard number of years, which I have seen 
vary from 3 to 5 years depending on which State you are looking 
at and we are getting varying results from State to State, 
which is a problem in dealing with the overall issues of our 
high schools.
    I introduced the Reliable and Accurate Graduation Rate Act 
last year, which would make these all of these statistics 
comparable throughout the country. It is very similar to what 
the governors had done a few years ago, and I think it is 
important to do this. Last October, the U.S. Department of 
Education released final regulations pertaining to graduation 
rate accountability that are also aligned with the NGA's 
recommended graduation rate and some of the legislation which 
we have been talking about, and I think it is very, very 
important that that be adopted in No Child Left Behind.
    All of those regulations provide a uniform and comparable 
rate that attempts to capture the accurate number of high 
school graduates in our Nation and will hopefully motivate the 
individual students as well. To me that is the most important 
thing to do in terms of our solving the graduation crisis in 
our country.
    The other area I would like to touch on here is the area of 
the academic standards and assessments. And I am not one of 
those who is necessarily opposed to a national standard or even 
national assessments, at least for discussion. I think it is a 
worthwhile discussion. I can understand some opposition to it, 
but we should be talking about these kind of things, I think.
    We need to improve our State academic standards, which I 
think were adopted on the fly and are not high enough, and I 
think we need to improve some of the testing, which is 
basically the assessments that go into this.
    I believe that we have started to do this in my State. I 
have seen some interesting changes. In fact, the governor's 
office was talking about that even today as a matter of fact, 
replacing our testing program with a better system for 
measuring performance and provide schools the necessary 
flexibility while holding them accountable for results.
    At the high school level we are looking at instituting an 
adaptive testing system that will measure student progress 
throughout high school so that students are prepared to 
graduate, which I think is also important. I think the tests 
now generally do not reflect well enough how students are 
actually doing.
    These are some of the things that we should be doing. There 
are many other programs, a lot of which have been mentioned by 
other speakers today, and we as a committee should focus on 
this as much as we possibly can as soon as we can.
    I look forward to working with you, Mr. Chairman, and with 
Secretary Duncan and the President in order to achieve this as 
soon as we can.
    [The statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael N. Castle, Senior Republican Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Good morning. Thank you Chairman Miller for holding today's 
hearing. As the Senior Republican Member of the Subcommittee that 
oversees K-12 legislation, I welcome the opportunity to testify before 
you today and look forward to hearing from my colleagues, as well as 
the other expert witnesses on this important issue--strengthening 
America's competitiveness through high school reform.
    As you are aware, No Child Left Behind was passed in 2001 to 
address the achievement gap that exists between poor and minority 
students and their more affluent peers. Although we are just now 
beginning to see the results of the Law, studies demonstrate that 
America's elementary and middle school students are making great 
strides in closing the achievement gap in reading and math. We are not, 
however, seeing similar results at the high school level.
    In fact, results from the most recent long-term trend report on the 
National Assessment of Education Progress, more commonly known as NAEP, 
showed that 17-year-old test scores in mathematics and reading have not 
significantly improved since the 1970s. Additionally, according to a 
recent Editorial Projects in Education Report, three in ten students 
fail to finish high school with a diploma, and barely half of the 
historically disadvantaged minority students graduate from high school. 
At a time when students need higher levels of education and workforce 
training to succeed in an increasingly competitive global economy, the 
number of students leaving high school without a diploma is alarming.
    This is compounded by the fact that the median income for high 
school dropouts is $14,000, much lower than the median income of 
$24,000 for high school graduates and $48,000 for college graduates. 
Nationally, high school dropouts were also the only group of workers 
who have seen income levels decline over the last 30 years (Cities in 
Crisis 2009: Closing the Achievement Gap; America's Promise Alliance).
    A hallmark of the No Child Left Behind Act is its promise to 
provide meaningful information to parents and communities about the 
quality of their children's schools. Yet, for too long, a key indicator 
of student success--graduation from high school--has been masked by 
misleading data and contradictory calculations.
    As Congress works to reauthorize the No Child Left Behind Act this 
year, it is clear that we must work at the federal, state, and local 
levels to ensure students are prepared for college or the workforce 
when they graduate high school.
    Last Congress, I introduced a bill to define a national graduation 
rate, in order to streamline data collection and create an indicator 
that is comparable throughout the United States. In October 2008, the 
U.S. Department of Education released final regulations regarding 
graduation rate accountability. I believe these regulations are aligned 
with the National Governors Association's (NGA) recommended graduation 
rate as well as the legislation I offered last year.
    The work of the Department helps to clarify the current definition 
of graduation rate under the No Child Left Behind Act. Under current 
law a ``graduation rate'' is defined as ``the percentage of students 
who graduate from secondary school with a regular diploma in the 
standard number of years.'' States are allowed to define and set their 
own standard number of years and results vary widely from state to 
state.
    The Department's regulations provide for a uniform and comparable 
graduation rate calculation that attempts to capture the true number of 
high school graduates in our nation.
    Although much work remains, the establishment of a consistent 
graduation rate is a critical first step toward solving the graduation 
crisis and making certain our students are given the tools they need to 
succeed.
    Second, I am hopeful we in Congress will look at the ways we can 
support state and school district efforts to improve state academic 
standards. High school is no longer about simply moving students from 
ninth grade to graduation. We must ensure all students are leaving 
their secondary education with the knowledge and skills necessary to 
reach their goals.
    Finally, I am hopeful Congress will improve those programs under 
NCLB to ensure that they work and support students at the high school 
level, such as 21st Century Community Learning Centers which provide 
students with academic enrichment opportunities during non-school hours 
and mentoring programs that help foster safe learning environments, and 
strengthening and applying early childhood and elementary reforms that 
are helping younger children progress to later grades.
    I hope that this Committee and Congress will continue to examine 
this issue very closely. I look forward to working along with my 
colleagues at the federal level, as well as the state and local level 
to prepare our nation's students, particularly those that will be 
graduating shortly, to compete in a global economy. The bottom line is 
that our children are the future of this nation and we must implement 
the laws that will shape our future for years to come.
    Thank you for allowing me to testify today.
                                 ______
                                 
    Chairman Miller. Thank you. Congressman Roe.

STATEMENT OF HON. DAVID ROE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF TENNESSEE

    Mr. Roe. Thank you, Mr. Chairman, and ranking member and 
other members. I am very pleased to be able to testify about 
the importance of a high school education.
    I was in Nashville this past weekend to see my son get his 
MBA from Vanderbilt. Hallelujah. Our economy is still 
struggling, but after interacting with the graduates you get 
the sense that things are going to turn around. I think the 
most important reward out of investing in education is the hope 
for a better future for our country.
    The first school I attended was a two-room country school 
with no running water or indoor plumbing. But I had two parents 
who encouraged me to continue my education, so education was 
not really an option in my house. I was fortunate enough and 
worked hard enough to graduate from college and medical school. 
Receiving my degrees allowed me to have a great life. So I 
never ever forget to remind students the importance of 
education. They get tired of hearing me harp on it.
    When I speak to them I will ask them, in high school the 
other day I said how would you like to make a quarter of a 
million dollars in the next year? They all raise their hands 
up. And I said you can do that by just graduating from high 
school. Study. Think that is what you are throwing away.
    When in front of a bunch of college freshmen who are 
thinking about having a party on the weekend, I say you know 
how you can earn a million dollars in the next 4 years? 
Graduate from college. That is all you have to do.
    While there is a short-term cost for these kids, investment 
long term pays off--as we all know in this room--the rest of 
your life.
    In Tennessee it is particularly important to remind our 
teenagers of the financial impact that education can have on 
your life. Our high school graduation rate 2004-2005 
regrettably was only 68 percent, and that was an improvement of 
10 percent over the past 5 years, but still way below the 
national average. We still have too many dropping out, some 
because of apathy and some because they have to pay the bills 
and put food on the table. Having been a rather stubborn 
teenager myself, I know that you cannot convince everybody to 
stay in school.
    So while I am sure that we will want to rightly foster 
excellence in high schools, ensuring that fewer kids drop out, 
I also want to remind the committee not to forget about those 
people who have already dropped out, which is an astonishing 
number of people. I believe we should have adult education 
programs as effective and necessary to complement the dropout 
problem. And I am absolutely convinced that you have to offer 
adult education programs to encourage young adults who have 
left the system to return to get their degrees. As I said the 
other day, we have a No Child Left Behind, we should have a No 
Adult Left Behind also.
    Last week, the Subcommittee on Higher Education, Lifelong 
Learning, and Competitiveness heard testimony from country 
music star Gretchen Wilson about her experience with adult 
education. Ms. Wilson went back to school and received her GED 
at age 34 for both herself and to set an example for her 
beautiful child, Grace, who was here. Her reasons for going 
back and her experience in the program speak to the incredible 
importance that these serve in the overall education policy.
    Programs like those offered to Ms. Wilson help us reach out 
to kids and adults who slip through the cracks and offer them 
an opportunity to move forward not only with their education 
but their careers. Even better, these programs are one of the 
most effective solutions I know of. In Tennessee, 14,600 
individuals earn their GED in a year at a cost of only $275 per 
student that made this happen. This results in over $234 
million in additional taxable income to the State because each 
individual made $9,000 more a year just with that GED. It 
changed their life.
    By supporting the adult education programs in conjunction 
with improving our high schools, I think we will find that our 
education system has far more successes than we give it credit 
for and can have a much broader reach and impact on the next 
generation.
    Similarly, I think there has been a decline in career 
education. I would encourage the committee to take a look at 
the role that the Carl D. Perkins Career and Technology 
Education Program plays in reducing the dropout rate. Some 
students are at high risk of not finishing school because they 
don't think the school has any relevance for them. They want a 
job and a paycheck right away. A career-focused education can 
help them achieve this goal and make sure they get their high 
school diploma.
    The programs offered through this act allow kids who may 
have disengaged from regular high school program to remain 
engaged through their focused programs.
    Finally, I would like to note that as a former mayor, I 
have seen firsthand Federal programs work best when the 
decision-making authority is left in local officials' hands. 
Typically they are most qualified to fix problems that arise in 
their jurisdiction because they know the circumstances 
surrounding the problems.
    So as the committee examines on how to improve high 
schools, I hope we consider allowing true local flexibility 
rather than imposing broad Federal mandates on our high 
schools. I think this topic is particularly timely with our 
present economic situation. Only with an educated workforce 
will we be able to compete in an increasingly global 
marketplace, and I thank the committee for holding this hearing 
and allowing me to testify.
    I yield back, Mr. Chairman.
    [The statement of Mr. Roe follows:]

 Prepared Statement of Hon. David P. Roe, a Representative in Congress 
                      From the State of Tennessee

    Thank you, Mr. Chairman. I am very pleased to be able to testify 
about the importance of high school education. I was just down in 
Nashville this past weekend to see my son graduate from Vanderbilt's 
MBA school. Our economy is still struggling but after interacting with 
the graduates, you get a sense that things will turn around. And that's 
the most important reward we get out of investing in education--hope 
for a better future for our country.
    I grew up in Clarksville, Tennessee and went to school in a one-
room schoolhouse with no running water, but I had committed parents who 
encouraged me to continue my education. I was fortunate enough and 
worked just hard enough to graduate from college and from medical 
school. Receiving my degrees has allowed me to live a good life, so I 
never forget to remind our youth about the importance of education.
    When I speak to students, I always ask them, ``Would you like to 
know how you can earn an extra $250,000 in your lifetime?'' I can see 
on their faces, they're thinking, ``Well, that sounds pretty good to 
me.'' So, I tell them, ``Just graduate from high school.'' I also ask 
them, ``Would you like to know how you can earn an extra $1 million?'' 
``Just graduate from college.'' The fact is, continuing your education 
dramatically improves your chances at having financial success. While 
there's a short-term cost for some of these kids, the investment pays 
off in the long-term.
    In Tennessee, it's particularly important for us to remind our 
teenagers about the financial impact an education can have on your 
life. Our high school graduation rate for the 2004-2005 school year was 
68.5 percent, and that's improved nearly 10 percent over the past five 
years, but we are still below the national average. We still have too 
many who are dropping out--some because of apathy, some because they 
simply need to help pay the bills and put food on the table.
    Having been a stubborn teenager myself, I know you can't convince 
everyone to stay in school. So while I'm sure we will rightly focus 
attention on fostering excellence in our high schools and ensuring that 
fewer kids drop out, I also want to remind the Committee not to forget 
about those people who have already dropped out. I believe we should 
look at adult education programs as an effective and necessary 
complement to the drop out problem. I'm absolutely convinced that you 
have to offer adult education programs that encourage young adults who 
have already left the system to return to get their degree.
    Last week, the Subcommittee on Higher Education, Lifelong Learning, 
and Competitiveness heard testimony from country music star Gretchen 
Wilson about her experience with adult education. Ms. Wilson went back 
to school to receive her GED both for herself and to set an example for 
her child. Her reasons for going back and her experience with the 
programs speak to the incredible importance they serve in our overall 
education policy. Programs like those offered to Ms. Wilson help us 
reach out to kids and adults who have slipped through the cracks and 
offer them an opportunity to move forward not only with their education 
but with their careers.
    Even better, these programs are one of the most cost effective 
solutions I know of. In Tennessee, 14,662 individuals earned their GED, 
and it only cost $275 per student to make this happen. This resulted in 
over $134 million in additional taxable income to the state because 
each individual was making over $9,000 per year more.
    By supporting the adult education programs in conjunction with 
improving our high schools, I think we'll find that our education 
system has far more successes than we give it credit for and can have a 
much broader reach on impacting our next generation's lives.
    Similarly, I think we've seen a decline in career education and I 
would encourage the Committee to look at the role that the Carl D. 
Perkins Career and Technical Education program plays in reducing the 
drop out rate. Some students are at high risk of not finishing school 
because they don't think that school has any relevance for them. They 
want a job and a pay-check right away, and a career-focused education 
can help them achieve this goal and make sure they get their high 
school diploma. The programs offered through the Perkins Act allow kids 
who may have disengaged from ``regular'' high school programs to remain 
engaged through career focused programs.
    Finally, I would note that as a former Mayor, I have seen first-
hand federal programs work best when decision-making authority is left 
in local officials' hands. Typically, they are the most qualified to 
fix problems that arise in their jurisdiction because they know the 
circumstances surrounding problems.
    So as the Committee examines how to improve high schools, I hope we 
consider allowing true local flexibility rather than trying to impose 
broad federal mandates on our high schools.
    I think this topic is particularly timely with our present economic 
situation. Only with an educated workforce will we be able to compete 
in an increasingly global marketplace, and I thank the committee for 
holding this hearing and allowing me to testify.
                                 ______
                                 
    Chairman Miller. Thank you very much, and thank you to all 
of you for taking your time to come and testify. But all of you 
have been involved in this issue for a considerable period of 
time before today's hearing. And it is our intent to address 
this problem in this session of Congress. We would like to move 
forward on this in the most comprehensive way that we can.
    I think all of you have made very important points about 
how comprehensive that really needs to be. Whether it is adult 
education, whether it is identifying and helping young people 
become aware of the opportunity that college can present to 
them and they can participate so that they can be eligible, 
that you worked on so hard, Chaka, in your community.
    I don't have any questions, but again I want to thank you. 
Do any members of the committee? Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, as you 
know, I serve not only on the Education and Labor Committee but 
also on the Judiciary Committee and chair the Crime 
Subcommittee, and there is a very close correlation between 
high school dropouts and crime. Those that drop out are much 
less likely to get a job, make a lot more--businesses don't 
want to move into areas where there is a high dropout rate. 
Much more of those with high dropout rates suffer more welfare, 
and obviously those who drop out are much more likely to end up 
in prison.
    One study showed that African Americans that drop out of 
high school have about a one-third chance of being in jail when 
they are 26 to 30 years old. Obviously much higher than those 
that did not drop out. It is so bad that the Children's Defense 
Fund calls it the cradle-to-prison pipeline.
    We know that if a person graduates they are much less 
likely to be in jail. And when you talk about affordability, 
the money you save in incarceration can more than pay for any 
dropout prevention program that you can afford. It is hard to 
imagine any effective dropout program that does not save more 
money than it costs. Or you can just wait and save the money 
and spend a lot more locking people up.
    Mr. Chairman, when we originally passed No Child Left 
Behind, we insisted that a factor of adequate yearly progress--
that one factor be your dropout rate. If you don't have a 
dropout rate factor, then you have a perverse incentive to let 
people drop out, even push them out. Because they are dropping 
out from the bottom, the more people drop out the higher your 
average is, and you didn't want people to benefit from high 
dropout rates. Obviously as you pointed out, some of the 
schools have a 50 percent dropout rate. That cannot possibly be 
considered by any standard adequate, when half the students 
don't even graduate.
    The bill that you mentioned that I have introduced, the 
Every Student Counts Act, requires an accurate count of who is 
graduating and who isn't and requires you to hit a 90 percent 
graduation rate--not 50, not 50 that we have now, but a 90 
percent graduation rate or at least be making progress towards 
90 percent at a rate of 3 percentage points per year or you are 
not given credit for adequate yearly progress.
    The gentleman from Tennessee, Mr. Roe, mentioned adult 
education. If you do not give credit for adult education 
graduation, you are not going to have adult education programs. 
People are not going to pay money for programs that they don't 
get any credit for. We have to give primary credit to 
graduating from high school with a regular diploma, but you 
also have to get some credit for those adult education 
programs.
    We cannot tolerate these high dropout rates. We have to do 
something. Otherwise we will continue on the trajectory that we 
are on now, where you have these dropout factories and it is an 
insult to suggest that any of those dropout factories are 
making adequate yearly progress.
    I thank our colleagues for their concern on this issue, and 
I look forward to working with them as we do something about 
this problem. Thank you, Mr. Chairman.
    Chairman Miller. Thank you very much. Thank you to all of 
you for taking your time. You are obviously welcome to join the 
committee.
    We will now welcome our second panel. We will get you lined 
up in the right order here. Our second panel will begin with 
Robert Balfanz. Dr. Balfanz is the principal Research Scientist 
at Johns Hopkins University, and his team is currently working 
on over 100 high-poverty secondary schools to develop, 
implement and evaluate comprehensive whole school reforms. He 
is the Co-Director of the Everyone Graduates Center, which 
engages in efforts aimed at ending the Nation's graduation rate 
crisis. Dr. Balfanz is also the co-operator of the Baltimore 
Talent Development High School.
    Michael Wotorson is the Executive Director for the Campaign 
for High School Equity, a partnership of 10 of the Nation's 
leading civil rights and education organizations focused on 
high school reform. He has spent his career advocating support 
for educational equity and civil rights and working for more 
than 15 years as a research advocate and policy analyst. He was 
at the NAACP and has held positions at the Leadership 
Conference on Civil Rights Education Fund, the Fair Employment 
Council of Greater Washington, and the Anti-Defamation League.
    Marguerite Kondracke has been the President and CEO of 
America's Promise Alliance, an organization with more than 300 
national partners currently focused on addressing the Nation's 
high school dropout crisis. Before joining the alliance, she 
served as Special Assistant to Senator Lamar Alexander and 
Staff Director of the Senate Subcommittee on Children and 
Families.
    Scott Gordon is the founder and CEO of Mastery Charter 
Schools in Philadelphia. Mastery opened in 2001 and operates 
four schools serving 1,700 students. Mastery was created to 
close the achievement gap and ensure that all students graduate 
from high school ready for college. In 2005, Mastery created a 
unique partnership with the School District of Philadelphia to 
convert the most struggling middle schools in Mastery charter 
schools. To date test scores have increased substantially, and 
over 85 percent of Mastery's graduates enroll in higher 
education. Mr. Gordon received the New Schools Venture Fund's 
Entrepreneur of the Year Award for his work.
    Dr. Vicki L. Philips is the Director of Education for the 
United States Program of the Bill and Melinda Gates Foundation. 
In this capacity, she oversees work to improve early learning 
to ensure U.S. high school students graduate ready for success 
in college, career and life and improve access to college. 
Prior to joining the foundation Dr. Philips was Superintendent 
of Portland Public Schools in Portland, Oregon and served as 
Secretary of Education and Chief State School Officer for the 
State of Pennsylvania. She has worked previously at the U.S. 
Department of Education and as an adviser of government reforms 
in England and Australia. She began her career as a middle and 
high school teacher.
    Bob Wise, former Governor Bob Wise, became President of the 
Alliance for Excellent Education in February of 2005. He was 
Governor of West Virginia from 2001 to 2005. He fought for and 
signed legislation to fund PROMISE Scholarship Program, which 
has helped thousands of West Virginia students remain in the 
State for college. During his administration West Virginia also 
saw significant increase in the number of students completing 
high school and entering college.
    From 1983 to 2001, Governor Wise served as our colleague in 
the United States House of Representatives, representing the 
Second District of West Virginia, and he also serves on the 
Board of Trustees of America's Promise.
    Welcome to the committee. Thank you for all of the work 
that you have done on this subject and all of the contributions 
that you and your organization have made.
    Quickly, again we will give you 5 minutes to tell us what 
you want us to know. When you begin talking the green light 
will go on in front of you. After 4 minutes, the orange light 
will go on and then in 5 minutes the red light will go on, and 
we will ask you to sum up your testimony in a way that is 
coherent to all of us. That is the challenge.
    Dr. Balfanz, we will begin with you, welcome.

  STATEMENT OF ROBERT BALFANZ, PH.D., RESEARCH SCIENTIST, THE 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Balfanz. I want to thank the chairman and the ranking 
member and the committee for holding these hearings. They come 
not a moment too soon. Our Nation faces a graduation challenge 
that, if we don't meet, will simply leave it unprepared to 
prosper in the 21st century.
    The good news is that I come to this issue as both a 
researcher, a school reformer, and a practitioner. And from all 
of those experiences and knowledges I believe this is not only 
a challenge we can meet--it is a challenge we can meet. And we 
have to do three things. We have to create pathways to college 
and career readiness for all of our students. We have to close 
the achievement gap.
    But the hard news is that even if we did all that hard work 
and succeeded exceptionally well, we would still have a dropout 
crisis until we confront the cold hard fact that the dropout 
crisis is driven by the dropout factories that Chairman Miller 
and others have mentioned.
    These are the 2,000 high schools and their feeder middle 
schools that reliably produce half the Nation's dropouts every 
year and two-thirds of the minority dropouts. They are in every 
State and 77 percent of congressional districts. But within 
these locations they are concentrations in our most neediest 
communities. They are in the automotive cities of the Midwest, 
the textile towns of the South, the challenged neighborhoods of 
our largest cities, and in the boom-and-bust areas that are 
being hit hardest by the foreclosure crisis. As such, they are 
simply the engines of the underclass and a collective drag on 
our national competitiveness.
    The other piece of good news is that this is something that 
we can do. Two thousand high schools and their middle schools 
is a manageable number. It is within the bounds of human 
agency. This breaks down to only 10 to 70 schools in most 
States and only 1 to 3 in most congressional districts. That is 
a number we can wrap ourselves around. That is manageable.
    The second thing is that in the past decade we have made 
great progress in developing tools and models and proof points 
of success. So no one can no longer say this is unsolvable. It 
is too bad, it is horrible, but we can't do anything. That has 
been proven wrong.
    Most excitingly, recently we have developed early warning 
and on-track indicator systems which not only can we target the 
schools, but the kids within the schools. The minute they first 
get into trouble and fall off the graduation path, we can 
mobilize around them.
    And finally, in the past 5 years or so this has gone from 
being a school issue to a community campaign. And that is 
essential for the community to be deeply invested in improving 
the schools and improving the graduation rate. Because they 
bear the cost. And until a community is mobilized, we will not 
have the ability for the long haul. That is happening now.
    The final missing piece of this is the Federal role. We 
need to create a Federal-State local community partnership, and 
with the Federal Government playing a critical active and in 
some places leading role. And they need to focus on four 
things: Accountability. Grad rates need to be coequal with test 
scores in our accountability system. Simply put, everybody has 
got to graduate prepared to do something, college and career, 
they have got to graduate. One of those is not good, you have 
to do both.
    Second, we have to realize that high schools are unique. If 
you need to raise the graduation rate, the ninth grade is when 
kids fall off track. It will take 4 years to have really a big 
impact. You will have incremental improvements, but unless you 
have that 4 years to show big gains, you are not going to show 
big gains, because you have to fix the ninth grade and that 
takes 4 years to pay off.
    Finally, the Department of Ed regulations are a good place 
to start. And Representative Scott's Every Student Counts helps 
codify that and move that forward.
    Second, resources. These high schools and their feeder 
middle schools have the highest concentration of needy students 
in America. They have the most needy students and the highest 
number of them. Yet only half of these high schools get Title I 
money. How can we say that we are using Federal money to 
equalize the impacts of poverty?
    And secondly, we have to realize that because of the crazy 
quilt of funding in our system of State and local, that some 
schools are going to need more Federal resources than others to 
transform. If we want a pragmatic goal of fixing as soon as 
possible, we have to realize that some schools will need more 
resources than others to get the job done quickly.
    Capacity building. We have to both invest in getting the 
schools they resources they need, but invest in the folks that 
can give them the know-how and the technical assistance. The 
Districts, the State Departments of education, the external 
school formal organizations. All of these groups that have 
shown promise need to be strengthened so we can move from 
pockets of success to systematic improvement.
    And finally, we need to do smart targeting and integrated 
efforts. We need to realize that one of the things that has 
held us back is we have had good ideas and applied them in the 
wrong places. We haven't been thoughtful about what the 
specific challenges of this school? What are its resources and 
what are its capacities? What are its needs? What are its 
opportunities? What are its tools?
    When we put that together, what is the reform that makes 
sense? Not this reform works here or this reform works there. 
So let's be smarter about how we choose or reforms.
    The other piece of good news is that we have lots of good 
legislation formed by this committee. The Graduation Promise 
Act, the Success in the Middle, Every Student Counts, the 
Secondary Improvement Fund. We have really good building 
blocks.
    In closing, I want to leave you with this image. Sitting 
here in this beautiful room on this beautiful day, we basically 
know which students are going to drop out in the next 5 years. 
We know which schools they go to, and with a little bit of 
digging we can see them raising their hands and saying help. 
And we know how to do something about it. So that creates an 
obligation to act.
    My argument is that by creating a Federal-State-local 
community effort, all together we will have the ability to meet 
that obligation. Thank you.
    [The statement of Mr. Balfanz follows:]

Prepared Statement of Robert Balfanz, Everyone Graduates Center, Johns 
                           Hopkins University

    I want the thank Chairman Miller, Vice Chairman Kildee, 
Representative McKeon and the Committee for holding this hearing. It 
comes not a moment too soon.
    The nation faces a high school graduation challenge that if unmet 
will leave it unprepared to succeed in the 21st Century. Not only does 
the nation, in the words of President Obama, need to make dropping out 
of high school not an option, it needs to insure that a high school 
diploma means something and leaves all students prepared for college 
and/or post-secondary career training. Simply put, the world has 
changed and there is no work for high school dropouts. Nor are there 
many opportunities that will support a family for students who end 
their education after high school. To fully share in the nation's 
prosperity in 21st Century America, all students need to graduate from 
high school prepared for the further education and training required 
for adult success.
    To meet its graduation challenge, the nation must find a solution 
for its dropout factories. These are the 12 percent of the nation's 
high schools, about 2,000 in number, that year after year, produce more 
than half of its dropouts and close to three-quarters of its minority 
dropouts. In these high schools graduation is not the norm and is often 
at best a 50/50 proposition.
    These high schools are found in every state and 77 percent of 
congressional districts, but are concentrated within them in a sub-set 
of urban and rural low-wealth communities. In these locales, dropout 
factories are often the predominant or only public high school. This 
puts the entire community at risk of being cut off from a modern 
economy, which is driven by human capital or know-how. These high 
schools are the engine of the under-class and collectively place a 
significant drag on the nation's competitiveness. They usually exist, 
moreover, in communities that are already struggling, places where 
industry has left, like the automotive cities of Michigan and the 
textile towns of South Carolina, or the broken neighborhoods of 
Philadelphia and Los Angeles. This is why the dropout crisis has been 
called a silent epidemic. Yet, there is no way for these cities, towns, 
and neighborhoods to re-invent themselves without high schools that 
prepare all their students for post-secondary schooling or training.
    The intense concentration of the nation's dropout factories, in a 
limited number of locales across the nation, however, is in fact what 
makes this problem solvable. It enables us to focus our efforts in a 
relatively few schools, where they will have maximum effect on the 
nation's progress. It is much more likely that we can transform or 
replace 2,000 low-performing high schools, than 20,000. In most states, 
the number is between 10 and 70. In most congressional districts, 
outside of the nation's 10 largest cities, there are commonly one to 
three such schools.
    Moreover, in the past decade we have learned much about what it 
will take to transform the nation's dropout factories, developed 
evidence-based tools and models, and generated ample proof points that 
it can be done. Ten years ago, if you asked people to name some of the 
nation's most intractable school districts, New York and Chicago, would 
come to the top of the list. Yet these are the very districts that have 
made notable progress in graduation rates in recent years and have 
pioneered innovations that are spreading across the nation. At the 
state level, it has been in what were once some of the nation's poorest 
states, such as North Carolina, Arkansas, Alabama, and Kentucky that 
the most improvement have been made. This tells us that progress occurs 
when will and know-how are combined with sufficient capacity and 
accountability systems that encourage effort and innovation.
    Also in the past five years, notable advancements have been made in 
developing early warning and on-track indicator systems, enabling us to 
identify, while there is still time to intervene, the students within 
the nation's dropout factories and their feeder middle schools who will 
need the most support to graduate. This means we can target our efforts 
to both the most challenged schools and their students most in need. 
Early warning and on-track indicator systems also give us a powerful 
accountability tool to make sure schools are getting the right 
intervention to the right student at the right time.
    One essential finding of this research is that it is often possible 
to identify as early as sixth grade up to half of the students who, 
absent effective interventions, will not graduate, and up to 80 percent 
by the ninth grade. This speaks to the need to reform both our nation's 
high schools with low graduation rates and the middle schools where 
their students come from.
    Finally, both the national importance of the dropout crisis and the 
realization that it can be solved has led a growing number of prominent 
non-profit organizations that collectively have deep reach into the 
communities most at need to step up and make the graduation challenge 
one of their top priorities. These include United Way, Boys and Girls 
Clubs, Communities in Schools, City Year, and the Chamber of Commerce. 
The America's Promise Alliance, founded by Colin and Alma Powell, is 
organizing multi-sector efforts uniting business, faith-based efforts, 
mayors' and governors' offices, community organizations, and school 
systems behind evidence-based action plans. Dropout prevention summits 
are being held in all 50 states and 55 cities over two years. Meeting 
the nation's graduation challenge is no longer seen as just a school 
issue, but a community-wide campaign.
    In short, meeting the nation's graduation challenge is a big enough 
issue to matter, but a manageable enough problem to solve.
The Challenge We Face in Transforming the Nation's Dropout Factories 
        and Their Feeder Middle Grade Schools
    Although we know that to meet the nation's graduation challenge we 
must transform the nation's dropout factories, and recognize that the 
know-how and tools exist to do this, we must also acknowledge that 
progress in transforming these high schools, beyond a few leading 
districts and states, has been slow.
    A brief examination of why this is so demonstrates the need for a 
federal role in helping communities transform their dropout factories.
    First, high schools with consistently low graduation rates often 
face extremely high degrees of educational challenge. In these high 
schools, it is typical for the majority of students to enter the ninth 
grade with math and reading skills two or more years below grade level, 
and/or already beginning to disengage from school as witnessed by 
worsening attendance rates and increased behavioral problems. In a high 
school of 1,200 to 2,000 students, this can translate into hundreds of 
students in need of extra support, beyond good everyday teaching.
    Second, by and large, these schools do not have either the 
financial or human resources to meet this degree of educational 
challenge. The nation's dropout factories almost exclusively educate 
poor and minority children. Yet despite having among the highest 
concentration and largest number of needy students, close to half of 
these schools receive no federal Title 1 support. Moreover, the crucial 
ninth grade, because it is typically seen as an undesirable teaching 
assignment, is often staffed by the least experienced and skilled 
teachers. These teachers are not supported by strong professional 
development nor assisted by sufficient numbers of skilled and committed 
adults in support roles. The result is frustration, burn-out, and high 
levels of transiency, making it difficult for reforms to take hold and 
build their impact over time.
    Third, local, state, and federal accountability systems have not 
been designed to require, guide, and support the transformation of 
these high schools. By and large, high schools have been the orphan of 
accountability systems. Their unique needs have not been fully 
considered. Because the majority of students who dropout fall off the 
path to graduation in the ninth grade, it will take four years for the 
full impact of school reform efforts to translate into increased 
graduation rates. Most accountability systems, however, demand results 
within one or at most two years.
    This encourages schools to focus on the smaller number of dropouts 
who fall off-track in the later grades, rather than implementing the 
fundamental reforms needed to transform the entire school. At the 
federal level, moreover, No Child Left Behind heavily weights high 
school accountability to the results of achievement tests given in a 
single grade. This encourages schools to focus all their efforts on the 
sub-set of students who are close to proficient, rather than the larger 
number of students who entered ninth grade two or more years below 
grade level. In some cases, schools even push these students out before 
they reach the tested grade.
    Fourth, we have not paid enough attention to developing mechanisms 
to get the right reform and transformation strategies to the right 
school, with sufficient capacity building and technical assistance to 
enable effective implementation and to sustain it. Too often good 
reform strategies have been applied in the wrong places or without 
enough intensity and fidelity to succeed. This, in turn, has led to 
disappointment with the results, fed the erroneous belief that nothing 
works, and shifted reform attention elsewhere.
    To meet the nation's graduation challenge and transform the 
secondary schools that drive the dropout crisis, we need to create a 
federal-state-local-community partnership dedicated to the task. The 
federal government needs to play four crucial roles.
    First, accountability. Simply put, a high school's graduation rate 
and achievement levels need to have co-equal weight in federal 
accountability frameworks. Every students needs to graduate and all 
students need to earn diplomas signifying that they are prepared for 
post-secondary schooling or career training. It is only when high 
schools understand that both goals need to be achieved that they will 
not be tempted to trade off one for the other. The graduation rate 
regulations issued by the Department of Education in 2008 go a long way 
toward establishing both the accurate measurement of graduation rates 
and raising their importance in federal accountability systems. They 
need to be fine tuned and codified. The Everyone Graduates bill 
sponsored by Representative Bobby Scott (D-VA) achieves this and should 
be passed.
    Second, resources. The federal government needs to insure that the 
most challenged secondary schools have the resources they need to 
succeed. Increased investment in pre-k education, as well as existing 
Title 1 funding, will see its impact muted if students in the most 
vulnerable communities continue to attend dysfunctional middle and high 
schools. Adolescence, in communities of concentrated poverty, carries 
its own set of risk factors that cannot be fully eliminated by more 
positive early education experiences. Up to one-quarter of the students 
who fall off the graduation path in ninth grade, for example, enter 
high school with grade level skills.
    Ensuring that a secondary school's resources match its educational 
challenge will involve two steps. First, full and fair Title 1 funding 
for secondary schools. Second, as is envisioned in the Success in the 
Middle and Graduation Promise Acts, targeted funds based on a careful 
and peer-reviewed analysis of the needs and capacity of each dropout 
factory and its primary feeder middle schools. Some of these schools, 
because of variability in local and state funding and the intensity and 
size of their educational challenges, will need more resources than 
others. There needs to be a mechanism to enable this.
    Third, capacity finding and building. Federal legislation needs to 
be sensitive to the fact, that across the nation the capacity to 
transform dropout factories and their feeder middle schools will rest 
in different places. In some locales, it will be the school district 
that has the wherewithal to transform these schools. In other locales, 
state departments of education can and will need to play a stronger 
role. In still other areas, external technical assistance from 
experienced non-profit providers with a track record in similar schools 
will be required. In addition, federal support will be required to 
increase the capacity of school districts, state departments of 
education, and external school reform organizations and support 
providers to transform low graduation rate high schools and their 
feeder middle schools at the scale required. This is what will enable 
us to move beyond pockets of success to systematic improvements.
    These capacity building efforts could take several forms. These 
could be competitive grants to enable partnerships between states or 
districts and consortia of technical assistance providers, as 
envisioned in the Secondary School Innovation Fund Act or an expansion 
of the community investment boards found in the recently passed Serve 
America Act. For the most impacted communities, we may also have to 
look seriously at the idea of federal Graduation Bonds, which would 
provide the upfront capital needed to replace or re-configure large 
schools of 2,000 or more students that are relics of another era, and 
provide the intensive and large scale teacher training and support 
required to prepare all students for success in post-secondary 
schooling. States would then use the increased tax revenues and lower 
social service costs that would result from dramatically raising the 
graduation rate in communities where dropping out is the norm to re-pay 
the bonds. In addition, federal R and D efforts may be required to 
increase the range of solutions for two particularly challenging sub-
sets of dropout factories: high schools with 2,000 or more students and 
high schools with low graduation rates that are the only high school in 
a district (25 percent of the nation's dropout factories are such).
    Fourth, smart targeting and integrated efforts. Finally and perhaps 
most importantly, the federal government through both its funding and 
accountability mechanisms should enable and promote smarter choices in 
the strategies selected to transform the secondary schools that drive 
the nation's dropout crisis. The good news is that over the past decade 
we have learned that there are multiple ways to successfully transform 
dropout factories and their feeder middle schools. Evidence-based whole 
school reform models have worked, as has replacing failed large schools 
with several smaller new schools. Different governance models, from 
charters to pairing public schools with external operators from school 
reform organizations and universities, have shown promise is some 
locales, as have data-based multiple pathways to graduation within 
large and medium-sized school districts. But nothing has worked 
everywhere it has been tried, which tells us that context matters.
    Before a secondary school receives additional funds to support the 
needed reforms, it should be required to work with its school district 
and, where appropriate and needed, external technical assistance 
providers to develop both needs and capacity assessments. These would 
detail its educational challenge, analyze why prior reform efforts have 
not worked, and identify the capacity it will need. These assessments 
would also show how the school would implement and sustain reforms that 
are comprehensive, sufficiently robust and intense to meet its 
educational challenges and tailored to the specific needs, 
opportunities, and circumstances experience by the school. The schools' 
and districts' needs and capacity analyses, as well as their school 
improvement plans, should then be subject to real and rigorous peer 
review, with technical assistance being provided to the schools and 
districts that need more support to both select the right strategy for 
their circumstances and implement it well.
    The good news is that good legislation is already or soon to be 
introduced into the 111th Congress. These bills collectively go a long 
way toward addressing the nation's graduation challenge and should form 
the cornerstone of federal efforts to transform the secondary schools 
that produce most of the nation's dropouts. The bills include the Every 
Student Counts Act--H.R. 1569--introduced by Representative Scott (D-
VA), The Graduation Promise Act sponsored by Representative Hinojosa 
(D-TX), the Success in the Middle Act sponsored by Representative 
Grijalva (D-AZ), and the Secondary School Innovation Fund sponsored by 
Representative Loebsack (D-IA).
    In conclusion, sitting here today, we can identify most of the 
students in your districts and across the nation, who absent effective 
interventions, will not graduate in the next seven years. We know which 
schools they attend and, with a little attention and effort, we see the 
signals they are sending, signals that clearly say ``help.'' We also 
know how to do something about it. This creates the obligation for us 
to act, to not only make dropping out not an option, but also to 
provide all these students with a pathway to adult success and full 
economic and social participation in 21st Century America. The federal 
government must play a key role in this effort.
                                 ______
                                 
    Chairman Miller. Thank you.

STATEMENT OF MICHAEL WOTORSON, EXECUTIVE DIRECTOR, CAMPAIGN FOR 
                       HIGH SCHOOL EQUITY

    Mr. Wotorson. Thank you, Chairman Miller, ranking member 
and distinguished committee members. Thank you for inviting me 
to testify today, and I also want to express my thanks to the 
Members of Congress who just testified earlier for their 
leadership on raising critical issues related to high school 
reform.
    My name is Michael Wotorson, and I serve as the Executive 
Director for the Campaign for High School Equity, otherwise 
known as CHSE. We are a coalition of 10 civil rights 
organizations representing communities of color focused on high 
school education reform. Our partners are united in the 
conviction that it is every student's right to receive a high 
quality high school education that will expand opportunities 
for success in life.
    I just want to spend a little bit of time talking about the 
education crisis from the perspective of civil rights. To say 
that the state of education in America is a disappointment 
would be an understatement of vast proportions when we consider 
some facts. Black and Latino 17-year-olds read at the same 
level as white 13-year-olds. Of incoming ninth graders, a third 
will drop out and another third will graduate lacking college 
or work-ready skills. African American, Latino, American 
Indian, and Alaskan Native American high school students have, 
at best, a six in 10 chance of graduating from school on time 
with a regular diploma, compared to a national rate of 70 
percent. And for Asian Americans the situation is equally 
bleak. About 50 percent of Cambodians and Laotians and about 60 
percent of Hmong age 25 and older have less than a high school 
education. These facts alone illustrate the reality of the 
crisis and dramatic need for reform.
    I join Secretary Duncan and other education leaders when I 
say that education is the most important American civil rights 
issue of the 21st century. As a consequence of persistent 
inequity and segregation we have two different school systems 
in America today.
    Recently I visited Halifax County in North Carolina, where 
I witnessed firsthand the duality of the American education 
system. First of all, the majority of the residents of Halifax 
County represent communities of color, and this county has the 
highest percentage of families living in poverty. Of the more 
than 23,000 students who dropped out of North Carolina high 
schools in the 2006-2007 school year, students of color, those 
from low-income families were disproportionately represented.
    Halifax County offers a clear picture of the vulgar 
realities that so many children must confront. The fact that 
children in Halifax County are not faced with a challenge, they 
are quite literally faced with an onslaught of challenges, as 
they try to learn basic skills to be successful in life. Lack 
of rigorous curriculum. Lack of access to effective teachers. 
Low expectations, et cetera. The list goes on.
    The situation in Halifax County is quite frankly emblematic 
of the unfinished legacy of the 1954 Brown v. Board of 
Education decision. While Brown ensured children would have 
unfettered access to public education, it did not ensure equity 
in public education.
    So clearly American education policy must change and it 
must change now. We at CHSE believe that the Federal Government 
can help the Nation make great strides towards achieving these 
goals by adopting the following policies:
    First, make all students proficient and prepared for 
college and work. Access to equal opportunity can only exist if 
all students are challenged to reach the same high 
expectations. To that end, we believe states should align high 
school standards, assessments, curriculum and instruction with 
college and work-ready standards; B, we should guarantee that 
all students have access to rigorous and engaging classes in 
core subjects; and C, States should be required to publicly 
report on access to college preparatory classes and course 
taking patterns by income, race and ethnicity, both among and 
within schools.
    Second, we should hold all high schools accountable for 
student success. As it stands, there are very few mechanisms 
for making sure that high schools are held accountable for the 
success of all students. So a well-designed accountability 
system would include, A, codifying in law the current 
graduation rate regulations; B, ensuring that every State makes 
progress on developing longitudinal data systems and allow them 
to measure student progress over time; C, publicly reporting 
disaggregated racial and ethnic data to highlight subjects of 
students; and D, using high quality, valid, and accurate 
assessments for all students.
    Third, we should redesign the American high schools. The 
Federal Government can encourage, incentivize, and require 
systems at the poorest quality high schools by urging the 
following policies be adopted:
    A, integrated student supports that utilizes both in-school 
and community-based services; B, instructional practices such 
as culturally competent learning techniques; C, consistent 
standards and practices such as improved identification and 
assessment systems to facilitate English language learners' 
integration into the public education system; and D, access to 
computers and other learning technologies.
    So clearly there is a lot of work to be done and we must 
gather the collective will to do it. The will should be driven 
by need as well as likely return on our investment. If we can 
implement these policies that will drive reform in high 
schools, we can make a difference.
    Reform works. One only has to speak to the students from 
Gaston College Preparatory High School, a charter school in 
Gaston, North Carolina, that serves a high percentage of low 
income students and is just down the road from Halifax County. 
Every student in this high school, a high school that boasts 
100 percent graduation rate, has been accepted to at least two 
colleges or universities. This should not be the exception in 
American high schools. Frankly, it should be the rule.
    CHSE urges swift passage of an improved ESEA that 
strengthens the accountability as a core element of reform and 
includes critical supports for high schools. Only then will we 
graduate every high school student prepared for college and the 
modern workforce.
    Thank you again for the opportunity and privilege to 
testify before you. The full text of my testimony has been 
submitted to the committee, and I am happy to answer any 
weighs. Thank you.
    [The statement of Mr. Wotorson follows:]

 Prepared Statement of Michael Wotorson, Executive Director, Campaign 
                         for High School Equity

    Chairman Miller, Ranking Member McKeon, and distinguished Committee 
members, thank you for inviting me to testify today. And, thank you to 
Congressman Fattah and Congressman Castle for their testimony and 
leadership in raising critical issues related to high school reform.
    My name is Michael Wotorson and I am the executive director of the 
Campaign for High School Equity, otherwise known as CHSE. CHSE is a 
coalition of leading civil rights organizations representing 
communities of color that is focused on high school education reform. 
It was formed to address the unequal American public education system, 
which does not provide high-quality education to students of color and 
youth from low-income neighborhoods.
    CHSE partners are united in the conviction that it is every 
student's right to receive a high-quality high school education that 
will expand opportunities for success in life.
    CHSE partners include the National Urban League, the National 
Council of La Raza, the National Association for the Advancement of 
Colored People, the Leadership Conference on Civil Rights Education 
Fund, the Mexican American Legal Defense and Educational Fund, the 
League of United Latin American Citizens, the National Association of 
Latino Elected and Appointed Officials Educational Fund, the Alliance 
for Excellent Education, the National Indian Education Association and 
the Southeast Asia Resource Action Center.
    Our goal is to raise awareness of solutions to close the 
achievement gap for students of color and to build public will and 
support among policymakers, advocates and community leaders for 
policies that will increase high school achievement and graduation 
rates for minority and low-income students.
The Education Crisis
    To say that the state of education in America is a disappointment 
would be an understatement of vast proportions.
    Let's consider the facts:
    <bullet> In 2003, our students ranked 15th among 29 countries in 
reading literacy, and 25th in mathematics.
    <bullet> Seven out of 10 8th graders are not proficient in reading, 
and most will never catch up.
    <bullet> Black and Latino 17-year-olds read at the same level as 
white 13-year-olds.
    <bullet> Of incoming 9th graders, one-third will drop out, and 
another third will graduate lacking college and work-readiness skills--
only about one-third will be adequately prepared for life after high 
school.
    <bullet> Contrary to the model minority myth, many Asian Americans 
also face barriers in education. About 50 percent of Cambodians and 
Laotians, and about 60 percent of Hmong aged 25 and older who are 
living in the United States have less than a high school education.
    Student achievement overall is low, but some students, the majority 
of which are students of color and low-income students, never get the 
chance to demonstrate their capabilities. Seven thousand American kids 
drop out of school every day, which adds up to 1.2 million dropouts 
each year. African-American, Latino, American Indian and Alaska Native 
high school students have at best a six in 10 chance of graduating from 
high school on time with a regular diploma, compared to a national 
graduation rate of more than 70 percent of all students. Unfortunately, 
without disaggregated data to account for the 48 Asian American ethnic 
groups, it is currently impossible to accurately measure student 
achievement among Asian Americans in our country.
    Research shows that about 2,000 of America's 17,000 high schools 
produce approximately half of America's dropouts. In these schools--
commonly called ``dropout factories''--less than 60 percent of ninth 
graders are enrolled as twelfth graders four years later. The nation's 
students of color are four times more likely than the nation's non-
minority students to attend one of these low-performing schools, and 
three times less likely to attend a high school with very high 
graduation rates. In fact, dropout factories produce 81 percent of all 
Native American dropouts, 73 percent of all African American dropouts, 
and 66 percent of all Latino dropouts.
    The fastest growing segment of the American public school 
population is comprised of more than 5 million English language learner 
(ELL) students, primarily Spanish-speaking students closely followed by 
students speaking Vietnamese and Hmong. This fast-growing segment of 
students, with the highest growth rates occurring in grades 7 through 
12, is among the lowest performing in the country. In 2007, only 4 
percent of 8th-grade ELL students could read at or above a proficient 
level, compared to 31 percent of non-ELL students. More than 59 percent 
of Latino ELL students ages 16-19 are high school dropouts.
    The facts alone illustrate the stark reality of the crisis and the 
dramatic need for reform in our high schools. Yet communities of color 
and low-income neighborhoods continue to be torn apart by the tragic 
consequences of an unequal public education system that fails to 
provide high-quality education to all.
A Critical Civil Rights Issue
    I echo the likes of Secretary Duncan and other education leaders 
when I say that education is the most important American civil rights 
issue of the 21st century. As a consequence of persistent inequity and 
segregation, we have two different school systems in America. On the 
one hand, we have a system that emphasizes high academic quality and 
serves the nation's privileged students. Yet another system exists that 
emphasizes academic mediocrity and largely serves low-income students 
and students of color. The one consistency in our education system is 
in our high schools that fail to provide students of color and youth 
from low-income neighborhoods with the high-quality education they need 
to succeed in college and in the modern workplace.
    On a recent visit to Halifax County in North Carolina, I witnessed 
firsthand the duality of the American education system. Before I 
address the problem facing these students, let me give you a snapshot 
of Halifax County.
    <bullet> In a county where the majority of residents represent 
communities of color (52 percent of residents are black, 3 percent are 
Native American, and 1 percent are Latino), nearly a quarter (23.9 
percent) of Halifax County's population is below the poverty level, 
giving it the status as the county in North Carolina with the highest 
percentage (19.4 percent) of families living in poverty.
    <bullet> In the 2007-2008 school year (the most recent data 
available), only 25.5 percent of children grades 3-8 are at or above 
grade level in reading, compared to 55.6 percent statewide; and only 
39.7 percent are at or above grade level in math, compared to 69.9 
percent statewide.
    <bullet> No schools in the county--zero elementary, middle or high 
schools--met Adequate Yearly Progress standards under the No Child Left 
Behind Act.
    <bullet> Of the 23,550 students who dropped out of North Carolina 
high schools in 2006-2007, students of color and those from low-income 
families were disproportionately represented. A recent report submitted 
to the North Carolina joint State Legislative Oversight Committee found 
that the counties with the highest dropout rates were also the counties 
where the per capita income was significantly lower than the state 
average.
    Upon my arrival in North Carolina, I was struck, again, by the 
vulgar realities that so many children face. The children in Halifax 
county are not faced with a challenge--they are faced with an onslaught 
of challenges as they try to learn the basic skills they will need to 
be successful in life.
    Nearly one-third of the middle and high school teachers in Halifax 
have less than three years of teaching experience and almost one 
quarter of the middle school teachers left the school district (the 
state average is 15 percent) in the 2006-2007 school year. This makes 
it nearly impossible for the school district to build capacity among 
its teaching force. These children are not only growing up in poverty. 
They are growing up in a school system that expects little of them and 
they get little in return.
    These students lack access to effective teachers and teachers in 
the county lack access to the ongoing support they need to succeed in 
the classroom. Low achievement expectations are furthered by classroom 
curriculum that is not nearly as rigorous as it should be to encourage 
excellence. In communities nationwide with similar demographic and 
socioeconomic profiles as Halifax, each high school student enrolled in 
a different high school is learning quite different skills, which, 
against their will, will predetermine the direction of their future. 
With so many factors working against them, it is hard for these 
children to envision a future; it's hard for them to have dreams much 
less fulfill them.
    Too many American high schools fail to provide a high-quality 
education to the youth who should become our next generation of 
business and political leaders, yet ensuring that all students graduate 
from high school well-prepared for the future is necessary to the 
nation's global competitiveness and economic security. It is our moral 
responsibility to strengthen and improve our schools so that every 
child has the opportunity to meet high expectations and graduate high 
school prepared for work and college, and to fulfill dreams.
    We know that dropouts are more likely than high school graduates to 
grow up in poverty, experience poor health, and be incarcerated. Unless 
trends in minority student achievement and high school graduation are 
reversed, our high schools will be complicit in creating a permanent 
underclass of individuals who cannot provide for themselves and their 
families, and are prevented from actively participating in our 
democracy. It is, unfortunately, the unfinished legacy of the 1954 
Brown v. Board of Education decision. While Brown ensured that all 
children would have unfettered access to public education, it did not 
ensure equity in public education.
Policy Solutions That Will Make a Difference
    American education policy must change now. CHSE advocates for 
policies that support making all students proficient and prepared for 
college and work, holding high schools accountable for student success 
and redesigning the American high school. College and work readiness 
must be a top priority, and we must create an environment in which all 
children can achieve that goal. CHSE believes that the federal 
government can help the nation make great strides towards achieving 
these goals by adopting the following policies.
Make All Students Proficient and Prepared for College and Work
    Access to equal opportunity can only exist if all students are 
challenged to reach the same high expectations.
    <bullet> States must align high school standards, assessments, 
curriculum and instruction with college- and work-ready standards. 
Teaching and testing should be based on what will lead to success in 
the future;
    <bullet> We should guarantee that all students have access to 
rigorous and engaging classes in core subjects. Coursework should 
impart the knowledge and skills needed to excel in postsecondary 
education and career, and assessments should measure student learning 
against these criteria;
    <bullet> States should be required to publicly report on access to 
college preparatory classes and course-taking patterns by income, race 
and ethnicity, both among and within schools; and
    <bullet> Federal education policy that promotes culturally based 
teaching, a practice wherein teachers align instruction to the cultural 
practices and experiences of their students, is critical to helping all 
students succeed.
Hold High Schools Accountable for Student Success
    If the purpose of high school is to prepare students for college 
and work, then high schools should be held accountable for meeting this 
expectation for all students equally. As it stands, there are few 
mechanisms for making sure that high schools accomplish this mission. A 
well-designed accountability system should help communities ensure that 
their schools are serving their children well.
    There is a significant need to hold schools accountable for getting 
students successfully to graduation by including meaningful graduation 
rates in federal school accountability standards.
    The appallingly low rate at which American high schools graduate 
minority students could be reversed by increasing the accountability of 
states and school districts to adhere to standards that promote 
positive outcomes, including graduation and college. A strong system of 
accountability would include:
    <bullet> Codifying in law the current graduation rate regulations 
to make a significant difference in holding high schools accountable 
for the success of all students, particularly students of color and 
youth from low-income neighborhoods, and as a critical factor in 
determining the quality of a high school and effective use of 
resources;
    <bullet> Ensuring that every state continues to make progress on 
developing longitudinal data systems that will allow them to measure 
student progress over time. Improved data systems will not only improve 
the fairness and accuracy of accountability systems, including ensuring 
increased accountability for groups that are often marginalized, such 
as Native Americans and Southeast Asians, but will also allow schools 
to target services such as professional development where they are 
needed most;
    <bullet> Publicly reporting disaggregated racial and ethnic data to 
highlight subgroups of students;
    <bullet> Investing in technical assistance and evidence-based 
school improvement tools;
    <bullet> Using high-quality, valid and accurate assessments for all 
students; and
    <bullet> Disseminating high school data and other information 
through media and other information channels that reach communities of 
color.
    I would like to underscore that a critical element of any 
accountability system is to ensure that states and districts have 
quality data systems capable of collecting disaggregated data, that 
they publicly report disaggregated racial and ethnic data that include 
subgroups of students, and that all data is used to inform educational 
decision making. Making decisions without the benefit of fully 
disaggregated data ignores the unique needs of students of color and 
ill prepares school administrators to allocate resources based on the 
needs of students and teachers. While many states disaggregate data, 
inconsistencies in collection and reporting standards leave entire 
groups of students out of the equation. For example, without fully 
disaggregated data, the needs of whole segments of the Asian American 
and Pacific Islander population are neglected. As a result, entire 
groups of these young people end up falling through the cracks.
Redesign the American High School
    Implementing a variety of quality high school models shown to 
support different learning styles, cultures and student situations is 
critical to achieving success for all students. The federal government 
can encourage, incentivize and require systems that support high-
quality high schools by urging the following policies be adopted.
    <bullet> Integrated student supports that utilize both in-school 
and community-based services can enhance the rate of success for 
minority and low-income students;
    <bullet> Instructional practices such as culturally competent 
learning techniques should be designed to meet the needs of diverse 
learners. More students thrive in the classroom when culture is 
integrated into their coursework, creating an environment where all 
students can excel, regardless of race or socioeconomic status. Data 
reveal that learning in an environment that incorporates native 
language, culture and traditions increases student mastery of and 
achievement in science and math;
    <bullet> Legally and educationally valid criteria to appropriately 
inform decisions regarding student eligibility for services in special 
educational, services for English language learners, college 
preparatory curricula and gifted and talented programs;
    <bullet> Consistent standards and practices such as improved 
identification and assessment systems to facilitate English language 
learners integration into the public education system; and
    <bullet> Access to computers and other learning technologies that 
can be used to complement in-class instruction.
Provide Students with Excellent Leaders and Teachers They Need to 
        Succeed
    Secondary schools designated as needing improvement tend to have 
fewer school resources and poorer working conditions; they also 
disproportionately serve students of color and are located in areas of 
concentrated poverty. Schools with these challenges require especially 
strong leaders. And, it is often difficult to recruit high-quality 
teachers to low-performing schools.
    The federal government can support programs that establish 
incentives to recruit, train, support and retain effective leaders and 
teachers in high-poverty high schools.
Invest Communities in Student Success and Provide Equitable Learning 
        Conditions for All Students
    Creating high-performing high schools that can give all students 
the support they need to succeed is no small task, and it requires 
changing the school as well as an investment from the community. 
Community-based organizations (CBOs) play a critical role in providing 
much-needed wrap-around services, particularly for students of color. 
The federal government should support the creation and expansion of 
multilingual parent centers, CBO-based afterschool and summer programs, 
business-school partnerships and other community-based support services 
needed to help students stay in school and graduate.
    Moreover, high schools in the poorest communities deserve an 
equitable share of resources. In addition to adequate targeting of 
federal funds, we must ensure that the neediest schools have access to 
effective teachers, the best research and practice and services to meet 
the needs of all students, particularly English language learners.
Urgent Call to Act Now
    Clearly, there is much to do, and we must gather the collective 
will to do it. The will should be driven by need as well as a likely 
return on our investments. If we can implement these policies that will 
drive reform of high schools, we can make a difference. Reforms work. 
One only has to speak with students from the Gaston College Preparatory 
high school, a Knowledge is Power Program charter school in Gaston, 
North Carolina, that also serves a high percentage of low-income 
students, just down the road from Halifax County. As a result of 
innovative and effective approaches to high school education, every 
senior in this high school, which boasts a 100 percent graduation rate, 
has been accepted to at least two colleges or universities. This should 
not be an exception in American high schools. Frankly, it should be the 
rule.
    The pending reauthorization of the Elementary and Secondary 
Education Act (ESEA) is a critical opportunity to institutionalize the 
reforms we all know are so important. Congress can ensure better 
support for high schools and ensure strong accountability for improving 
results for high school students, particularly for students of color 
and those from low-income families.
    Waiting any longer to reauthorize ESEA amounts to shutting the door 
on thousands of American high school students and their dreams of a 
successful future. And as important, the high cost of dropping out is 
borne not only by the individual but by all Americans, who pay an 
economic and social price when students leave high school without a 
diploma. CHSE urges swift passage of an improved ESEA that strengthens 
accountability as a core element of reform and includes critical 
support for high schools. Only then will we graduate every high school 
student prepared for college and the modern workforce.
    Thank you, again, for the opportunity and privilege to testify 
before you today. I would be happy to answer any questions you may 
have.
                                 ______
                                 
    Chairman Miller. Ms. Kondracke.

    STATEMENT OF MARGUERITE KONDRACKE, PRESIDENT AND CHIEF 
              EXECUTIVE OFFICER, AMERICA'S PROMISE

    Ms. Kondracke. Chairman Miller, ranking member, and members 
of the committee, thank you for the opportunity to testify and 
thank you for holding this important hearing on what I believe 
is one of the most pressing issues of our Nation.
    America's Promise Alliance was founded by General Colin 
Powell and is chaired today by his wife Alma. Our alliance, 
with over 300 national partners, is dedicated to ending the 
Nation's dropout crisis. As General Powell says, this is not a 
crisis, it is a catastrophe. When half of our young people of 
color and a third of all others are not graduating on time, 
this truly is a nation at risk.
    And many of those who do finish high school are not 
prepared for college or the 21st century workplace. Employers 
tell us they cannot find qualified or even literate employees. 
Colleges tell us too many entering students need remedial work. 
The military tells us they cannot find enough qualified 
recruits. Even dropout students tell us that they were not 
challenged and saw no relevance to the world today.
    I applaud the President when he said a long-term, 
sustainable economic recovery is only possible if we strengthen 
our education system and invest in our children.
    For a young person dropping out, it is a million dollar 
mistake. For our country, cutting in half the dropout rate 
would contribute over 45 billion to our economy.
    Mr. Chairman, the best stimulus package is a diploma. Our 
children and their education deserve to be our highest 
priority. They are the only future we have.
    But there is hope. We do know what to do, and we know where 
we should focus our resources. We can start by focusing on 
those 2,000 dropout factory high schools and their communities.
    There are two influences in a student's life that impacts 
achievement: What happens inside the classroom and what happens 
outside. Both must be addressed if we are to raise graduation 
rates and close the achievement gap.
    Our report, Cities in Crisis, found that there was a 20 
percent difference in graduation rates when you compared urban 
to suburban districts. We must address these inequities to give 
giving to the promise of America for all of our young people. 
In this great democracy, the opportunity to succeed must not be 
an accident of birth.
    It is what happens outside the classroom that often gets 
overlooked, Mr. Chairman. I believe this is where the real 
difference can be made.
    Too many of our young children are going into the classroom 
without the basic supports in their lives that we all take for 
granted. Not appreciating the role that these supports place in 
our child's life is why I believe so many education reform 
efforts have not achieved the gains we have expected. The 
Educational Testing Service recently outlined 16 factors that 
drive student achievement.
    Over half happen outside the classroom. A child can't learn 
if he is hungry, has health problems, maybe has no caring adult 
in his life, doesn't feel safe in his neighborhood, has nowhere 
to go for the kind of after-school enrichment programs and 
tutoring that we would arrange for our own children.
    Inside the classroom we know we must have more rigor and 
relevance. We need stronger, internationally benchmarked 
standards. We have fallen behind almost every country in the 
developed world. I commend the committee for recently holding a 
hearing on this, and I support the administration's efforts to 
make rigorous standards a priority.
    Secretary Arne Duncan has ably outlined what he believes is 
needed for schools, starting with clear standards defining 
world-class excellence, teacher quality, better data, and 
effective ways to track students and measure success.
    But also important is what is happening outside the 
classroom. To solve the dropout crisis we need an integrated 
solution. Research proves that if a young person has four of 
five core resources, he or she will be successful in life. We 
call these the five promises.
    An effective education that gives our young people 
marketable skills is one of those promises. But our children 
also need caring adults, safe places, a healthy start, and 
opportunities to serve, which builds their confidence and self-
worth.
    Having at least four of these five promises closes the 
achievement gap across race and income. Having at least four of 
the five means a young person is twice as likely to do well in 
school and stay out of trouble.
    These are at the heart of our dropout prevention campaign. 
We are holding summits in all 50 States and in 55 cities with 
the highest dropout rate. Every summit is producing an action 
plan.
    Mr. Chairman, there is a role for Congress, as well. 
Locally, these initiatives are spreading across the country, 
but because of the depth of the crisis there must be a larger 
role for the Federal Government. Mr. Chairman, we do not have 
time for incremental change. Congress and the administration 
can play an important role in bringing solutions to scale.
    The Graduation Promise Act is must-pass legislation. 
Complementing it is the Secondary School Innovation Fund from 
Congressman Loebsack and the Every Student Counts Act from 
Congressman Scott; again, Congressman Loebsack, the WE CARE 
Act; and Leader Hoyer, the Full-Service Community Schools Act. 
These are great bills.
    Additionally, I urge Congress to fund the High School 
Graduation Initiative proposed by the President and Secretary 
Duncan. The administration is requesting a $1 billion increase, 
and 40 percent of these school improvement grants will go to 
the dropout factory schools.
    In conclusion, we should not tolerate living in a country 
where three out of 10 students do not graduate on time. We 
should not tolerate living in a country where on-time 
graduation for minority students is a 50-50 proposition.
    We have solutions on the ground, legislative proposals that 
will bring them to scale. Congress can go a long way to solve 
this problem and fortify our economy. We know what to do, we 
are ready to help, and this can be done. Our future depends on 
it.
    [The statement of Ms. Kondracke follows:]

    Prepared Statement of Marguerite Kondracke, President and CEO, 
                       America's Promise Alliance

    Chairman Miller, Ranking Member McKeon, members of the Committee, 
thank you for the opportunity to testify on the most pressing issue 
facing our nation. I am Marguerite Kondracke, President and CEO of 
America's Promise Alliance. Founded by General Colin Powell, we and our 
300 partners are committed to bringing an end to the dropout crisis.
Magnitude of the Problem
    General Powell characterizes the dropout crisis as a national 
catastrophe. A new report commissioned by America's Promise Alliance 
found that only about half (53 percent) of all young people in the 
nation's 50 largest cities graduate on time.
    If altruistic reasons do not compel you, economic ones should. 
McKinsey and Company found that the educational challenges we face 
impose ``the economic equivalent of a permanent national recession.''
    I agree with the President and Secretary Duncan when they say that 
a long-term, sustainable economic recovery is only possible if we 
strengthen our education system.
Contributors to the Crisis
    There are two influences in a student's life that impact 
achievement: what happens inside the school building, and what happens 
outside of it. Both must be addressed if we are to successfully raise 
graduation rates.
    First, we need stronger, internationally benchmarked standards. 
Students deserve standards and curricula that will help them succeed in 
college and careers and compete in the global economy. We are making 
progress in this regard. I commend the Committee for holding a hearing 
on the topic of common national standards just a few weeks ago, and 
support the administration's efforts to make rigorous standards a 
priority.
    Integrated supports are also crucial. ``There are a set of 
foundational things we need to do to meet * * * students' social and 
emotional needs * * * the more we work together * * * the more we 
create an environment where the students can maximize their academic 
potential.''
    These are not my words; they are the words of our Secretary of 
Education, Arne Duncan.
    The Educational Testing Service (ETS) recently outlined 16 factors 
that correlate with student achievement--over half of these factors are 
present in a child's life beyond the classroom. Such factors include 
forced mobility, environmental hazards, hunger and nutrition, health 
care, and the summer learning gap, which puts students so far behind by 
the ninth grade that the prospect of on-time graduation is dim.
    If schools just had to deal with one, or maybe two of these issues, 
they could probably handle it. The problem is that these and many other 
factors accumulate and are concentrated in our schools with the least 
capacity to address them.
The Solution: A Comprehensive Approach
    The dropout crisis calls for a comprehensive solution. Research 
demonstrates that young people need five core resources to be 
successful in life. We refer to them as the ``five promises''--caring 
adults, safe places, a healthy start, effective education, and 
opportunities to serve. These promises provide a simple but powerful 
framework for a robust national strategy to end the dropout crisis, and 
are at the heart of the Dropout Prevention Campaign launched by the 
America's Promise Alliance last year.
    The campaign began with high-level summits, one in all 50 states 
and 55 cities with the largest dropout rates. Within 60 days of each 
summit, states and communities develop action plans that include a 
cross section of stakeholders--educators, the business community, 
nonprofit organizations, and students.
    Locally, initiatives are spreading across the country that combine 
academic and community-based supports to strengthen student 
achievement. Rather than describe these efforts in detail, I will 
discuss the potential role of the federal government in bringing them 
to scale.
    <bullet> The Graduation Promise Act is ``must-pass'' legislation. 
The federal government should not have a heavy hand in high school 
reform. Introduced by Representative Ruben Hinojosa in the 110th 
Congress, this legislation is comprehensive, data driven, and strikes 
the right balance between federal support and local control.
    <bullet> Complementing this proposal are the Secondary School 
Innovation Fund Act (H.R. 2239) introduced by Representative Dave 
Loebsack, and the Every Student Counts Act introduced by Representative 
Bobby Scott (H.R. 1569). These proposals would support research and 
accountability so that we can use taxpayer dollars in the most 
effective ways.
    <bullet> Additionally, I urge Congress to fund the High School 
Graduation Initiative proposed by the President as well as his proposed 
increase for School Improvement Grants in order to turn around the 
nation's lowest performing high schools.
    Broadly speaking, the administration has outlined five pillars for 
education reform: early childhood; world-class college- and career-
ready standards and assessments, teacher effectiveness, innovation/
excellence with a focus on low-performing schools, and higher 
education. To these five items, I suggest adding a sixth: Schools as 
Centers of Community. We must address both what happens inside the 
classroom and outside of it in order to strengthen graduation rates and 
prepare our students for college. As a potential first step, I 
encourage Congress to fund the President's proposal for ``Promise 
Neighborhoods'' to address the effects of poverty and improve 
educational achievements and life outcomes for our children.
Conclusion
    We do not have to live in a country where three out of 10 students 
do not graduate on time, and where on-time graduation for minority 
students is a 50-50 proposition. We have solutions on the ground, and 
legislative proposals that will bring them to scale. By passing these 
proposals, we will solve this problem, fortify our economy, and provide 
our students with the opportunity to experience the promise of America.
Full Testimony
    Chairman Miller, Ranking Member McKeon, members of the Committee, 
thank you for the opportunity to testify on the most pressing issue 
facing our nation: the high school dropout crisis. My remarks will 
cover several key issues: First, I will discuss the compelling 
magnitude of the high school dropout crisis. I will then provide an 
overview of the factors in our schools and in the lives of our students 
that contribute to the crisis. Finally, I will conclude with a 
discussion of ways this issue can be addressed and recommendations for 
the federal role in strengthening graduation rates.
The Dropout Crisis: America's New Silent Epidemic
    America's low graduation rate is our most pressing issue as a 
nation and the culmination of years of failure. Everyone with a stake 
in the future of our children and the nation--schools, parents, 
businesses, community and faith based organizations--have a role to 
play in the resolution of this crisis. We all must work together in new 
and unprecedented ways in support of our children.
    In addition to its significant social implications, the potential 
economic impact of the dropout crisis shows why this issue is our most 
critical national challenge. A recent report by McKinsey and Company, 
The Economic Impact of the Achievement Gap in America's Schools, 
concluded that the persistent achievement gaps facing our country 
impose ``the economic equivalent of a permanent national recession.'' 
\1\ When President Obama and Secretary Duncan say that a long-term, 
sustainable economic recovery is only possible if we strengthen our 
education system, they are precisely correct.
    The dropout crisis may not be as visible or swift as other 
important issues problems facing this Congress and our new 
administration, but its implications are just as severe and lasting. 
The dropout crisis, persisting without acknowledgment or resolution, 
has emerged as America's ``silent epidemic.'' The current recession is 
in the headlines every day, and has demanded action both because of its 
severity and the public attention it has received. Whether or not you 
voted for the Housing and Economic Recovery Act, the Troubled Asset 
Relief Program, or the American Recovery and Reinvestment Act, one 
cannot disagree with this simple point: action is being taken to 
address the economic crisis.
    With the dropout crisis, we have a different story. Although we are 
working diligently to raise public awareness of this issue, it has yet 
to permeate the national agenda. This makes it easier for our actions 
to be slow, inadequate, or even worse, nonexistent. States and school 
districts are rising to the challenge, and they need the federal 
government to be a strong partner in their struggle to provide our 
nation with an educated population, a strong economy, and a stable 
society. Strengthening our graduation rate will take historic focus, 
unprecedented collaboration, and significant resources. The required 
investments in our young people are the most cost-effective investments 
we can make. We must understand that our future is at stake, and we 
must resolve that failure is not an option.
Magnitude of the Dropout Crisis
    General Colin Powell, founding chairman of America's Promise 
Alliance, characterizes the dropout crisis as a ``national 
catastrophe.'' The issue is both broad and deep, creating new economic 
and national security problems as many potential skilled workers and 
military recruits are found to be ill prepared and unsuitable for those 
professions.
    Between 25 to 30 percent of high school students do not graduate on 
time. For young people of color, on-time graduation is a 50-50 
proposition, the flip of a coin. A new report commissioned by America's 
Promise Alliance and developed by the Editorial Projects in Education 
Research Center finds that only about half (53 percent) of all young 
people in the nation's 50 largest cities graduate on time. Despite some 
progress made by several of these cities between 1995 and 2005, the 
average graduation rate of the 50 largest cities is well below the 
national average of 71%, and an 18 percentage point urban-suburban gap 
remains.\2\
Ten Year Trends: 1995 to 2005
    While the nation's 50 largest school districts educate one out of 
eight high school students; they produce one quarter of the nation's 
students who do not graduate on time.\3\ Fortunately, 31 of the 
nation's 50 largest cities have increased their graduation rates 
between 1995 and 2005, ranging from a modest 0.7 percentage point gain 
in Jacksonville, Florida, to a 23 percentage point gain in 
Philadelphia, Pennsylvania.\4\ On the other side of the coin, 19 cities 
have experienced a decrease in their graduation rate, ranging from a 
decline of 0.3 percentage points in Louisville, Kentucky to a 23 
percentage point drop in Las Vegas, Nevada.\5\ On average, the nation's 
50 largest cities had an increase of four percentage points over this 
ten-year window.\6\
    Of course, many factors contribute to these figures, and the devil 
is truly in the details. For example, some of the largest gains come 
from cities with very low graduation rates to start with. Ten of the 
fifty principal school districts began with a graduation rate of less 
than 39 percent in 2005 making significant, mostly double-digit 
improvements over this ten year period.\7\
    Further, although improvements extend across most of the 50 
nation's largest cities, only three of the primary school districts 
within these 50 cities (Mesa, Arizona; Santa Fe, New Mexico; and 
Tucson, Arizona) meet or exceed the national average. In fact, three of 
the principal school districts within the 50 largest cities have 
graduation rates below 40 percent (Cleveland, Ohio; Detroit, Michigan; 
and Indianapolis, Indiana).
Urban-Suburban Gap
    A significant graduation rate gap exists between urban and suburban 
school districts: 18 percentage points separate the metropolitan areas 
of the 50 largest cities from their suburban counterparts.\8\ Fifty-
nine percent of high school students in urban school districts graduate 
on time from high school versus 77 percent of their suburban 
counterparts. The urban-suburban gap is most prominent in the Northeast 
and Midwest, with Baltimore, Cleveland, Columbus, and Milwaukee 
experiencing the largest differentials. In some cases, on-time 
graduation is half as likely for urban students as for suburban 
students.\9\
    But there is good news: although the urban-suburban gap is large, 
it is on the decline. Between 1995 and 2005, 14 of the 41 metropolitan 
regions analyzed by the Editorial Projects in Education Research Center 
saw decreases in the urban-suburban gap, though on average, the gap 
closed by less than a quarter percentage point per year. Many of the 
declines (for example, Philadelphia, Atlanta, Chicago, Columbus, El 
Paso, and New York) resulted from increases in graduation rates among 
urban school districts; however, some resulted from decreases in 
graduation rates on the part of suburban school districts.
Economic Impact
    The economic significance of the nation's low graduation rate 
cannot be overstated, and the message of McKinsey and Company's recent 
study bears repeating: the persistent achievement gaps facing our 
country impose ``the economic equivalent of a permanent national 
recession.'' \10\
    On the macro level, McKinsey estimated the economic impact in 2008 
if the United States had closed the achievement gap fifteen years after 
A Nation at Risk's 1983 release across four permutations: the 
difference between the U.S. and foreign countries, low income and upper 
income students, white and minority students, and America's high and 
low performing states. Their findings amount to nothing less than a 
multibillion dollar lost opportunity:
    <bullet> Closing the international achievement gap would have 
produced a 9 to 16 percent gain in GDP ($1.3 trillion to $2.3 
trillion);
    <bullet> Closing the racial achievement gap would have produced a 2 
to 4 percent gain in GDP ($310 billion to $525 billion);
    <bullet> Closing the income achievement gap would have produced a 3 
to 5 percent gain in GDP ($400 billion to $670 billion); and
    <bullet> Closing the achievement gap between high and low 
performing states would have produced a 3 to 5 percent gain in GDP 
($425 billion to $700 billion).\11\
    On the micro level, high school graduation is a determining factor 
of a student's future income. High school dropouts are less likely to 
be steadily employed and earn less income when they are employed 
compared with those who graduate from high school. Only one-third (37 
percent) of high school dropouts nationwide are steadily employed and 
are more than twice as likely to live in poverty.\12\
    Between 1975 and 2006, income for the workforce as a whole grew, 
with larger income gains accruing for those with additional education. 
High school graduates gained 6 percent, those with some college 
education gained 10 percent, those with a Bachelor's degree gained 23 
percent, and those with a graduate degree gained 31 percent. Earnings 
only dropped over this time period for one group: those without a high 
school diploma had a 10 percent decline in earnings.
    High school dropouts account for 13 percent of the adult 
population, but earn less than six percent of all dollars earned in the 
U.S. In the 50 largest cities, the median income for high school 
dropouts is $14,000, lower than the median income of $24,000 for high 
school graduates and $48,000 for college graduates. The Editorial 
Projects in Education Research Center estimates that earning a high 
school diploma would increase one's annual income by an average of 71 
percent, or $10,000.\13\
Contributors to the Crisis
    There are two major influences in students' lives that impact their 
scholastic achievement: what happens inside the school building and 
what happens outside of it. A number of factors contribute to the high 
school dropout crisis, ranging from the quality of standards and rigor 
in our high schools to the issues impacting students before they ever 
step foot into the classroom. I will highlight several of these issues, 
as they all must be addressed in order to strengthen student 
achievement.
Standards and Expectations for Graduation
    In 1983, A Nation at Risk recommended that schools, colleges, and 
universities adopt more rigorous, measurable standards for academic 
performance and higher expectations for student conduct. This call for 
increased rigor has been carried forth by the Bill and Melinda Gates 
Foundation, the U.S. Chamber of Commerce, and the Obama Administration. 
We need stronger, internationally-benchmarked standards, so that 
students, teachers, parents, and administrators understand the purpose 
and effectiveness of the educational system in which they are part. I 
was glad to see that Congress and the Administration made rigorous 
standards a priority in the American Recovery and Reinvestment Act, and 
I commend the Committee for holding a hearing on the topic of common 
national standards just a few weeks ago. We should all be encouraged by 
the work of the National Governors Association and the Council of Chief 
State School Officers in their efforts with 41 states to begin 
developing voluntary common standards.
    Today, few disagree with the need to raise expectations of student 
performance. We must offer our students challenging curricula and 
standards that are internationally benchmarked and aligned with the 
expectations of college and the workforce. The American Diploma Project 
(ADP) reports that 23 states have aligned their high school standards 
with the expectations of postsecondary education, and that 21 other 
states and the District of Columbia are in the process of moving 
towards such alignment. Additionally, 20 states and the District of 
Columbia require a college- and work-ready curriculum for graduation 
with eight others planning to do so. Ten states include college-
readiness tests as part of their statewide assessment system, and 23 
others are moving in this direction.\14\
Complex Challenges in the Lives of Students
    We must address the quality of the educational experience for our 
students. Equally important, though not duly recognized, is the 
importance of a student's living and learning environment in affecting 
how he or she performs in the classroom. According to Secretary of 
Education Arne Duncan, ``There are a set of foundational things we need 
to do to meet students' social and emotional needs. The more we open 
our school buildings to the community the more we work together, not 
just with our children but the families, the more we create an 
environment where the students can maximize their academic potential.'' 
\15\
    For our students to be successful, we must ensure that our schools 
are adequately funded, our students are taught by high quality 
teachers, students have the opportunity to achieve rigorous standards, 
and schools are held accountable for student success. However, schools 
cannot shoulder the responsibility of educating our children and youth 
on their own. Every year, our students spend about 1,150 waking hours 
in school, and nearly five times that number (4,700 waking hours) in 
their families and communities.\16\ Today's teachers have to act as 
mothers, fathers, social workers, and sometimes even police officers, 
in addition to the central task of educating our students.
    In its recent report, Parsing the Achievement Gap II, the 
Educational Testing Service (ETS) outlined 16 factors that correlate 
with student achievement; over half of these factors are present in a 
child's life before or beyond the classroom, including forced mobility, 
hunger and nutrition, and summer achievement gain and loss.\17\ Another 
study from the School of Education at the University of Colorado and 
the Education Policy Research Unit at Arizona State University outlined 
six ``out of school'' factors that limit what schools, on their own, 
can achieve for our students, including inadequate medical, dental, and 
vision care, family relations and family stress, and neighborhood 
characteristics.\18\ For example:
    <bullet> Forced Mobility: One out of six 3rd graders has changed 
schools three or more times since first grade. These students are one 
and-a-half times more likely to perform below grade level in reading, 
nearly twice as likely to perform below grade level in math, and two-
and-a half times more likely to repeat a grade than their more stable 
peers.\19\ With the recession and foreclosure crisis, the issue of 
student mobility is on the rise. Last year, a group of 330 school 
districts enrolled 31,000 homeless children throughout the entire 
school year. In just the first three months of this school year, that 
same group of school districts identified 41,000 homeless students, an 
increase of 10,000 homeless students by Thanksgiving.\20\
    <bullet> Hunger and Nutrition: One out of six children lives in a 
``food insecure'' household, and minority households are 2.5 times as 
likely as white households to be food insecure.\21\ While a number of 
studies have linked improving student nutrition with measurable gains 
in test scores,\22\ Secretary Duncan states the simple fact clearly and 
to the point: ``If children are hungry, they can't learn.'' \23\
    <bullet> Health: An analysis of health problems and their impact on 
education published by Princeton University and the Brookings 
Institution in The Future of Children estimates that differences in 
health problems and maternal health and behaviors may account for a 
quarter of the racial gap in school readiness.\24\ A simple example of 
the gap in access to health services lies in the critical role played 
by adequate vision in the learning process. Seeing the chalkboard, 
being able to read the words in books, and other vision-related 
activities are prerequisites for learning. However, 50 percent or more 
poor minority and low-income children have vision problems that 
interfere with their academic work; and poor children have severe 
vision impairment at twice the normal rate.\25\ Again, in the words of 
our Secretary of Education: ``If a child can't see the blackboard, they 
can't learn.'' \26\
    <bullet> Summer Achievement Gap: Research from Johns Hopkins 
University found that lack of summer learning opportunities explains 
about two-thirds of the 9th grade achievement gap between high and low 
income students. Therefore, low income youth are much less likely to 
graduate from high school or attend college.\27\ Here's how the summer 
learning gap works: The achievement gap is present once students enter 
school in the first grade. The gap narrows slightly during the school 
year, but then grows each successive summer. By the time a student 
reaches the 9th grade, they are often so far behind that the prospect 
of on-time graduation is dim.
    If schools had to confront only one or two of these environmental 
factors, the challenge could be addressed with relative ease. However, 
educators must address the confluence of many of these factors at the 
same time, which are disproportionately concentrated in the nation's 
poorest schools. Less than 4 percent of white students attend schools 
where 70-100 percent of the students are poor. However, 40 percent of 
black and Latino students attend such high poverty schools. The average 
white student attends schools with 0-30 percent poor students; the same 
can be said for only one out of six black students and one out of five 
Latino students.\28\ We must ``super-resource'' these schools with the 
best teachers and comprehensive supports to address the academic and 
non-academic needs of these future leaders.
    It is important that we have a thorough understanding of the 
prevalence and importance of the larger environmental factors in a 
student's life that influence their academic success. Unless we address 
these foundational issues, not even the best teachers with the highest 
quality curriculum will be able to ensure that every student graduates 
ready for college.
    This is a systemic challenge that can only be solved through 
innovative thinking and unprecedented partnerships. We must openly 
acknowledge and comprehensively address the role played by race, 
poverty and the host of related non-school factors in student 
achievement. Demographics are certainly not destiny, but we ignore them 
at the peril of our students and their achievement.
The Youth Voice
    The youth voice is often overlooked and not included in the 
national dialogue on dropout prevention. In order to determine 
effective solutions to the crisis, their voices must be heard. 
America's Promise Alliance, along with Gallup and the American 
Association of School Administrators, recently launched the Gallup 
Student Poll, a groundbreaking survey of students in grades 5--12. 
Gallup will conduct the poll twice annually, in March and October, and 
the findings will be part of the largest-ever survey of American 
children. The poll will help school systems and communities benchmark 
progress and determine solutions to the dropout crisis.
    In March 2009, the Gallup Student Poll surveyed more than 70,000 
students located in 18 states and the District of Columbia, and more 
than 330 schools and 58 school districts participated. The results were 
verified by polling a nationally representative sample. The poll 
measured three key metrics--hope, engagement and well-being--that 
research has shown have a meaningful impact on educational outcomes and 
more importantly, can be improved through deliberate action by 
educators, school administrators, community leaders and others. 
Questions focused on:
    <bullet> Hope: the ideas and energy students have for the future;
    <bullet> Engagement: the level of student involvement in and 
enthusiasm for school; and
    <bullet> Well-being: how students think about and experience their 
lives.
    Findings from the poll include:
    <bullet> Half of those surveyed (50 percent) reported answers 
indicating they are not hopeful, with one-third (33 percent) indicating 
that they are stuck, while 17 percent feel discouraged.
    <bullet> Nearly two in three students in grades 5--12 surveyed (63 
percent) are thriving; more than one-third are struggling or suffering. 
Struggling and suffering students evaluate life in negative terms, 
struggle to meet daily demands in life and lack some of the resources 
needed to succeed.
    <bullet> Eight in 10 (80 percent) said they smiled or laughed at 
school yesterday, while seven in 10 (70 percent) said they learned or 
did something interesting at school. Just half (52 percent) said they 
were treated with respect all day.
    The findings from this and future Gallup Student Polls will 
highlight causes of the dropout crisis from the perspective of students 
themselves. The youth voice is a critical part of the ongoing dialogue 
on dropout prevention and the results can help communities across the 
country develop initiatives that dramatically change outcomes for our 
young people.
The Solution: A Comprehensive Approach
    The dropout crisis calls for a holistic solution, driven by 
national leadership and local action. Research demonstrates that young 
people need five core resources to be successful in life. We refer to 
them as the ``five promises:'' caring adults, safe places, a healthy 
state, effective education, and opportunities to serve. These promises 
provide a simple but powerful framework for a robust national strategy 
to end the dropout crisis, and they are at the heart of the Dropout 
Prevention Campaign launched by America's Promise Alliance in April 
2008.
America's Promise Alliance Dropout Prevention Campaign
    The campaign begins with high-level summits in all 50 states and 
the 55 cities with the largest dropout rates in order to raise the 
visibility of America's ``silent epidemic.'' Within 60 days of each 
summit, states and communities are required to develop action plans 
that include a cross section of stakeholders: educators, the business 
community, nonprofit organizations, and students. Communities receive 
technical assistance from the Alliance, utilizing Grad Nation, a 
comprehensive resource described in more detail below. A concentrated 
effort will take place in twelve communities leveraging the collective 
resources of the Alliance's strongest partners.
    To date, 36 high-level summits have been held in cities 
nationwide--bringing together more than 14,000 mayors and governors, 
business owners, child advocates, school administrators, students, and 
parents to develop workable solutions and action plans. An additional 
50 are planned before the end of the year and all 105 will be completed 
by April 2010. The presenting sponsor for the Dropout Prevention 
Campaign is the State Farm Insurance Company, and other major sponsors 
include AT&T, The Boeing Company, Ford Motor Company Fund, ING 
Foundation, Bill & Melinda Gates Foundation, The J. Willard and Alice 
S. Marriott Foundation, The Wal-Mart Foundation, Simon Foundation for 
Education, Chevron, Peter G. Peterson Foundation, Casey Family 
Programs, The Annie E. Casey Foundation, Carnegie Corporation of New 
York, Bank of America, The Annenberg Foundation and Capital One.
    Already, cities and states that held summits last year have started 
implementing changes based on the discussions and early results are 
promising. One of the most significant success stories hails from 
Detroit, the first district to host a summit. The city set a ten-year 
goal to graduate 80% of its youth from the 35 high schools with 
significant dropout rates. To support this effort, the local United Way 
announced the creation of The Greater Detroit Venture Fund, a $10-
million fund to assist these schools and improve ACT scores so students 
are better prepared to apply for college. Since this summit, the city 
has shuttered, reconstituted, or clustered together eleven of those 35 
schools as part of a comprehensive turnaround process The effectiveness 
of the summits is also seen in Louisville, Kentucky, which set a 10-
year goal to cut dropout rates in half, and Tulsa, Oklahoma, where as a 
result of their summit, an innovative career exploration program has 
been implemented
Schools as Centers of Community
    Across the country, schools and communities are partnering to meet 
the comprehensive needs facing students and increase their achievement 
in the classroom. I will highlight two such initiatives that 
demonstrate measurable results and should be brought to scale:
    <bullet> While Chief Executive Officer of the Chicago Public 
Schools (CPS), Secretary Duncan supported 150 ``community schools'' 
that offered a range of community-based services to students including 
health care and after school programs, creating the nation's largest 
district-led ``community school'' effort. An evaluation of this 
initiative found that nearly half of the students in ``community 
schools'' had increased math and reading grades, and that between 2001 
and 2006, ``community schools'' had greater gains in math and reading 
than ``regular'' CPS schools.\29\ Secretary Duncan recently said, ``The 
money that I spent on this to open our schools longer in Chicago was 
arguably the best money I spent because it was so highly leveraged.'' 
\30\ CPS invested in both instructional improvements and support 
services, leveraging resources from the community into schools, and 
producing measurable results. This strategy should be expanded 
throughout the country.
    <bullet> Communities In Schools (CIS) is the nation's largest 
dropout prevention organization, serving 1.2 million students in 27 
states. CIS partners with schools and school districts to provide at-
risk students with the five core resources: caring adults, safe places 
during non-school hours, access to health services, marketable skills, 
and opportunities to give back to peers and the community. A national 
evaluation found that CIS schools have lower dropout rates and higher 
graduation rates than comparison schools.\31\ Additionally, the 
graduation rate increase of CIS Performance Learning Centers, offering 
targeted academic and support services in small settings, was three-
and-a-half times greater than that of comparison schools.\32\
Grad Nation
    Grad Nation is a first-of-its-kind research-based toolkit for 
communities seeking to reduce their dropout rate and better support 
young people through high school graduation and beyond. With more than 
one million students dropping out of high school each year, Grad Nation 
is specifically designed to offer solutions and tools for every size 
community and presents a compelling case for all sectors of society to 
get involved. The guidebook is part of the Alliance's Dropout 
Prevention Campaign, which launched in April 2008, and is sponsoring 
105 Dropout Prevention Summits in all 50 states through 2010.
    Commissioned by the Alliance and authored by Robert Balfanz, Ph.D. 
and Joanna Honig Fox from the Everyone Graduates Center at Johns 
Hopkins University and John M. Bridgeland and Mary McNaught of Civic 
Enterprises, Grad Nation brings together--in one place--the nation's 
best evidence-based practices for keeping young people in school. It 
includes information on everything from making the case to the 
community on the need to act to establishing ``early warning'' systems, 
implementing effective school transformation strategies, and building 
proven ``multiple pathways'' to graduation, as well as wrapping the 
most appropriate services around students so they can surmount the 
challenges they face.
    Grad Nation gives communities a comprehensive set of tools 
necessary to rally collective support to end the dropout crisis, 
understand and communicate the dimensions of the dropout challenge in a 
particular, develop effective action strategies to improve graduation 
rates, prepare youth for advanced learning after high school, and build 
strong, lasting partnerships that involve all sectors of a community.
Federal Policy Recommendations
    The federal government has the opportunity and the responsibility 
to be a strong partner with states and communities in addressing the 
dropout crisis. Federal education policy currently does little to 
support the nation's high schools, and that must change. I recommend 
the following:
    <bullet> Schools as Centers of Community: The administration has 
outlined five pillars for education reform: expanding access to early 
childhood; world-class college- and career-ready standards and 
assessments, teacher effectiveness, innovation/excellence with a focus 
on low-performing schools, and increasing the number of people pursuing 
higher education. To these five items, I suggest adding a sixth: 
Schools as Centers of Community. We must address both what happens 
inside the classroom and outside of it in order to strengthen 
graduation rates and prepare our students for college. By making 
schools the centers of our communities, we can leverage the resources 
of a wide range of stakeholders in supporting the success of our 
students. This must be a priority for the reauthorization of the 
Elementary and Secondary Education Act (ESEA). As a potential first 
step, I encourage Congress to fund the President's proposal for 
``Promise Neighborhoods'' to address the effects of poverty and improve 
educational achievements and life outcomes for our children.
    <bullet> Turnaround Low Performing High Schools: Important 
legislation was introduced in the previous Congress that would create 
an appropriate federal role in the improvement of the nation's high 
schools. The Graduation Promise Act (H.R. 2928/110th Congress), 
introduced by Representative Ruben Hinojosa, authorizes $2.5 billion 
annually in order to target resources toward those high schools 
producing substantial numbers of high school dropouts. This legislation 
is comprehensive, data-driven, and strikes the right balance between 
federal support and local control.
    <bullet> Promote Innovation: Every high school is different, and 
although they face similar challenges, there is no ``one size fits 
all'' solution to the dropout crisis. Congress should pass the 
Secondary School Innovation Fund Act (H.R. 2239), introduced by 
Representative David Loebsack, in order to support and evaluate 
innovative approaches to turning around the nation's lowest performing 
high schools. We must learn more about the most effective strategies, 
and bring them to scale.
    <bullet> High School Accountability: As we provide additional 
resources to turnaround low performing high schools, we must hold them 
accountable for results. The Every Student Counts Act (H.R. 1569) 
codifies into law and strengthens much of the policy that the 
Department of Education has recently implemented through regulation 
regarding graduation rates, including a common definition of the 
graduation rate and reasonable requirements for growth in order for 
schools to make adequate yearly progress under No Child Left Behind.
    <bullet> Comprehensive Student Supports: Several bills have been 
introduced that support the vision of ``schools as centers of 
community.'' The WE CARE Act (H.R. 3762/110th Congress), introduced in 
the previous Congress by Representative David Loebsack, inserts the 
notion of schools as centers of community throughout Title I, Part A of 
ESEA. The centerpiece of the proposal is an incentive fund to support 
``community involvement policies'' at the local level that would 
support partnerships among school districts and community organizations 
to leverage local resources in order to meet students' non-academic 
needs and prepare them for success in the classroom.
    The Full Service Community Schools Act (H.R. 2323/110th Congress) 
was introduced by Majority Leader Steny Hoyer and would fund 
partnerships between schools and community organizations to provide 
student support services in schools. The Department of Education 
received a $5 million appropriation for this purpose and last year 
received 400 applications but was only able to fund 10 proposals.
    The Keeping Parents and Communities Engaged Act (S.1302/110th 
Congress) was introduced by Senator Edward Kennedy and would provide 
grants to school districts for parent and community engagement 
coordinators, for community based organizations to leverage services 
into schools, and for partnerships among mayors, school districts, and 
community organizations to renovate schools so they can be more 
effectively used as centers of community.
    <bullet> FY 2010 Appropriations: I urge Congress to fund the High 
School Graduation Initiative proposed by the President, as well as his 
proposed increase for School Improvement Grants, to turn around the 
nation's lowest performing high schools.
Conclusion
    We do not have to live in a country where three out of 10 students 
do not graduate on time, and where on-time graduation for minority 
students is a 50-50 proposition. What I hope you take away from this 
testimony are four key points:
    <bullet> You are right to focus on the high school dropout crisis; 
it is our most pressing national challenge and we don't have time for 
incremental progress.
    <bullet> The crisis results from a combination of factors in 
schools and in the lives of our students; we must address both in order 
to increase graduation rates.
    <bullet> We have solutions on the ground, and legislative proposals 
that will bring them to scale.
    <bullet> By passing these proposals, we will solve this problem, 
fortify our economy, and provide our students with the opportunity to 
experience the promise of America.
                                endnotes
    \1\ McKinsey and Company (2009). The Economic Impact of the 
Achievement Gap in America's Schools. Retrieved May 6, 2009 from http:/
/www.mckinsey.com/clientservice/socialsector/achievement--gap--
report.pdf.
    \2\ Christopher Swanson (2009). Cities in Crisis 2009: Closing the 
Graduation Gap: Educational and Economic Conditions in America's 
Largest Cities. Bethesda, Maryland: Editorial Projects in Education 
Research Center.
    \3\ The principal school districts of America's 50 largest cities 
collectively educate 1.7 million public high school students and 
produce 279,000 of the 1.2 million high school students who do not 
graduate on time (Ibid., p. 13).
    \4\ Swanson, 2009.
    \5\ Ibid.
    \6\ Ibid.
    \7\ Ibid.
    \8\ Ibid.
    \9\ Ibid.
    \10\ McKinsey and Company (2009).
    \11\ Swanson, 2009.
    \12\ Ibid.
    \13\ Ibid.
    \14\ American Diploma Project Network, Closing the Expectations 
Gap. Washington, DC: Achieve, Inc., 2009. Retrieved May 6, 2009 from 
http://www.achieve.org/closingtheexpectationsgap2009.
    \15\ Arne Duncan, U.S. Secretary of Education, Interview with 
Charlie Rose, available at http://www.charlierose.com/view/interview/
10140
    \16\ David Berliner (2009). Poverty and Potential: Out-of-School 
Factors and School Success. Boulder and Tempe: Education and the Public 
Interest Center and Education Policy Research Unit. Retrieved May 6, 
2009 from http://epicpolicy.org/publication/poverty-and-potential.
    \17\ Paul Barton and Richard Coley (2009). Parsing the Achievement 
Gap II. Princeton, New Jersey: Educational Testing Service. Note: This 
report uses the term ``frequent school changes.'' I use the term 
``forced mobility'' because it more accurately describes the living 
circumstances of our most at-risk students that, in turn, causes 
reductions in school performance. For additional information, see 
Duffield and Lovell (endnote 20).
    \18\ Berliner, 2009.
    \19\ General Accounting Office. (1994). Elementary school children: 
Many change schools frequently, harming their education (GAO/HEHS-94-
45). Washington, DC: Author.
    \20\ For additional information, see Barbara Duffield and Phillip 
Lovell (2008). The Economic Crisis Hits Home: The Unfolding Increase in 
Child and Youth Homelessness. Washington, DC: National Association for 
the Education of Homeless Children and Youth and First Focus.
    \21\ Interagency Forum on Child and Family Statistics (2008). 
America's Children in Brief: Key National Indicators of Well-Being, 
2008. Washington, DC: Author, Table ECON3A. Retrieved May 6, 2008 from 
www.childstats.gov.
    \22\ Barton and Coley, 2009.
    \23\ Arne Duncan, U.S. Secretary of Education, Interview with 
Charlie Rose, available at http://www.charlierose.com/view/interview/
10140
    \24\ Janet Currie (2005). Health Disparities and Gaps in School 
Readiness. Future of Children, vol. 15, no. 1, 117-138. Retrieved May 
6, 2009 from http://muse.jhu.edu/journals/future--of--children/v015/
15.1currie.pdf.
    \25\ Richard Rothstein (2004). Class and Schools: Using Social, 
Economic, And Educational Reform to Close the Black-White Achievement 
Gap. Washington, DC and New York: Economic Policy Institute and 
Teachers College Press.
    \26\ Arne Duncan, U.S. Secretary of Education, Interview with 
Charlie Rose, available at http://www.charlierose.com/view/interview/
10140
    \27\ Karl Alexander, et al., ``Lasting Consequences of the summer 
learning gap.'' American Sociological Review, v72, April 2007. 
Retrieved May, 6, 2008 from http://www.asanet.org/galleries/default-
file/April07ASRFeature.pdf.
    \28\ Berlin, 2009.
    \29\ Samuel Whalen (2007). Three Years Into Chicago's Community 
Schools Initiative: Progress, Challenges, and Emerging Lessons. 
Chicago: College of Education, University of Illinois at Chicago.
    \30\ Arne Duncan, U.S. Secretary of Education, Interview with 
Charlie Rose, available at http://www.charlierose.com/view/interview/
10140
    \31\ Communities In Schools (2008). Communities In Schools and the 
Model of Integrated Student Services: A Proven Solution to America's 
Dropout Epidemic. Alexandria, VA: Author. Retrieved May 6, 2009 at 
http://www.cisnet.org/about/NationalEvaluation/Normal.asp?Segment=5.0. 
The evaluation found: ``For every 1,000 high school students, 36 more 
students at high implementing CIS schools remain in school'' (p.5).
    \32\ The Performance Learning Center: Communities In Schools Small 
Schools Model Promoting Graduation and College Readiness. Presentation 
for the Alliance for Excellent Education on April 22, 2009. In author's 
possession.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Gordon?

  STATEMENT OF SCOTT GORDON, CHIEF EXECUTIVE OFFICER, MASTERY 
                        CHARTER SCHOOLS

    Mr. Gordon. Mr. Chairman, distinguished members of the 
committee, thank you for inviting me here. My name is Scott 
Gordon. I am the CEO of Mastery Charter Schools in 
Philadelphia.
    Mastery operates four schools, serving 1,700 students in 
grades 7 through 12. Three of those schools were turnarounds of 
failing school district middle schools. As a turnaround, 
Mastery enrolled the existing students and continued operating 
the school as a neighborhood school.
    So, in many ways, these turnaround schools are perfectly 
controlled experiments for school reform: the same students, 
the same neighborhood, the same buildings. The only variable 
that changed were the adults.
    So why is this important for us today? To answer that 
question, I want to put the problem we face in secondary 
education in context. Take a moment and examine how the current 
system is serving the children in my hometown of Philadelphia.
    Every year, approximately 20,000 first-graders will enter 
Philadelphia public schools. In a globally competitive, 
knowledge-based economy, most of us would agree that, 12 years 
later, we want to see those 20,000 first-graders enter college 
and graduate. So how are we doing?
    Philadelphia's dropout rate is 47 percent. So 9,400 of 
those 20,000 students will never even make it to their high 
school graduation. Of the 10,600 students who remain, two-
thirds will not be able to score ``proficient'' on the 
Pennsylvania State Standardized Assessment. This assessment is 
a basic competency test, essentially the minimum a high school 
student should know, and it is statistically correlated to 
college graduation.
    That leaves just 3,500 students with a shot at graduating 
college, 3,500 students of 20,000 who began, a failure rate of 
82 percent.
    It gets worse. The national college persistence rate for 
African Americans is just 40 percent. So it is likely that less 
than half of the students who graduated from high school will 
actually persist and obtain a college degree.
    An absolute catastrophe, year after year. As educators, our 
job is to educate young people as citizens who are productive 
participants in our economy. We are not even close. Our house 
truly is on fire.
    We do not need to tolerate this failure. In Mastery's three 
turnaround schools, average scores on the Pennsylvania 
assessment increased 35 points per grade in every subject, 
violence decreased 85 percent, student turnover decreased by a 
third.
    And these were Philadelphia's most difficult schools. To 
give you a snapshot, the Shoemaker Middle School, which we 
turned around in 2006, was the city's second most violent 
school. That means two police officers for just over 300 13-, 
14-, and 15-year-old kids, yet those police officers were 
unable to prevent eight adults from being assaulted.
    At the Pickett Middle School, which we converted just last 
year, 7 percent of seventh-graders were proficient in reading 
and 9 percent were proficient in math.
    Yet, at the Shoemaker School, it took Mastery just 2 years 
to close the achievement gap between the low-income, minority 
students we serve and their statewide peers. At the Pickett 
School, Mastery increased test scores over 40 points in just 1 
year.
    It can be done. And I am here to represent a proof point 
that we can turn around failing urban schools. It can be done, 
it can be done quickly, and it can be done at scale.
    How? First, we need urgency and accountability. Set the bar 
high. Without high standards in No Child Left Behind, there 
will be no pressure for change. You will hear critics say that 
standardized tests do not appropriately assess a child's 
learning or preparedness for college, that it will result in 
teaching to the test. Why don't we hear the same outcry about 
AP tests or SAT tests or ACT tests? As knowledge jobs move 
across the globe to places that have a highly educated 
workforce, I don't imagine our peers in Beijing or Seoul or 
Warsaw suggesting that the test is the problem.
    According to the OECD, our Nation has slipped to 18th in 
reading and 28th in math in international rankings. It is not 
because we are teaching to the test; it is because our students 
can't pass the test. We need more accountability, not less.
    Second, we need to ruthlessly focus on outcomes. Grow what 
works, and eliminate what doesn't. We exercise this common 
sense in every aspect of our society except education. In 
education, there are ongoing conversations about process and 
means. At high school levels, conferences are filled with 
lively debates about making curriculum more relevant, about 
making it more project-based, about learning communities, about 
whether the charter school growth is good or bad. Don't listen. 
Instead, as policymakers, I urge you to focus on outcomes and 
accountability only, not the means. The house is on fire. 
Reward those who produce results now.
    In education, we have the notion that schools operate 
differently from the rest of the economy; schools are not like 
the private sector because kids are not like widgets. Fair 
enough. But adults are still adults. And the commonsense 
management practices that drive successful organizations, be 
they hospitals, software companies, or schools, are still the 
same: High-performing organizations set clear goals. They hold 
management and employees accountable for results. They hire 
high-quality talent. They promote the best. They supervise 
staff and monitor their performance.
    In contrast, at public schools, pay and promotion is based 
on seniority or educational degrees and certification that have 
no proven relationship with student outcomes. Teachers are 
observed twice a year for 45 minutes. Imagine running an 
organization where you do not set goals for your staff, you do 
not supervise them, you do not reward good performance nor 
react to low performance. An 82 percent failure rate would not 
be a surprise.
    You can accelerate change by rewarding what works and 
penalizing what doesn't. Encourage failing schools to be 
closed, and turn them around. In Philadelphia, under the 
leadership of our new superintendent, Arlene Ackerman, we are 
going to close 35 schools over the next 4 years. Turnaround 
managers, such as Mastery, as well as internal district 
turnaround teams, will be contracted to manage these schools. 
Managers who do not produce results will lose their contracts: 
Simple.
    Support bold initiatives like this. By creating an 
accountability system, we can leverage what works and create 
pressure for real systemic change. Thank you.
    [The statement of Mr. Gordon follows:]

    Prepared Statement of Scott Gordon, CEO, Mastery Charter Schools

    Mr. Chairman and Distinguished Members of the Subcommittee, thank 
you for inviting me to be here.
    My name is Scott Gordon and I am the CEO of Mastery Charter Schools 
in Philadelphia. Mastery operates four schools serving 1,700 students 
in grades 7-12. Three of those schools were turnarounds of failing 
School District middle schools. The turnarounds were initiated at the 
request of the School District of Philadelphia, under then 
Superintendent Paul Vallas. The structure of the turnarounds required 
that Mastery continue operating as a neighborhood schools and enroll 
all of the students currently attending. So, in many ways these 
turnaround schools are perfect controlled experiments on school reform. 
The same students, the same neighborhood, the same building--the only 
variable that changed was the adults.
    So why is this important?
    To answer that question, I want to put the problem we face in 
secondary education in context. Let's take a moment and examine how 
well the current system is achieving its goals in my hometown, 
Philadelphia.
    Every year approximately 20,000 first graders enter Philadelphia's 
public schools. In a globally competitive, knowledge-based economy, 
most of us would agree that 12 years later, we need the overwhelming 
majority of those 20,000 first graders to enroll and graduate from 
college. So, let's look at how well we are doing * * * With a drop-out 
rate of 47%, 9,400 of those students will never even make it to their 
high school graduation. Of the 10,600 students who remain, two-thirds 
will not be able to score proficient on the Pennsylvania State 
Assessment. This assessment is a basic competency test--the minimum a 
high school student should know--and is statistically correlated with 
college success. Essentially that means that two-thirds of students who 
receive a high school diploma will not have the skills required for 
post-secondary education. That leaves just 3,500 students with a shot 
at graduating college. 3,500 students of the 20,000 who began--a 
failure rate of 82%. And unfortunately the national college persistence 
rate for African Americans is just 40%--so it is likely that less than 
half of the students who start as college freshman will actually 
graduate with a degree. 20,000 students go into the system, less than 
3,000 students come out of the system ready to compete in today's 
economy. An absolute catastrophe. Year after year. Our house is on 
fire. As educators, our job is to prepare young people as citizens who 
are productive participants in our economy. We are not even close. We 
are failing generations of youth in urban schools across our nation.
    We do not need to tolerate this failure. In Mastery's three 
turnaround schools, average scores on the Pa. assessment test increased 
35 percentage points per grade in every subject. Violence decreased 
85%. Student turnover dropped by a third. And these schools were 
Philadelphia's most difficult. Let me give you a snapshot. Shoemaker 
Middle School, which we turned around in 2006, was the city's 2nd most 
violent school. There were 2 police officers for 300 13, 14 and 15 year 
olds. Yet those officers were not able to prevent 8 adults from being 
assaulted. At the Pickett middle school, which we turned-around in 
2007, just 7% of 7th graders scored proficient in reading and 9% in 
math. Yet, at Shoemaker it took Mastery just two years to close the 
achievement gap between our low-income, minority students and their 
state-wide peers--in fact our students are now closing the gap with the 
highest performing suburban schools. The school recently won the EPIC 
award for value added academic achievement. At the Pickett school, 
Mastery increased test scores over 40 percentage points in just one 
year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It Can Be Done. I am here today to represent a proof point that we 
can turnaround failing urban schools. It can be done and it can be done 
quickly at scale. There are no excuses.
    How?
    First, we need urgency and accountability. Set the bar high. 
College readiness must be the bar for nearly all of our youth. Without 
high standards in NCLB, there will be no pressure to change our 
schools. You will hear critics say that standardized tests do not 
appropriately assess a child's learning or preparedness for college--
that they result in ``teaching to the test''. Why don't we hear the 
same outcry against AP tests? Or the SAT or ACT? As knowledge jobs move 
across the globe to the places that have a highly educated workforce, I 
don't imagine our peers in Beijing, or Soul, or Warsaw, suggesting that 
the test is the problem. According to the Organization for Economic 
Cooperation and Development our nation has slipped to 18th in reading 
and 28th in Math in international rankings of education. It is not 
because we are teaching to the test. It is because our students can't 
pass the test. We need more accountability, not less. Do not water-down 
NCLB requirements.
    Second, we need to ruthlessly focus on outcomes. Grow what works 
and eliminate what doesn't. We exercise this type of common sense in 
every area of our society--except education. In education, there is an 
ongoing conversation about process and means. At the high school level, 
conferences are filled with lively debates about making the curriculum 
more ``relevant'' and ``project-based'' and about creating ``learning 
communities''. Endless debates continue over the growth of charter 
schools. Don't listen. Instead, as policy makers I urge you to focus on 
outcomes and accountability and not the means. The house is on fire. 
Reward whoever produces results now.
    In education, we have the notion that schools operate differently 
than the rest of the economy--schools are not like traditional 
businesses because ``kids are not widgets''. They are not. But adults 
are still adults--and the common sense management practices that drive 
successful organizations--be they hospitals, software companies, or 
schools--are the same. High performing organizations set clear goals. 
They hold management and employees accountable for results. They 
measure progress continually and adjust to meet changing conditions. 
They hire the highest quality talent, and promote the best. They 
supervise staff, monitoring and supporting their performance. They 
promote the high performers and exit non-performers--basic functions of 
management. In contrast, at most public schools, pay is based on 
seniority or educational degrees that have no proven relationship with 
student outcomes. Folks are promoted based on their certifications, not 
performance. Teachers are observed for 45 minutes twice a year. As a 
field we don't attract the best and brightest. We don't fire the worst. 
We quibble over whether we should extend teachers' contract to an 8 
hour day. We have an 82% failure rate--I can assure you it will take an 
8 hour day to put out this fire. Imagine running an organization where 
you do not set goals for your staff, where you do not supervise them, 
and you do not reward good performance or respond to low performance.
    By setting the bar high and by demanding accountability, you will 
force education to change. You can accelerate that change by rewarding 
what works and penalizing what doesn't. Encourage failing schools to be 
closed and turn them around. In Philadelphia, under the leadership of 
our new Superintendent Arlene Ackerman, we are going to close up to 35 
schools over the next four years. Turnaround managers such as Mastery, 
as well as internal District turnaround teams, will be contracted to 
turnaround these schools. Those who succeed will have the opportunity 
to manage additional schools. Those who don't produce results, will 
lose their contract. Simple. Support bold initiatives like this. By 
creating an accountability system, we can leverage what works to put 
pressure for systems change.
    Thank you for your time.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Phillips?

 STATEMENT OF VICKI L. PHILLIPS, ED.D., DIRECTOR OF EDUCATION 
    FOR THE U.S. PROGRAM, BILL AND MELINDA GATES FOUNDATION

    Ms. Phillips. Chairman Miller, members of the committee, 
thank you so much for continuing to confront some of the most 
important challenges of American education and for the 
privilege of being here.
    The crisis in American high schools is brutally simple: Too 
few students are making strong academic gains during the high 
school years. For too many students, academic performance 
remains flat or even declines in high school. And this is 
especially true among the populations that are of special 
concern to our Foundation. The result is that too few of our 
high school graduates are prepared for the rigors of college or 
the demands of competitive jobs.
    You heard several people in this hearing refer to the NAEP 
scores that have remained essentially flat for 17-year-olds 
since the 1970s. Darv Winnick, chairman of NAGBE, the board 
that overseas NAEP, said it best: ``If you asked me what is the 
single most perplexing problem since I have gotten involved in 
education, that is it. The data is not only flat, but it is 
flat while kids are taking more math.'' We need to face the 
fact that too many students are frozen in high school; they are 
not graduating ready for the demands of college, work, and 
life.
    At the Foundation, we have learned about this crisis from 
research, as well as from our own work over the last 9 years. 
Our early investments focused on small schools, and we found 
some success in improving graduation rates. But much more 
rarely did we see the significant gains in academic performance 
or increases in college readiness.
    Our next-generation strategy to radically increase the 
number of low-income students who graduate from high school 
college- and work-ready has three parts based on the evidence 
we have gathered: the primacy of effective teaching; the 
importance of a common core of standards that are fewer, 
clearer, and higher; and the pursuit of innovative approaches 
that would lead to breakthrough performance. I want to comment 
briefly on all three.
    Effective teachers play the single most important role in 
accelerating student achievement. No other factor within our 
power to change has this great an impact. We can't fix this 
just by recruiting teachers with stronger credentials. After 
numerous studies, we can say with confidence that master's 
degrees in education, high SAT scores, high scores on 
certification exams, and other credentials do not predict 
effective teaching very well.
    The Foundation has made a centerpiece of its strategy 
increasing the number of effective teachers teaching low-income 
children. We are investing heavily in developing measures to 
determine reliably which teachers are effective and which are 
not. We are also researching the most promising ways of making 
the teachers that we have be their most effective in the 
classroom.
    As you know from your recent hearing, there is a lot of 
discussion about national standards these days. And those 
national or core standards are key to our strategy, as well. 
But the real question is not whether standards will be local or 
State or national, but whether they will be focused enough on 
what the evidence shows is most central to student success. 
Everybody knows that standards is not enough; there is also a 
need for assessment--not just assessment for accountability, 
which is important, but also assessment for teaching and 
learning, which is what teachers need in the classroom but 
which has not had nearly the same level of investment.
    Beyond standards and assessment, we will support the 
building of a spine of excellent materials to support excellent 
classroom work, built on technology that allows easy access and 
sharing of students and teachers alike.
    The hard part of the standards process will be making the 
radical leap from the vast numbers of standards States have 
today to a focused core that can really accelerate performance. 
Everyone can posture about whose standards are higher. What 
takes real courage is making the tough choices about the fewer 
things that demand students' and teachers' attention and that 
lead students to be college-ready.
    The other benefit of common standards and the last piece in 
our strategy is that they will foster innovation across 
classrooms, districts, and States. With a common focused core, 
we can broadly share innovations that most accelerate 
performance in specific areas and skill sets.
    The evidence is clear that the combination of high schools 
as currently constructed and the current tools in our hands are 
simply not sufficient. We cannot make a leap in performance 
without a leap in innovation that much more directly and 
productively engages students and accelerates their learning.
    As a Foundation, we will continue to fund school models 
that break the mold and achieve results and next-generation 
models that support teaching and learning that really 
accelerate, dramatically, performance.
    For all three elements of this strategy, we will need data 
systems and assessments that tell us clearly which students and 
which classrooms are making gains. Today, despite hundreds of 
millions invested in data systems and assessments, we do not 
have the crucial information we need: which teachers are 
already effective, which are not, which teachers are becoming 
more effective, which teachers are teaching which kids. This 
progress will only be possible if we have common data standards 
to drive sharing of information and reduce costs.
    I want to end with just three quick messages that I am most 
concerned to convey to this committee. We must shift our focus 
from credentials to demonstrated effectiveness in the 
classroom, from teacher quality as measured on paper to teacher 
effectiveness as measured by student outcomes.
    The common core of standards must be based on evidence as 
to what is truly and demonstrably necessary for college work, 
not political or ideological turf battles. The standards must 
be focused enough to make mastery possible for more kids and to 
support teachers in developing their craft in teaching their 
subject.
    Finally, support the innovations that can demonstrate 
performance leaps. Be even bolder in models that break the 
traditions of seat time and credits. And keep your eye, as Mr. 
Gordon said, keep all of our eyes, on the academic growth of 
students.
    When I was the State Secretary of Education in 
Pennsylvania, we chose to call our high school reform agenda 
Project 720. Given that there are roughly 180 days in a school 
year and 4 years of high school, you have only 720 days to 
prepare students for the demands of college work and life. 
Those days and years are far too short and far too precious to 
continue to waste.
    Thank you for giving this issue your attention.
    [The statement of Ms. Phillips follows:]

 Prepared Statement of Dr. Vicki Phillips, Director, Education, Bill & 
                        Melinda Gates Foundation

    Chairman Miller, Ranking Member McKeon, Members of the Committee, 
thank you for allowing me to speak to you today about the crisis in 
American High Schools. It is a privilege to join this group of friends 
and partners you have convened to inform your work on this issue. 
Educators across the country are grateful to this Committee and its 
members for their past work, and present commitment, to addressing the 
most important challenges of American education.
The Problem
    The crisis in American high schools is brutally simple: too few 
students are making strong academic gains during the high school years. 
Indeed, for too many students, academic performance remains flat or 
even declines in high school--and this is especially the case among 
those student populations which are of special concern to our 
Foundation. The result is that too few of our high school graduates are 
prepared for the rigors of college or the demands of competitive jobs.
    The flatline of high school performance is well-documented by NAEP 
as well as other indicators (see attached Figures 1 and 2 for the NAEP 
trends in reading and math). Flat scores in math and reading for older 
students have persisted since the early 1970s--despite the fact that in 
math for example, the proportion of 13-year-olds taking algebra has 
more than doubled from 1986 to 2008. Darv Winnick, Chairman of NAGBE, 
which over sees NAEP said it best:
    If you ask me, What is the single most perplexing problem since 
I've gotten involved in education, that's it * * * The data is not only 
flat, but it is flat while the kids are taking more math.\1\
---------------------------------------------------------------------------
    \1\ Older Students Less Successful on Math NAEP. Education Week, 
April 28, 2009
---------------------------------------------------------------------------
    We need to face the fact that too many students in high school are 
frozen; they are not making nearly the academic progress they need to 
make to be ready for the demands of college, work and life.
What We Have Learned and Implications for Strategy
    We have learned about this crisis from the research as well as from 
our own work over the past 9 years. Our early investments focused on 
small schools--and we found some success in improving graduation rates, 
but much more rarely did we see significant gains in academic 
performance or increased college readiness.
    We realized that students needed to make a breakthrough in 
performance. The structural and design changes in schools we focused on 
in our earlier work simply did not yield those gains. So we reviewed 
the evidence in an effort to determine what would contribute most. We 
took a close look at the schools that were most successful. We took at 
critical eye to our track record. But we also looked outside of our 
work to what worked elsewhere as well as what the research says.
    Our strategy to radically increase the number of low income 
students who graduate college and work ready--who actually learn in 
high school--has three parts based on the evidence we gathered: the 
primacy of effective teaching; the importance of a common core of 
standards that are fewer, clearer and higher; and the pursuit of 
innovative approaches that would lead to breakthrough performance.
    I will address each of these components briefly.
1. Teacher effectiveness and empowerment
    A. Effective teachers play the single most important role in 
accelerating student achievement. The data here are overwhelming. A 
body of research spanning 30 years has demonstrated that the 
differences between top quartile and bottom quartile teachers account 
for vast differences in student growth, as much as a quarter of the 
achievement gap per year.
    No other factor within our power has this great an impact on 
student achievement. Different teachers within schools make twice the 
difference that different schools make. An effective teacher is far 
more important than smaller class size; even in the earliest grades (k-
2), where the effects of class size are strongest, it is five times 
more important to have an effective teacher than a small classroom. Our 
considered position is that we cannot narrow the gap or substantially 
raise performance for all without dramatically increasing the 
percentage of effective teachers.
    B. We can't fix this just by recruiting teachers with stronger 
credentials. After numerous studies, we can say with confidence that 
master's degrees in education in no way predict which teachers will be 
effective in the classroom. Likewise high SAT scores, high scores on 
certification exams, and other impressive credentials fail to predict 
effective teaching very well. Because we don't know how to predict who 
will be effective in the classroom and who won't, credentials are a 
very blunt instrument and will not take us very far.
    As a result of those findings, the Foundation has made a 
centerpiece of its strategy increasing the number of effective teachers 
teaching low income children. We are investing heavily in developing 
measures to determine reliably which teachers are effective and which 
are not.
    We are also researching the most promising ways of making the 
teachers we have more effective. It is essential that we develop and 
distribute proven mechanisms to improve the effectiveness of teachers. 
Through several in-depth district partnerships, we will work on 
realigning policies and practices to better measure and increase the 
numbers of effective teachers. We will announce those partnerships 
later this year.
2. Supporting standards that are fewer, clearer and higher, and 
        meaningfully assessing them
    As you know from your recent hearing, there is a lot of discussion 
about national standards these days. But the real question is not 
whether standards will be local or state or national, but whether they 
will be focused enough on what the evidence shows is most essential.
    Once again the evidence is clear. In both math and English language 
arts, the standards process is asking students and teachers to 
undertake too much that is not central to success. In mathematics, it 
has long been known that high performing countries focus their 
curriculum far more than we do in this country.
    My own commitment to standards that are fewer, clearer, and higher 
comes partially from my work closer to home. When I was Secretary of 
Education in Pennsylvania, we drove the development of anchor standards 
which for the first time gave teachers and students a much more vivid 
view of the core that really mattered for achievement.
    In English Language Arts, students are overwhelmed with complex 
requirements, when what they really must do in order to be successful 
is to read complex texts of all types--in history and science, not just 
English. Without a strong reading core, students cannot gain knowledge 
through reading and must be spoon-fed by simplistic presentations that 
don't mirror the demands of college and good jobs.
    Likewise, without mastery of essentials in mathematics they are 
limited throughout their work in math, science, and even social 
science, and they get passed along to the next math course without a 
secure footing in the last one. We at the foundation are excited that 
state governors and chief state school officers have embarked on a 
process to define a core set of common standards in Reading, Writing 
and Math.
    Now we all have to ensure that the core that emerges is truly based 
on what students need to be college and work ready. The core needs to 
be demanding enough so that students have the mastery to apply these 
core skills to diverse courses and tasks. For the past two years, we 
have funded the collection of specific evidence as to what are the core 
skills most essential for college and work success, and we aim to 
ensure that evidence plays a strong role in producing standards that 
are truly fewer, clearer, and higher.
    Everybody knows that standards are not enough. There is also a need 
for assessment--not just assessment for accountability, which is 
important, but also assessment for teaching and learning, which is what 
teachers need in the classroom but which has not had nearly the same 
level of investment.
    Beyond standards and assessment, we will support the building of a 
spine of excellent materials to support excellent classroom work, built 
on technology that allows easy access and sharing by students and 
teachers alike
    The hard part of this standards process will be making the radical 
leap from the vast numbers of standards states have today to a focused 
core that can accelerate performance. Dedicating ourselves to the fewer 
standards of what students really need for college and career readiness 
will require courage. Everyone can posture about whose standards are 
higher--what takes courage is making the tough choices about the fewer 
things that demand students and teachers attention.
3. Support for breakthrough innovations and school models that 
        dramatically accelerate performance
    The other benefit of common standards--provided they are focused--
is that they will foster innovation across classrooms, districts and 
states for the first time. With a common focused core we will share 
innovations that most accelerate performance in specific skills and 
skill areas.
    The evidence is clear that the combination of high schools as 
currently constructed and the tools in our hands will not be sufficient 
to meet our goal of 80% of low income students ready for college by 
2025. We cannot make a leap in performance without a leap in innovation 
that much more directly and productively engages students in 
accelerating their learning.
    We are going to continue to fund school models that break the mold 
and achieve results, and next generation models of teaching and 
learning. The measure for the success of any innovation will be true 
acceleration of performance--as measured by student achievement.
    Over the next few years, we will be particularly focused on driving 
innovations that accelerate academic performance in 9th grade. 9th 
grade, a transitional year, is particularly critical--students' 
achievement in 9th grade is remarkably predictive of their later 
performance. If students fall behind in this crucial year, it is very 
hard to catch up. The good news is that if students in 9th grade make 
sufficient academic progress they are often on their way to success. I 
saw how important 9th grade performance was to my students in Portland, 
and from my seat at the foundation can see it is a national issue. Of 
course, we need kids to accelerate earlier, especially in middle school 
as well.
Data systems and assessments that make progress in high school 
        classrooms visible are essential
    For all three elements of the strategy, we are going to need data 
systems and assessments that tell us clearly which students in which 
classrooms are making gains. Today, despite hundreds of millions 
invested in data systems and assessments, we do not have the most 
crucial information we need: which teachers already are effective, 
which teachers are not, and which teachers are becoming more effective. 
Among many other things, this requires linkages between students and 
teachers, which today are often incomplete; we do not know which 
teachers are teaching which kids. Recently there has been increased 
focus on the importance of data and measurement systems at the federal, 
state and local levels. The Foundation is preparing a data strategy to 
improve demand and use, and advance an architecture of common data 
standards that would enable states and districts to implement these 
systems in a cost-effective way. We would be happy to brief the 
Committee on this strategy as it evolves.
Conclusions and Recommendations
    That is an outline of the Foundation's strategy to accelerate 
academic performance in high school. I would like to end with the 
messages I am most concerned to convey in these remarks to your 
Committee:
    1. We must shift our focus from credentials to demonstrated 
effectiveness in the classroom: from teacher quality as measured on 
paper, to teacher effectiveness as measured by student outcomes.
    2. The common core of standards must be based on evidence as to 
what is truly and demonstrably necessary for college and work, not 
political or ideological turf battles. The standards must be focused 
enough to make mastery possible for more kids and to support teachers 
in developing their craft in teaching their subject.
    3. Support the innovations that can demonstrate performance leaps. 
Be even bolder in models that break the traditions of seat time and 
credits and keep our eye on academic growth of students.
    We cannot succeed if high school is a stopping point. But we all 
know it doesn't have to be. When Socrates taught, through his famous 
conversations, he preferred to talk to young people, most of them 
adolescents who would have been in high school. He knew that if you 
spark a young person's mind during the critical period in which they 
are becoming an adult, you can change forever how they will develop as 
students and citizens.
    When I was in the State Secretary of Education in PA, we chose to 
call our high school reform agenda Project 720. Given there are roughly 
180 instructional days in each school year, in four years of high 
school you have only 720 days to prepare students for the demands of 
college, work, and life. Those days and years are far too short and far 
too precious to waste.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Thank you.
    Governor Wise?

   STATEMENT OF BOB WISE, PRESIDENT, ALLIANCE FOR EXCELLENT 
          EDUCATION; FORMER GOVERNOR OF WEST VIRGINIA

    Mr. Wise. Thank you very much, Mr. Chairman, members of the 
committee. It is good to be back in front of you.
    You have called this hearing at just a critical time, and 
it is titled exactly right, ``America's Competitiveness Through 
High School Reform.''
    As I was coming up here today, I was listening to the 
radio. The market was dropping somewhat. By 5 o'clock, who 
knows whether it will be down, it will be down a few points. 
But before we go home from this hearing today, the human 
capital market will have dropped 7,000; 7,000 kids will have 
dropped out of high school before we go home. And they will 
drop out each and every school day of the year. That is about 
1.2 million, is the human capital cost.
    And so, my colleagues at this panel have spoken eloquently 
and well and have made the case--and taken a lot of my 
testimony--about the moral impact of dropouts. So I am going to 
talk some about the economic impact, as well. Because 60 
percent of current jobs today--today--require education beyond 
high school, postsecondary education. The nation, our Nation's 
economic competitiveness is inextricably linked to how well we 
educate our citizens. And in an information-age economy, 
education is the main currency.
    Now, this committee has been the leader--and I want to 
thank you--you have been the leader in putting high school and 
high school issues and dropouts on the national agenda, 
starting several years ago.
    The most recent scream for help for high schools came last 
week with the release of the National Assessment of Educational 
Progress, or NAEP, long-term trends. Despite education 
performance gains by 9- and 13-year-olds, essentially no 
progress has been made since 1971 by 17-year-olds. If this flat 
trend line were an electrocardiogram, the emergency room doctor 
would be applying the defibrillator. And perhaps that is what 
the education stimulus package is about.
    The state of our high schools, as has been noted already, 
is reflected in international comparisons. Our 15-year-olds are 
25th in math, 21st in science, 15th in reading literacy, 24th 
in problem solving, supposedly our strong suit. And that is 
compared with the 30 other industrialized nations that we 
compete with.
    The reason we have declined in these comparisons isn't 
because we are educating worse, it is because other nations are 
now educating much better. And make no mistake, how we fare in 
international education comparisons will soon correspond 
directly to how we fare in international economic comparisons.
    Now, there are two groups affected when someone drops out: 
first, the individual, himself or herself; and then the rest of 
society. We know that, according to the Department of Labor, in 
the coming years, 90 percent of new high-growth, high-wage jobs 
require some postsecondary education. Sixty percent of current 
jobs, as I mentioned, already do.
    Before I left office in 2004, I visited many of the 
industries, traditional industries in West Virginia that I had 
worked with since I graduated from high school in 1966. I 
didn't need a high school diploma to get a good-paying job in 
coal mines, the steel mills, or the chemical plants. Today I 
couldn't get in any one of those without postsecondary 
education.
    So, currently, this Congress is grappling with massive 
economic problems. And, quite frankly, they seem intractable, 
the enormous costs. But I have to point out, the enormous costs 
of restructuring the financial institutions, the banks, the 
auto industry, even AIG, total all of those up, it is still 
less than the combined cost of 5 years of dropouts in this 
country.
    And as my colleagues here on this panel have pointed out, 
and as many members on this committee have pointed out, in this 
case, this economic problem of dropouts, we know what to do. It 
is whether or not we have the will.
    The first thing I would suggest is reauthorizing ESEA. High 
schools aren't in the ESEA. And until ESEA is reauthorized, 
they won't be. Only 10 percent of Title I dollars end up in 
high schools. The carrot and the stick is gone. Secretary 
Spellings pointed out in a recent op-ed high schools really 
weren't a part of the current NCLB.
    We also believe we have to get accountability right. That 
means the State-led efforts to develop common standards so now 
there is an overarching set of standards that the States have 
agreed to, internationally benchmarked. Now everybody is on 
equal footing as to what it is our kids are supposed to learn. 
And, incidentally, and Congressman Scott has introduced this 
and Congressman Castle has spoken to it, the need for true 
graduation rate accountability, so that all kids' graduation is 
measured the same way.
    To address the needs of middle and high schools, we believe 
that, as I say, in the ESEA reauthorization, high common 
standards, the Every Student Counts Act. To drive high school 
improvement, supporting Congressman Hinojosa's Graduation 
Promise Act. Targeting the lowest-performing high schools, Bob 
Balfanz's dropout factories, where there are plans at the 
school and district level to turn them around.
    The Alliance also supports the Secondary School Innovation 
Fund introduced by Congressman Loebsack in part of the existing 
stimulus package. NAEP scores show literacy is so critical. And 
so, that is so important that Congressman Yarmuth's, Polis's, 
and Platts's bill to bring comprehensive literacy to secondary 
students, and, of course, middle schools in Congressman 
Grijalva's bill. And dare I forget, and I can't forget, 
Congressman Holt's bill on metrics. We have to have good data 
so we know what we are doing.
    And so, all of this is to say we know and you know what to 
do. This committee has the opportunity to truly make a 
difference in what has been as intractable or even moreso a 
problem than many of the others that you face. But this year, 
this time, we could actually do something. And this time, 
instead of losing another decade, as the NAEP trend lines say, 
we could make sure that no generation is left behind.
    Thank you very much.
    [The statement of Mr. Wise follows:]

Prepared Statement of Hon. Bob Wise, President, Alliance for Excellent 
               Education, Former Governor, West Virginia

    Thank you Chairman Miller and Ranking Member McKeon and the other 
members of the full committee for asking me to testify today. As you 
all well know, our nation is facing a severe economic crisis--one our 
nation has not seen for upwards of seventy-five years. As a former 
member and governor, I understand how heavily the state of our nation's 
economy weighs on each of you. I applaud you for holding this hearing 
and believe you have the title exactly right--America's Competitiveness 
through High School Reform. With 60 percent of current jobs requiring 
education beyond high school, the nation's economic competitiveness is 
inextricably linked to how we educate our citizens. In an Information 
Age economy, education is the main currency.
    Given the state of high schools in the United States, it is 
imperative that we focus attention on the six million students most at 
risk of dropping out if we want long-term economic stability. 
Addressing the crisis in high schools is a civil rights and economic 
imperative.
    For the last several years, I have traveled the country trying to 
inform people about the urgent need for secondary school reform. From 
the testimony that others have given here today, I think it should be 
clear why the need is urgent and why I have been traveling the country 
sounding the alarm. Equally important is knowing that we know what to 
do--we just have to do it.
High School Crisis
    The most recent scream for help for high schools came last week 
with the release of the federal National Assessment of Educational 
Progress (NAEP) long-term trends. Despite education performance gains 
by nine- and thirteen-year-olds, essentially no progress has been made 
since 1971 by seventeen-year-olds. If this flat trend line were an EKG, 
the emergency room doctor would be applying the defibrillator. The 
nation's high schools are not meeting the needs of individuals or our 
economy. One third of all students do not graduate from high school. 
Only half of those that do, graduate prepared for college and the 
workforce. The numbers are far more staggering for the poor and 
minority students. Only roughly half of minority students graduate 
while high school students from the wealthiest families are about seven 
times as likely to complete high school as their classmates from the 
poorest. By 2050, half of our population will be comprised of minority 
populations. From a civil rights or economic perspective, we can't 
afford to ignore the education needs of the fastest-growing populations 
in this country.
    Part of the challenge we face is that our high schools were set up 
for a different time. When I graduated from high school, you could earn 
a decent wage to support your family working in the mines in West 
Virginia. When I was governor, I visited one of the mines and found 
almost all miners had at least an associate's degree. When asked why, 
the miner owner replied, ``I am not letting anyone work a mile 
underground with a half million dollar piece of technical equipment who 
doesn't at least have a postsecondary education.''
    The state of our high schools is reflected in international 
comparisons. Currently the United States ranks twenty-fifth in math, 
twenty-first in science, fifteenth in reading literacy, and twenty-
fourth in problem solving when compared with thirty other 
industrialized nations on the Programme for International Student 
Assessment (PISA) assessment. For high school graduation rates, the 
United State ranks eighteenth. Sadly, the United States' rank has been 
declining in these comparisons, not rising. The reason we have declined 
in these comparisons isn't because our education system has gotten 
worse; it's because we haven't kept up with the quality of education 
being provided in other nations. How we fare in international education 
comparisons will soon correspond directly to how we fare in 
international economic comparisons. President Obama recently laid out 
the goal of returning the United States to number one in the world in 
college graduation rates. Given the inextricable links between 
preparedness and college success, that goal will not be reached without 
significant changes to our high school system.
Economic Costs
    There are two main ways that the economic impact of our dropout 
problem presents itself: as a cost to individuals and as a cost to 
society.
    What are the individual costs of this problem?
    Individuals who fail to earn a high school diploma are at a great 
disadvantage when it comes to finding good-paying jobs. The U.S. 
Department of Labor estimates that in the coming years 90 percent of 
new high-growth, high-wage jobs will require some postsecondary 
education. Individuals without a high school diploma will earn 
significantly less than their better educated peers if they do find a 
job: high school dropouts earn, on average, $10,000 a year less than 
high school graduates. Over a lifetime, the difference between the 
earnings of a high school dropout and a college graduate is more than 
$1 million.
    What are the societal costs of this problem?
    If the students in the Class of 2008 who dropped out had stayed in 
school and graduated, the nation would have benefited from an 
additional $319 billion in wages, taxes, and productivity over the 
course of their lifetimes. Individuals with less education are 
generally less healthy and die sooner than those with more education. 
Individuals with less education are also more likely to become parents 
at very young ages, become incarcerated, or need social welfare 
assistance. All of these consequences are both tragic for individuals 
and families, and costly for governments and taxpayers.
    According to a report recently released by the McKinsey 
Corporation, if black and Latino student performance had caught up with 
those of white students by 1998, GDP in 2008 would have been between 
$310 billion and $525 billion higher, which is roughly 2 to 4 percent 
of GDP.
    Currently this Congress is grappling with massive economic 
problems. But the enormous cost of bailing out the banks, financial 
institutions, the auto industry, and AIG is still less than the 
economic cost of just five years of dropouts in the United States. Yet 
we also know that just cutting the number of dropouts in half would 
begin yielding $45 billion annually in new federal taxes revenues or 
cost savings. That is why I believe that the ultimate economic stimulus 
package is a diploma.
Current Federal Policy
    So how did we get here? As I stated earlier, the education provided 
in high schools has not kept pace with the changing needs in the United 
States. That is in part due to the fact that federal policy has failed 
to address the needs of high schools.
    The main federal education law, Elementary and Secondary Education 
Act (ESEA), now known as the No Child Left Behind (NCLB) Act, was 
mainly written with elementary schools in mind. Title I, which is the 
primary federal instrument for supplementing local education funding, 
is the policy lever for the improvement and accountability provisions 
of the law. However, very little Title I funding reaches high school 
students--only 10 percent of students benefitting from Title I funds 
are high school students despite high schools enrolling 31 percent of 
all students and 23 percent of all low-income students.
    What's more, adequate yearly progress (AYP) has been an ineffective 
tool to drive accountability and improvement at the high school level. 
Unlike elementary and middle school students, high school students are 
tested only once in four years. Most often that testing occurs in the 
tenth grade and does not measure what students need to graduate; 
instead the testing measures ninth grade proficiency.
    Until recently, graduation rates--despite being a clear measure of 
the success of a high school--were not appropriately or adequately used 
as part of AYP. When NCLB was being written, there was an awareness and 
fear that the testing accountability provisions would create a perverse 
incentive to ``push out'' low test scorers absent accountability for 
graduating students. NCLB included language that required graduation 
rates to be an accountability measure in AYP. Given the weak and 
meaningless implementation of those provisions, the ``push out'' has 
indeed occurred and was most recently documented in a study from Rice 
University and University of Texas, Austin. In fact, an analysis done 
by Dr. Robert Balfanz found that 40 percent of dropout factories make 
AYP, therefore preventing some of the nation's lowest-performing 
schools from entering the accountability and improvement system.
    Why was implementation weak? Graduation rates were inaccurately and 
inconsistently calculated across states. The Department of Education 
approved numerous, inaccurate calculations that underestimated the 
problem. Independent analysis has shown that the difference between 
state and independent analysis was as little as eleven points and as 
much as thirty points. There was no meaningful requirement to increase 
graduation rates over time. States were allowed to propose very weak 
graduation goals--as low as 50 percent and only three states proposed 
graduating 100 percent of its students. Most states were approved to 
make as little as 0.1% growth annually to make AYP. There was no 
requirement to disaggregate graduation rates by student subgroups for 
determining AYP. Thankfully, the Department of Education recognized the 
need to make a correction on this issue and released new regulations 
strengthening graduation rate accountability last year. I will further 
discuss this issue later, but I want to thank Congressmen Scott and 
Hinojosa for their leadership on this issue and Chairman Miller and 
Ranking Member McKeon for their leadership as well.
    NCLB's prescriptions for schools that fail to make AYP for multiple 
consecutive years are not effective at the high school level. Seventy-
five percent of school districts only have one high school rendering 
school choice meaningless. And less than 5 percent of high school 
students participate in supplemental education services.
    In fact, even the laws original drafters feel that the high school 
provisions need to be strengthened. Earlier this week, in response to 
the release of the latest NAEP results, Margaret Spellings said, ``It's 
not an accident that we're seeing the most improvement where NCLB has 
focused most vigorously. The law focuses on math and reading in grades 
three through eight--it's not about high schools.''
    Lastly, there is little federal investment in our nation's high 
schools and we are getting what we pay for. As of now, the federal 
funding in education targets the bookends of the education system--
concentrating on grades pre-K--6 and higher education. The ``missing 
middle'' is our nation's secondary schools, which receive little to no 
funding from the federal level. Funding for grades pre-K--6 totals 
nearly $18 billion. Funding for postsecondary education totals nearly 
$22 billion and that is without taking into account student loans or 
other tax incentives. However, funding for grades 7--12 is only about 
$6 billion.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Federal Policy Solutions
    Luckily, we know what to do and we look forward to working with the 
committee to ensure a reauthorization of ESEA includes measures to 
drive high school reform.
    Dr. Balfanz spoke very eloquently about which schools are low-
performing and who attends them. One of the results of his research--
that over half of the country's dropouts come from less than 2,000 high 
schools (or about 10 percent of all high schools)--strikes a chord for 
me, since it shows that the dropout problem is not unsolvable. If we 
could improve only those 2,000 lowest-performing schools, we would be 
making significant progress towards the goal of every child a graduate.
    I am going to speak specifically about each of the policy solutions 
to this crisis, but I want to thank the many members of this committee 
who are leading the federal effort to reform our nation's high schools.
    To drive high school reform, we must first get accountability right 
so that we know where the problems are and how to drive resources and 
supports to those schools. Under current law, the federal approach is 
to leave it up to the states to determine academic standards and, up 
until recently, to determine graduation rate calculations and 
accountability measures. Then, once a school has entered the school 
improvement system, federal policy drives a very prescriptive, ``one-
size-fits all'', or timeline-based approach to improvement.
Common Standards
    The Alliance for Excellent Education believes this approach is 
backwards and that we need to flip the federal role. We believe that 
high, common standards that are tied to college- and work-readiness and 
are internationally benchmarked, and consistent graduation rate 
calculations with meaningful growth targets and goals should drive 
accountability. This system of accountability should be followed by a 
system of differentiated school improvement that targets reforms to the 
needs of the schools, not a timeline of how long a school has been 
``failing.''
    I want to applaud the committee for holding a hearing a few weeks 
ago on establishing common standards. We exist in a global economy. 
Fifty different state standards does not cut it anymore. Students are 
no longer just competing within their hometown or state for jobs. 
Students from Montgomery, Alabama are competing with students in 
Mumbai, India for jobs and we need education standards that reflect 
that reality.
Graduation Rates
    As I stated earlier, also critical to accountability are graduation 
rates. In the last Congress, Representative Scott, with support from 
Congressman Hinojosa and many members of the Congressional Black Caucus 
and Congressional Hispanic Caucus introduced the Every Student Counts 
Act (ESCA). The principals of this act were reflected in the Department 
of Education's regulation finalized last year. These principals include 
establishing a common calculation, requiring meaningful graduation 
goals and growth targets, utilizing the rate as an equal part of AYP, 
and maintaining a strong four-year graduation rate while recognizing 
some students take longer to graduate. In March, Congressman Scott 
reintroduced ESCA to codify the regulation and provide further detail 
where the regulation provides state flexibility on areas such as 
specific goals and growth targets. The Alliance believes that the 
regulation must be maintained and strengthened through inclusion of 
ESCA into a reauthorization of ESEA.
School Improvement
    To create a system of high school improvement that would solve many 
of the issues that high schools currently face under NCLB's Title I 
provisions, Congressman Hinojosa introduced the Graduation Promise Act 
(GPA). GPA creates a system of differentiated school improvement that 
targets reform efforts to student and school needs not to a timeline 
approach as is under current law. States and districts would be 
provided flexibility to create systems of improvement and specific 
school improvement plans based on rich data. Such systems would focus 
on building the capacity of secondary schools to reduce dropout rates 
and increase student achievement, and would target resources to help 
the lowest-performing high schools implement evidence-based 
interventions. Importantly, GPA is authorized at $2.5 billion to 
address the current federal funding deficits faced by high schools.
Innovation
    In order to continue to improve education in the long term, we need 
federal investment in discovering what innovative programs and models 
being introduced at the local and state levels can turn low-performing 
high schools into high-performing high schools. The Secondary School 
Innovation Fund Act seeks to do just that by capitalizing on a unique 
American strength: the locally designed and driven innovation that has 
made our economy the largest in the world. The Secondary School 
Innovation Fund was reintroduced last week by Congressman Loebsack.
    Just as small businesses need venture capital to reach their full 
potential, local educational innovators need resources to invest in 
innovative practice, determine its impact, and replicate best 
practices. This legislation would support research and development of 
successful school models and program that are both replicable and 
systemic. Authorized at $500 million, the Secondary School Innovation 
Fund Act would give educational innovators--who are doing important 
work across the country--the opportunity to evaluate and expand upon 
their strategies for increasing student achievement and graduation 
rates.
Literacy
    As seen in the recent NAEP scores, students in our nation's middle 
and high schools are not achieving adequate literacy rates. Yet we know 
how critical literacy is to high school turnaround and academic success 
at the high school level and beyond. To support literacy in all grades, 
(including the upper grades), help students who are below grade level 
in reading and are, therefore, significantly more likely to drop out of 
high school, and to teach students the higher-order literacy skills 
that they need to read complex texts, Congressmen Yarmouth, Polis, and 
Platts will be leading the effort on a comprehensive literacy bill to 
address the reading and writing needs of students from before 
Kindergarten through high school.
Middle Schools
    While this hearing is focused specifically on high schools, it is 
critical to discuss the needs of middle school students. We know that 
the high school students who are unprepared to succeed in high school 
come from somewhere. To ensure that students are no longer entering 
ninth grade off track for graduation, Congressman Grijalva, in the last 
Congress, introduced the Success in the Middle Act. The Success in the 
Middle Act would authorize $1 billion a year in grants to states to 
improve low-performing middle grades. The bill would fund critical 
activities such as developing early-warning data systems to identify 
students who are most at risk of dropping out and intervene to help 
them succeed. Interventions could include extended learning time and 
personal graduation plans that enable all students to stay on the path 
to graduation.
Data Systems
    Finally but possibly most importantly, we believe that the federal 
government must invest in quality data systems and use of data. In the 
last Congress, Congressman Holt introduced the METRICS Act, which are 
grants to states for the development and implementation of statewide 
longitudinal data systems. The stimulus bill also contained substantial 
funding and requirements around development and use of data systems and 
we applaud the efforts of the Secretary of Education to advance policy 
based on quality data.
Schools of Excellence
    Luckily, we know that we can succeed in providing a high quality, 
college- and work-ready education for the exact students we are trying 
to serve. There are examples of schools doing just that all over the 
country. Schools such as:
    Animo Inglewood Charter High School in Inglewood, California. Animo 
primarily serves low-income, minority students and over 60 percent of 
the graduating students attend a four-year college. They provide 
intensive summer programs for incoming freshmen to help them catch up 
academically. Teachers make home visits to build relationships with 
students' families.
    The Metropolitan Regional Career and Technological Center in 
Providence, Rhode Island. The Met is a charter school run by the Big 
Picture Company that prepares students for college by offering strong 
support in and out of the classrooms, provides opportunities to travel 
and intern with local companies and organizations, and encourages 
parents to get involved in their children's educations.
    Stanley E. Foster Construction Tech High School in San Diego, 
California. Construction Tech is a charter school serving a high number 
of low-income, minority students. Students at Construction Tech 
participate in curriculum that integrates classroom and real world 
training in architecture, construction, and engineering. The school 
partners with local businesses to offer internships and to evaluate 
classroom projects.
    Manhattan Hunter Science High School in New York City, New York. 
Hunter Science is an early college high school with high enrollment of 
low-income, minority students in partnership with Hunter College within 
the City University of New York (CUNY) school system. At the time of 
high school graduation, students have the option to continue their 
studies at Hunter; their first full year of tuition is covered and all 
college credits earned while in high school apply towards their college 
degree.
Conclusion
    Thank you for holding this hearing at such a critical time for our 
nation. Thank you Chairman Miller and Ranking Member McKeon for holding 
this hearing, and I want to thank all of the members of the committee 
for their support of these issues. We look forward to working with all 
of you to advance high school reform in an ESEA reauthorization. I 
would like to thank you for your support in the last Congress and we 
hope that we will have your continued support as you move forward with 
reauthorization. Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Thank you very much to all of you for your testimony and 
your expertise.
    Dr. Balfanz and Mr. Gordon and Dr. Phillips, so now we have 
identified 2,000 schools here, and the urge is to rush on in 
and close them and open them. But we have done that before. 
There is no shortage of school districts that have closed poor-
performing schools, or for other reasons even, and then 
reopened them and sort of ended up in the same place 2 or 3 
years later.
    So I guess what I am interested in is in your histories of 
being involved here. You have each suggested we know what to 
do, and I would like to hear what you think that plan is. 
Because, you know, when we passed No Child Left Behind, 
everybody was aghast at the sanctions, except they had all been 
using those sanctions all over the country for many years. They 
had fired principals, they had fired teachers, they hired 
people, put in new teams, closed schools, opened schools, 
consolidated schools, back and forth. The results just never 
changed.
    So we have been through that sort of--the theory is, I 
guess, that this is going to be smarter, this is going to be 
our surge on the high schools. So how do we scope this out? And 
one of the questions is, is this really about additional 
resources? Is this about a better organization of those 
resources? Or is it both?
    And so I don't use all your time in my talking, well, let's 
leave it there for a minute.
    Mr. Balfanz. Sure. It is both a better allocation and in 
some places----
    Chairman Miller. The three of you are sharing what time I 
have left, you know.
    Mr. Balfanz. Okay.
    It is both a better allocation and better use of resources.
    And what I was saying is that each of those things we 
mentioned--charter schools, firing and rehiring, comprehensive 
whole school reform, creating small schools--have all worked in 
some places and not others. So what we really need to do is 
just take that step back and analyze that school. What are its 
needs? What are its capacities? How many kids come in 2 or more 
years below grade level? How many kids come in with weak 
attendance? Do the planned reforms actually address that 
educational challenge? Because too often we propose a reform 
that doesn't meet the educational challenge, and therefore it 
doesn't work.
    So I think we take a half-step back and require schools to 
do a really intense analysis of why they are not succeeding, 
what their challenges are, and then make the case for why that 
particular reform will work in that circumstance, and then 
resource it to succeed.
    Chairman Miller. Mr. Gordon, did you get that opportunity 
when Philadelphia asked you to take over?
    Mr. Gordon. I am not sure we have done this before, 
because, certainly, in Philadelphia's case----
    Chairman Miller. We have gone through these motions before. 
What most people equate with the reform, we have gone through a 
lot of them before.
    Mr. Gordon. We have gone through reform, but the complete 
turnaround, at least in Philadelphia, Green Dot in California, 
some schools in Chicago, it was the staff and management that 
changed. So while certainly analyzing the problem and coming up 
with new programs is part of the solution, fundamentally it is 
a people and management problem. And I would suggest that if we 
create rewards, you create high standards, you reward if you 
hit those standards and, if not, you lose the contract or the 
management team loses, you will get results over time.
    I have seen lots of programs, wonderful programs being 
executed by poor management teams and not qualified staff, and 
they fail; and mediocre programs being implemented by great 
teams and great management, and eventually they succeed. I 
think you set the bar and you will incent the right folks to 
get there.
    Chairman Miller. Dr. Phillips?
    Ms. Phillips. I would echo that we believe that one of the 
single most important things we can do is ensure that a student 
has an effective teacher every single year of their high school 
career. Unfortunately, right now we make that determination on 
certification, with limited evidence about whether that is the 
real thing that helps you understand whether the person is an 
effective teacher and whether they are making gains in the 
classroom on a daily basis.
    That, coupled with common standards from which you can 
build out good curriculum and instructional tools and good 
assessments, along with the kind of data to really let us know 
what works and doesn't work.
    We would also say that innovation does play a factor here, 
that the fact that we have not gotten dramatic gains, only 
marginal gains, over the last few decades should tell us that 
we have to do something fairly dramatically different, in 
combination with those elements.
    Chairman Miller. When I spend time with what I call 
educational entrepreneurs who have had success that mirrors the 
kinds of success that you have had at Pickett and elsewhere, 
Mr. Gordon, what they really talk about is the ability to 
assemble a team and develop a mission and people sort of 
heading all in the same direction with the same purpose and, in 
many instances, with the same enthusiasm and sense of urgency 
about this.
    And what they have run into, in many instances, they have 
stepped outside of the existing systems and constraints on 
assembling that team. They are not taking people--I remember 
going through up at Harlem's Children School how many people 
were interviewed to work in that school, thousands of people, 
you know, literally, before you found the team that you wanted 
to run that school.
    Because you were making a bet--at that time, the woman that 
was running it was making a serious bet about her career and 
about what she thought she could deliver in her organization. 
And the people who were funding that organization were making a 
bet on her. So, I mean, there was a lot of risk-taking and 
entrepreneurial work being done in this direction.
    Mr. Gordon. I think you are right on the money. It is about 
people; it is about teams. It is not about certifications. You 
will not have innovation coming out of schools of education. 
They are part of the problem; they are not part of the 
solution.
    I think you create, again, what is the bar? And then 
quality folks will eventually assemble teams and figure it out 
and remove the barriers that prevent them from doing those 
things. Within the school district, it is zero-basing the staff 
so they can assemble the right teachers. Charter schools have 
the ability to draw talent from outside the school district.
    But I think it is, in some senses, relatively simple, a 
clear mission, a clear way of conducting the school. And there 
are many ways to operate a successful school, but it is the 
right people and the right leadership.
    Chairman Miller. I am sort of enamored with the idea that a 
lot of entrepreneurs who have been successful in other walks of 
life, in their own businesses, have been drawn to many of these 
organizations, have, in fact, invested their own personal 
money.
    And you see the risk-taking where they bet that they can 
take this same population of kids that we are so deeply 
concerned about in this country--and we know the risks that we 
are running if they are not successful--and they are betting 
that they can be successful with that identical population that 
we lament in most contexts, that, you know, the schools just 
aren't performing, all the things we wring our hands about, and 
they are making that bet in that direction.
    Thank you.
    Mr. Bishop?
    Mr. Bishop of Utah. In fairness, Mr. Chairman----
    Chairman Miller. Oh, Mr. Castle was here before you.
    Mr. Bishop of Utah. Mr. Castle is senior to me, as well. 
Can I yield to him and then come back?
    Chairman Miller. You guys are going on that seniority 
stuff?
    Mr. Bishop of Utah. Hell, somebody has to.
    Chairman Miller. Mr. Castle?
    Mr. Castle. Well, I thank you, Mr. Chairman. I thank you, 
Mr. Bishop. I am honored to go early.
    Let me ask a question. I am going to start with Governor 
Wise and just go across the board, if you are willing to try to 
answer this.
    We have heard a lot of very good suggestions here today. 
And, you know, if we compiled them all, they may number in the 
dozens or whatever. But one of my concerns is, what can we do 
as a Congress in order to make improvements in schools? We have 
talked about, for example, graduation rates. We have talked 
about higher standards. Obviously, funding is an issue. We have 
talked about some particular programs and effective teachers 
and a whole variety of things.
    My question is to each of you, could you--and the reason I 
want to start with Governor Wise is he is familiar with things 
around here--but could you pinpoint what you think is the most 
significant issue that we should be looking at, either broadly 
or narrowly, from our point of view?
    We can't do some of the things that you have talked about. 
We can't change neighborhoods per se or whatever it may be. But 
there may be things either in the Elementary and Secondary 
Education Act/No Child Left Behind or some of these other 
issues we have talked about that we should be doing that you 
would rate as the high priority.
    We don't have a lot of time for each person, but I would 
just be interested to see if you could highlight whatever you 
think we could be doing, say, in this next year, during this 
congressional session, that would actually be able to be 
carried down to the local level and hopefully improve 
education.
    Governor Wise?
    I am only looking for one suggestion. I am not looking 
for----
    Mr. Wise. One suggestion to set the climate.
    As you know better than anyone, having been a governor, 
every State is on its fiscal back right now, and it is pretty 
hard to be doing restructuring and the kind of innovation that 
is so critical at a time when you are simply trying to keep 
school buses running.
    But the Federal Government--the stimulus package can be a 
start, but the Federal Government can help set a direction and 
a climate. And by looking at the OECD models, which tend to be 
successful, where you have high common standards and then a lot 
of flexibility at the local level to do the innovation 
necessary, with the Federal Government being a partner. And 
when I say a partner, I don't mean large sums of money, but I 
am talking about that which will drive systemic reform and 
permanent change.
    Mr. Castle. Thank you.
    Dr. Phillips?
    Ms. Phillips. I would say you could support the State-led 
common academic standards and the data systems work that would 
allow us to understand better across this country what works 
and what doesn't.
    And then you have the opportunity to incent, I think, 
innovation, better assessments, a number of the entrepreneurial 
things that are happening across the country.
    Mr. Castle. Thank you.
    Mr. Gordon?
    Mr. Gordon. I would certainly agree with the standards. I 
would say for corrective action to schools, providing 
incentives for school districts to turn around the schools, to 
zero-base staff, and to create incentives or penalties based 
upon a timeline of 2 to 3 years.
    Ms. Kondracke. Make the schools more of the hub of the 
community, where schools become places that parents go, parents 
get engaged, services can be found. There is no shortage of 
services and organizations, but they are all in silos and they 
are scattered. We need to bring the community support, 
especially in these low-income neighborhoods, to the schools, 
where the children are, where the families are, pull them in, 
make the schools the hubs of the communities.
    Mr. Wotorson. I would say make accountability an absolute 
centerpiece of anything, any education reform effort that you 
push through.
    Keep in mind, however, that part of the reason why we are 
where we are is because students are not facing one or two or 
three problems; we are facing, really, a comprehensive problem. 
So, at the end of the day, we are going to need a comprehensive 
solution that addresses lack of effective teachers, lack of a 
well-defined curriculum, the whole range of things.
    But if I were to pinpoint one thing, I would say strong 
accountability must be a centerpiece.
    Mr. Balfanz. And I would say invest in capacity-building of 
the organizations, States, and districts that have actually 
shown they can turn these schools around already, so they can 
then turn around more schools.
    Chairman Miller. You are talking about the existing, those 
that have been successful.
    Mr. Balfanz. Yes.
    Chairman Miller. Excuse me. Would with the gentleman yield?
    Mr. Castle. Certainly. I have already yielded.
    Well, I appreciate all that. I think your suggestions are 
excellent, holistically and otherwise. I think we have a lot of 
work ahead of us. I think you have been an excellent panel. I 
would hope that you will stay with us as we try to address 
these issues and try to make changes.
    Some of what you said, some of what we have to do is very 
challenging to existing bureaucracies out there. It is not 
going to be easy to do. But if we don't it, we are never going 
to get the uplifting that we want. So I thank you for your 
suggestions today.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Phillips, you mentioned talked about effective 
teachers. Cambridge College reports excellent results with mid-
career teachers in professional development. They take the 
courses, then they go back and do better.
    Is it your understanding that teachers can, by professional 
development, improve their effectiveness?
    Ms. Phillips. If it is a very focused professional 
development. And a lot of it, if it is school-embedded and on-
the-job. You mean as teachers enter schools or districts?
    Mr. Scott. Thank you.
    One of the things that--as I indicated in my opening 
remarks, I serve on the Crime Subcommittee, Chair of the Crime 
Subcommittee, and one of the things that happens with dropouts 
is they are very likely to end up in jail. And in some of 
these, you can identify a school where half the kids are going 
to be dropping out. And if you just do the back-of-the-envelope 
arithmetic, 100 kids dropping out are going to end up costing 
you about $5 million in incarceration.
    Now, Mr. Wotorson, if you had an adequate budget--how 
adequate a budget would you need to get the results that you 
are getting, where virtually everybody is graduating?
    Mr. Wotorson. I do recall, Mr. Congressman, I believe a 
couple of years ago or so there was a piece of legislation 
introduced that proposed somewhere in the neighborhood of $2.5 
billion of turnaround, specifically geared towards turning 
around low-performing schools or those dropout factories.
    But I think part of where you are going is, essentially, if 
we don't arrest this problem, we only succeed in expanding the 
school-to-prison pipeline. And the Campaign for High School 
Equity actually had an issue forum on that issue a few months 
ago. And we actually were pleased to have someone from your 
staff join us at that discussion and share some of her 
knowledge.
    Mr. Scott. Well, about how much--what kind of budget would 
you be talking about to virtually guarantee that everybody is 
graduating, as opposed to a 50 percent dropout rate?
    Mr. Wotorson. I don't know that we could guarantee that 
everyone is graduating. What I do know is that hitherto we have 
not tried any of these things in a comprehensive fashion. I do 
know that hitherto we have not simply said we are going to put 
our resources where our mouth is, we are going to, you know, 
put the time and effort towards addressing the problem. I know 
that we haven't done that.
    Mr. Scott. Well, like I said, if you got a 50 percent 
dropout rate, 100 children, 50 percent drop out, that is 100, 
that is going to cost you about $5 million in prison expenses 
in, at least, many identifiable States. If you spent half of 
that on the program, you could probably eliminate--it is hard 
to imagine you are not saving more money than you are spending.
    Ms. Kondracke, you indicated a process by which you are--a 
holistic approach, where you bring the community together. I 
have introduced the Youth Promise Act, which is very similar, 
to reduce youth violence, where you bring in law enforcement, 
education, foster care, the probation department, churches, 
after-school programs, anybody that has anything to do with 
children in trouble, bring them together and come up with a 
plan.
    Is there any question in your mind--you have done this for 
school dropouts--is there any question in your mind that if you 
have a good dropout prevention program that it would also 
reduce crime and reduce teen pregnancy and reduce drug abuse?
    Ms. Kondracke. There is no question that a good dropout 
prevention program will do all of those things. If a young 
person is engaged productively, believes in their future, they 
are going to avoid risky behavior. And so, therefore, you are 
saving social costs.
    And to your point, I would say one of the reasons, Mr. 
Chairman, that some of our other earlier reform efforts have 
not gotten the results we would like is we have ignored some of 
these social issues. And this, the community supports based at 
the school, easy for the family to access, that has got to be 
part of the solution for these most vulnerable students in 
those neighborhoods.
    So I commend you for the act you have introduced.
    Mr. Scott. Now, most of the programs that we have seen by 
research have shown that they can save more money than they 
cost. What kind of budget do we need to start the process of 
cost savings?
    Ms. Kondracke. You know, I think you could easily envision 
taking the 2,000 dropout factory high schools and the feeder 
middle schools, and if you had something that would catalyze 
the community to come together--you don't have to invent the 
programs at the community level; they are already there. You 
just have to pull them together.
    So, take $100,000 per school, just to pick a number, to 
create a catalytic effect to pull these services together, you 
could actually have a real impact pretty quickly.
    Mr. Scott. Mr. Chairman, I would point out that in some of 
those dropout factories the prison costs that we are generating 
would be in the millions. And Ms. Kondracke just talked about 
$100,000 to solve that problem. So, obviously, we are doing 
something wrong.
    Chairman Miller. Mr. Bishop?
    Excuse me, Mr. Wise, did you want to----
    Mr. Wise. I just wanted to offer a couple quick statistics.
    A recent economic study, I believe that was cited earlier, 
cut the dropout rate in half, would add $45 billion in 
increased Federal tax revenues or cost savings. We estimate 
that you could do that for about $5 billion a year. That is 
$2.5 billion with the Graduation Promise Act, plus the literacy 
programs.
    And to your crime question, Congressman, a study that we 
did showed that simply if you increase the high school 
graduation rate of males alone 5 percent, it would add about $8 
billion in both new wages and reduced crime costs.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Bishop?
    Mr. Bishop of Utah. Thank you. I think I have seniority on 
my side now.
    I appreciate the testimony that has been given. In fact, 
you have generated in my mind so many questions, I am not going 
to get it in my time allotted. So let me try to go through as 
many as I possibly can quickly with you.
    Let me start with Dr. Phillips, if I could. Let's assume--
and I don't assume; you cannot do that--you can identify an 
effective teacher. How do you attract and hold that teacher 
once he or she is identified?
    Ms. Phillips. We believe that we really have to look at the 
whole spectrum of things, from how many people we get to enter, 
to how we help them meet performance milestones. But once you 
get them there, they have to be compensated appropriately. And 
it can't wait until they are 10, 12, 13 years into their 
career. We need to make it a viable profession earlier on.
    Mr. Bishop of Utah. Talking money and time?
    Ms. Phillips. Money and time.
    Mr. Bishop of Utah. Can I just ask you, just 
philosophically, for whom are we trying to reform these 
schools? Who needs to be satisfied? Is it the State, the school 
officials, parents, a college? Who is the person that is going 
to say, ``Okay, you have arrived''?
    Ms. Phillips. Oh, I think--well, first of all, we have to 
do this for students, but we need some kind of objective way of 
saying, what is it that it really takes for students----
    Mr. Bishop of Utah. Good. But I want to know, who is the 
one that is going to make that decision? Who has to be 
satisfied?
    Ms. Phillips. Who is going to make the decision in the end?
    Mr. Bishop of Utah. State, school, parents, administrators?
    Ms. Phillips. I think, in the end, you know, parents and 
students have to be satisfied. But, certainly, school districts 
and States have to have some objective measure by which they 
can determine, and some objective standards by which they can 
determine, whether kids are actually graduating high school 
ready for college without remediation and able to enter the 
workforce.
    Mr. Bishop of Utah. I have more questions for you. Let me 
come back.
    Ms. Phillips. So there are multiple consumers in this.
    Mr. Bishop of Utah. Mr. Gordon, if I could, you talked 
about rewarding those who produce results. That is the phrase 
that you used. Can you give me some specific details on how you 
do that?
    Mr. Gordon. Well, I would say, in a turnaround context or 
in a charter school context, you can reward by enabling those 
organizations to operate additional schools. You can create 
financial incentives so they have the wherewithal to operate 
additional schools.
    Mr. Bishop of Utah. For the ones who are actually operating 
the school, though, what is the reward mechanism?
    Mr. Gordon. The opportunity to do more. I don't know if 
this is where you are leading, but the financial incentive to 
the organization, I think the incentive to be able to do more 
is sufficient. Let me just stop there.
    Mr. Bishop of Utah. You gave me--you started going down 
with accountability and governance. Can you give me three top 
keys for success in very specific details? I mean, all of you 
have talked about accountability, you have talked about 
governance. I want something down in the weeds more than that, 
if you would, please.
    Mr. Gordon. I would say, when we hire a principal, I want 
them to be able to hire fantastic staff. We need to have 
benchmark assessments, assessments meaning that we every 6 
weeks know where students are. We need information to be able 
to track that data so that we can respond competently to that 
data.
    Mr. Bishop of Utah. That is legitimate. Thank you.
    Ms. Kondracke, if I could ask you a couple of questions, 
you talk about the parents' role as one of the factors that is 
in here. Could you just explain very briefly, because I don't 
have a lot of time here, how you envision the parents' role and 
how you envision the Federal Government's relation to building 
that parent role?
    Ms. Kondracke. Well, I think that is always the conundrum, 
how do we get parents to care more and be more involved. And I 
think, very practically, we have to make it easier.
    In Spanish Harlem, there is a school that was inside a 
housing project. It was the worst-performing school, the scene 
of violence, it was a mess. And Joel Klein turned that school 
around by turning it into a community center. Parents went 
there on Saturday to have cooking classes and a green grocer 
experience. Students did service projects through City Year 
there.
    So if parents have a reason to go to school, and if we can 
make it easier for them by having time for parent-teacher 
conferences that makes sense for their working lives, we have 
got to make it easier for these struggling, stressed parents to 
be involved.
    Mr. Bishop of Utah. I appreciate that. And I am not trying 
to cut you off, but I realize my time is running down here very 
quickly.
    Could I just ask once again, Dr. Phillips--you know, you 
were in charge of a system within a State. How would you get 
teachers like me, who know I can outlive you and your programs, 
to become excited about what you are attempting to do?
    And I was noticing one thing--Mr. Wotorson, there were some 
questions I really had for you. I am sorry I am not going to 
get even close to them.
    There were a couple of you that talked about--you don't 
even have to answer this. I just ran out of time. You talked 
about the 720 number. I am amazed that no one is actually 
talking about the amount of time that we put into public 
education or the organization of the day, what the kid has to 
go through, as part of the equation that needs to be part of 
this question as well. I was surprised at that.
    And, Mr. Chairman, I realize we will allow these 
questions--if I ever get organized enough to write them down, I 
will send them to you. And I will be looking for it, because I 
did enjoy the presentations. Thank you.
    Ms. Kondracke. We all want to answer.
    Chairman Miller. Mr. Tierney is next, Mr. Loebsack, Ms. 
Fudge, Mr. Courtney, Mr. Bishop, and Ms. Hirono.
    Mr. Tierney. Thank you, Mr. Chairman. Thank for having the 
hearing.
    And thank the witnesses for their testimony, as well.
    So, Ms. Kondracke, you talk about outside influences, half 
of the 16 factors that make for a successful student being 
outside the classroom.
    And, Mr. Gordon, you talk about, forget all that, just give 
me a good staff and a couple of bucks and I am ready to roll, I 
am going to make this work.
    Can you two work out the conflict in that for me?
    Ms. Kondracke. You know, it is both ends. It is inside the 
classroom and outside the classroom. We have to have an 
integrated approach.
    I believe just as strongly in great teaching and high 
standards and accountability and measurement. And I also 
believe there are lots of at-risk kids that cannot learn 
because they bring too many deficits into the classroom.
    Mr. Tierney. Well, maybe Mr. Gordon is the one that doesn't 
agree with that.
    You just want--I think your words were, give me good staff, 
you know, and people, and I will take care of the rest. People 
and management was the problem, you said. Give me qualified 
staff, and we are all set.
    None of those factors that Ms. Kondracke talks about----
    Mr. Gordon. Good staff and good management can address 
those problems.
    Mr. Tierney. How?
    Mr. Gordon. Good staff and good management--our staff and 
management goes out into the community, finds community-based 
mental health organizations, contracts with them.
    It is not that we ignore the outside problems, but the 
accountability--what I would encourage this committee to focus 
on is the outcome. We are accountable for results. Therefore, I 
am going to do the right thing if I need to hit that outcome. 
If you legislate what programs I need to follow, everyoneis 
going to follow them and you will get nothing at all. It is the 
outcome and accountability.
    Mr. Tierney. All right.
    Then, Dr. Phillips, let me turn to you. You cite that there 
is an issue or problem, at least, with the credentialing that 
we now have, that they are not indicative of who is a good 
teacher and who is not.
    Do you have ideas into what we are going to do that would 
allow us to select teachers based on some past experience that 
they have had or some credentialing? Otherwise, I suspect we 
are going to be doing this case by case for the rest of our 
lives. Bring a person in, watch their experience, see how they 
do, dump them if they are no good, keep them if they are not. 
It is going to take a long time to get all the good teachers we 
need up to scale.
    So, as opposed to the current credentialing system, what do 
you recommend?
    Ms. Phillips. We are actually investing considerable amount 
of money in the next few years on research to make that 
determination, to say, what does it take, in addition to 
student achievement, to give a fair view of what is an 
effective teacher? And can we come to some consensus about 
that?
    So we realize that that is a huge problem, that teachers 
have a legitimate issue, and it is not just a single look at 
their performance over a year but that student outcomes need to 
be the core. What other things, when added to that, will give 
us a better predictor? And then how do you entice people into 
the profession, help them hit those performance milestones, 
reward them when they do, and keep them in front of the kids 
who need them the most?
    Mr. Tierney. Thank you.
    Governor Wise, nice to see you.
    Mr. Wise. Nice to see you, sir.
    Mr. Tierney. Governor, look, we have a lot of really 
tremendous educators out there today in our public school 
system. And I think probably everybody will acknowledge that. I 
hope they would acknowledge that.
    So how do we go about making these changes and motivating 
people and challenging them and give them the kind of job 
security that I think they are afraid of? They are afraid of 
going back to the old days where politics makes it, the school 
committee decides, you get a four-to-three vote, this person 
doesn't have the job and somebody else does.
    How do we get to the point where all of the people are 
talking about being not so risk-averse, taking challenges, 
moving in that direction on that, with allowing people to still 
understand that this is a job that, if they do a good job, they 
are going to be able stay on and not be out at somebody's 
arbitrary whim?
    Mr. Wise. And particularly at a time when we are going to 
see probably half of our teachers eligible to retire in the 
next 5 to 7 years. So we are going to have to really accelerate 
that pipeline.
    I think it is giving them the opportunity to teach in a 
place that is exciting, where they know that they are going to 
be rewarded, and not just monetarily but rewarded and given the 
flexibility to do what they need to do, that there will be 
standards set. And there are outcomes, yes, but there will be a 
lot of flexibility in how to get there. They will be working as 
a team approach.
    And also, it may well be, Congressman, that this economy is 
going to encourage some people to think, you know, I can be as 
creative and earn an income in teaching. And so we need to make 
sure that the doors are open to them, not only through the 
traditional means of teacher preparation, but also looking at 
some alternative means as well.
    Mr. Tierney. Thank you.
    Dr. Balfanz, what would you tell our teaching colleges and 
universities they have to do with their students to work into a 
program that really makes this all work?
    Mr. Balfanz. Well, they have to prepare teachers for the 
actual conditions they are going to face, which is, in our most 
challenged schools, it is not 10 to 15 percent of kids that 
need extra help, it is 50, 60, 70 percent. So they have to 
build within them skills to not just teach one good excellent 
lesson, but to be able to teach kids with multiple different 
levels of preparation to succeed.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Chairman Miller. Mr. Loebsack?
    Mr. Loebsack. Thank you, Mr. Chairman, for having this very 
informative hearing. I really do appreciate this very much.
    And the witnesses have all been wonderful, learned a lot 
from you today. I appreciate that. And thanks for the shout-out 
for some of my legislation, too, for those of you who did. I do 
appreciate that very much.
    If I could start with Ms. Kondracke, I just want to mention 
one example of a school that was a community center before 
massive flooding hit on June 13th of last year, Taylor 
Elementary School in Cedar Rapids, Iowa.
    Ms. Kondracke. Absolutely.
    Mr. Loebsack. It was a wonderful--and in a low-income area 
of Cedar Rapids. There were a lot of different offices there; 
there was a WIC office, for example. And it was really 
wonderful. It is going to come back, it is going to reopen in 
the fall. There are going to be fewer students, maybe 
significantly fewer students, but it is going to come back.
    So I really appreciate your focus, obviously, on the 
community aspect. And if you want to, I would like you to 
elaborate a little bit more. You weren't able to go perhaps as 
far as you would like in response to Mr. Bishop's question.
    Ms. Kondracke. Thank you very much, Congressman.
    I am aware of that school in Cedar Rapids, and it is a 
fantastic example of what can happen when a community rallies 
around a school, turns the school into a community, cares about 
the outcomes for kids, cares about quality teaching, but also 
cares about each other's lives. It is about that simple.
    And there are 14 million kids who need after-school care in 
this country today. What are they doing when they are not in 
school? Somebody mentioned the school calendar, I think it was 
Congressman Bishop, that we are out of school all summer 
because that is left over from the agricultural model. What are 
they doing with that time? Our school day is too short, our 
school year is too short to catch up with the rest of the 
world. So what are we doing with out-of-school time?
    We need enrichment programs in the after-school hours. Kids 
need chances to serve and find the resilience that comes with 
giving back. There are 9 million kids who don't have health 
care. Congress has taken steps to reauthorize CHIP and to 
expand that coverage. This is the kind of thing we have to pay 
attention to.
    And one last thing is truancy. You have asked what we can 
do. The data systems that we have all referenced here should 
include attendance. It is so fundamental. Nobody is following 
up on attendance and truancy. And what kids tell us is that 
that tells them nobody cares if they are in school or not. So, 
caring adults--this is part of the community supports we were 
talking about--and following up, very simply, on attendance. 
That is the best early-warning indicator of a dropout.
    Mr. Loebsack. Thank you.
    Mr. Wise, Congressman Wise, Governor Wise, didn't have a 
chance to serve with you here, obviously, in this body, but 
thank you for being here today.
    I guess I am very fortunate as a Member of Congress in that 
there is no dropout factory in my particular district. We do 
have nine of them in Iowa, I saw from the data that were 
provided. But I want to thank you, too, for mentioning my 
Secondary School Innovation Fund.
    I have gotten around my district a lot in the 2-plus years 
that I have been in Congress, and there are a lot of good 
things happening in Iowa, as I am sure is the case around the 
country, in terms of trying to come up with innovative programs 
that folks around the country can model, I would guess, or 
replicate, if you will.
    Can you elaborate a little bit on that particular aspect of 
your testimony?
    Mr. Wise. Certainly. Because your bill and, actually, 
Congressman Holt's as well, as you know, portions of it are 
included in the stimulus package, but we want to make it 
permanent.
    For instance, what is happening in a number of examples, 
whether it is what Mr. Gordon is talking about, or if we are 
looking at something such as a High-Tech High or we looking at 
another high school in San Diego that has very successful 
initiatives, what is it that works for 500 students here or 
50,000 across 10 school districts and can be replicated?
    And that is a very appropriate role for the Federal 
Government, particularly at this point, to be able to help 
States replicate what works. No State has, I think I can say 
safely, I know in my State, no State has the ability to do the 
kind of research, to do the kind of analysis of what is taking 
place in other areas. It is anecdotal. The Federal Government 
does have that ability. And so, the combination of not only 
providing the research capability, the dissemination of that 
research, but also the ability to replicate innovative 
approaches, that is what is so critical.
    What we want to do with your legislation is take what 
clearly was established in the stimulus package and make it a 
permanent fixture.
    Mr. Loebsack. Thank you very much. And I just might 
comment, my idea is not, obviously, to have an overly intrusive 
role on the part of the Federal Government. It is really to 
provide seed money, in some ways, and to leverage local funds 
as well.
    Mr. Wise. Yes.
    Mr. Loebsack. So thank you very much, and I will yield back 
the balance of my time. Thanks to all of you.
    Mr. Scott [presiding]. Thank you.
    The gentlelady from Ohio, Ms. Fudge?
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank all of you for being here. I do just have a 
couple of questions.
    I would like to first ask Mr. Wotorson, what would a 
redesigned American high school look like?
    Mr. Wotorson. I would go back to my theme of approaching 
this in a comprehensive fashion. First of all, a redesigned 
high school would take into account a lot of the things that 
you have heard all the witnesses talk about today.
    You know, I also go back to my experience just a couple of 
weeks ago visiting with kids at a school in Gaston, North 
Carolina. The discussion was just held about the school day. 
Well, here was a school where kids arrive at 8 o'clock in the 
morning and they don't leave until 8, 9 o'clock at night. The 
instruction period actually ends at 5:00. Why do these students 
stay so long? Well, they stay so long because they are 
absolutely and utterly turned on about learning, they love the 
staff, they love the teachers, they feel cared for and listened 
to. That is a fundamental change, I think, that should be 
brought to scale in a lot of schools.
    And that is not to say that teachers, by and large, don't 
do this, but it is a recognition of the fact that teachers face 
an enormous amount of pressures. You heard Mrs. Kondracke talk 
about some of the deficits that kids bring to the classroom 
that teachers have to contend with. In a school where teachers 
feel supported, where they are appropriately rewarded, where 
they are allowed to be fairly flexible and all those sorts of 
things, what you see happening is a translation of an 
atmosphere where the kids are performing better, the teachers 
are happy to be there, the administrators are happy to be 
there, and overall you have a much more engaging learning 
environment.
    That is a fundamental change or a redesign of the American 
high school. And there are lots of different ways to do it.
    Ms. Fudge. So could you tell me one?
    Mr. Wotorson. Oh, well, all of the above.
    Ms. Fudge. No, how would you do it? I mean, I understand, 
but how would you go about doing it?
    Mr. Wotorson. So one thing would be the way we pay 
teachers; increase the way we pay teachers.
    Another would be around the way we recruit teachers and 
bringing them into the classroom. As you well know, in many 
situations, in many cases, when we bring new teachers into the 
classroom, we fail to provide them the kind of professional 
development that they need, and so many new teachers cycle out 
after a year, 2 years, 3 years.
    Ms. Fudge. Okay. So does that mean--and anyone can answer 
this question. I have heard that a number of times today. How 
do we change the process in our colleges and universities? I 
mean, you know, I know we need to have better teachers. How do 
we do it? We talk about how the certification process doesn't 
work. How do we do it?
    Anybody can answer it.
    Mr. Wise. I will defer to the specialists.
    Ms. Phillips. So, part of it is that we have to start 
looking at teacher effectiveness against student outcomes, as 
opposed to whether they just meet the paper credential, because 
we know that, no matter how teachers enter the system, whether 
they come through an alternative education program and come in 
mid-career or whether they come through traditional 
certification, that there is a distinct difference between 
teachers in schools. And having that effective teacher has more 
of an impact, year on year, than almost anything else we can 
do. And lots of the other pieces are critically important, but 
that is one that is prime.
    So, one thing we have to do is start to get away from the 
sort of paper credentialing and look more at: Who is really 
producing student outcomes? And can we help those who continue 
to do so and keep them in the system? Can we help those who 
aren't get better over time? Can we make the tough decisions?
    Ms. Fudge. Well, I mean, can something work as simple as 
just having a master teacher or someone with new teachers over 
a period of time that prepares them to get better and better?
    It is my understanding, Mr. Chairman, that from 1 to 5 
years, that is the time in which most teachers really--you 
determine whether they are going to be good teachers or not.
    How do we work with those persons? Because what you are 
talking about now is after the fact, after they have come out 
of school, they have gotten into an institution or into one of 
the schools. And so, then what do we do with them, at that 
point?
    Anyone can answer it.
    Mr. Gordon. I would say certainly one thing that could be 
done is create a value-added system. In Pennsylvania, we are 
beginning to create a system where we can track whether a 
school and then individual teacher adds value. And I would say 
that would be the path that you could follow to certify a 
teacher.
    Schools of education are not adding value. All right? 
Teachers that come through schools of education are no more 
effective than teachers we hire without that credential. So I 
would say your instincts that it can be done internally by 
schools or school districts more through an apprentice model, I 
think, is right.
    Ms. Phillips. So, I think there are a variety of ways and a 
variety of models out there. The key is that, as long as our 
policies are all based around credentialing, we are going to 
get what we have continued to get.
    As we change those policies and make them more about 
student outcomes and whether, in fact, we are accelerating 
student learning and we let that drive the way that we prepare, 
the way that we reward, the way that we keep, the way that we 
compensate, the way that we performance-manage teachers, then 
we will get the change that we are looking for.
    But just continuing to have our policies not reflect what 
we really know about research now is going to get us more of 
the same, not something different.
    Ms. Fudge. Thank you, Mr. Chairman. My time has expired. I 
yield back.
    Mr. Scott. Thank you.
    The gentlelady from Hawaii, Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    Thank the panel. It is a very interesting discussion.
    The students who go to these dropout factories are 
attending elementary schools and middle schools where, I think, 
that it is also characterized by low test scores and generally 
from communities where there are a preponderance of low-income 
and minority students.
    So my question has to do with, when do we start the 
turnaround? When do we start arresting the problem when you are 
in a community where the elementary school, the secondary 
schools, the high school, they are all exhibiting these 
problems?
    Mr. Balfanz. I think there are actually two key points. One 
is, obviously, early education, getting kids prepared to 
succeed when they are first experiencing schools.
    The other thing we have to remember is that there is a 
developmental progression people go through. When you become an 
adolescent, you make an independent decision to be engaged in 
school again. And so you can have a good early experience, and 
if we don't pay attention to your adolescence and create an 
environment that is good for you then, some of that investment 
will walk out the door.
    So I think it is both the early years but then also the 
secondary years. And we need interventions at both those points 
to keep you, sort of, on track to success. If we do either one, 
we are going to lose a bunch of kids.
    Ms. Hirono. So there is a whole continuum that we have to 
pay attention to. And it is not as though we can just go and 
direct all our resources to these dropout factory high schools 
and hope to turn things around.
    Ms. Phillips. No, but we have actually made more progress 
at the elementary level in this country and much limited 
progress and flat-line progress for high school students over 
time. And there are critical things that we know. So when kids 
hit middle school and they are 2 or more years behind, having 
ways to accelerate their learning there becomes more important. 
It also turns out that the ninth grade is a very important year 
and a very important predictor of whether students can continue 
to be successful.
    So there are places to intervene along the way. And we 
believe breakthrough innovations, some of which already exist, 
around how do you accelerate students' learning as they hit 
those upper grade levels much more rapidly? Because it is true 
that high schools still are the most, sort of, inequitable 
level of our education system.
    Ms. Hirono. I think those are really important distinctions 
to make, that there are critical points of the students' 
development where intervention can really make a difference.
    Ms. Kondracke, I note that you said that you had hosted 
high-level summits in 50 States, so that includes Hawaii.
    Ms. Kondracke. Yes, absolutely.
    Ms. Hirono. So what was your experience? Would you tell us 
what schools or what communities you had these meetings in in 
Hawaii? I am curious.
    Ms. Kondracke. You know, I don't think we have held our 
summit yet in Hawaii. But it is coming up.
    Ms. Hirono. A-ha. You will have to come and let me know.
    Ms. Kondracke. It is being scheduled.
    So we have a summit in every State capital and in the 55 
cities that are contributing the most to the dropout crisis.
    And there is a way to go about this. We sort of have a 
formula and a cookbook that we give the community. We encourage 
it to be owned by the community. But we ask for the business 
leaders to be involved, the civic leaders to be involved, 
parents, students themselves.
    Mississippi was our first State summit, and we had over 
1,500 people there. And then they are asked to produce an 
action plan. So it is more than just one more summit; it really 
is about action.
    And we have pulled together as much as we know, and most of 
the people at this table have contributed to what we give them 
in the way of a workbook. We give them a workbook of best 
practices and just these indicators we have talked about--early 
preschool readiness, middle school performance and attendance 
and scores, ninth grade transition.
    And one interesting fact that contributes to this problem 
is 35 States allow students to drop out at age 16. Now, that is 
something that we can raise as a policy issue, and State by 
State we can tackle that. So part of it is raising awareness 
that these are contributing factors.
    Each of these summits so far has been incredibly 
successful. And the people feel that they are part of a 
national movement, and that is the exciting part.
    Ms. Hirono. So when are you coming to Hawaii?
    Ms. Kondracke. I will find out and let you know.
    Ms. Hirono. All right.
    Thank you, Mr. Chairman.
    Ms. Kondracke. Thank you.
    Ms. Hirono. I yield back.
    Mr. Scott. Thank you.
    Ms. Kondracke, you mentioned the ninth grade. What about 
the third grade as an indicator?
    Ms. Kondracke. Yes, third grade or fourth grade reading 
scores, wherever that is measured, is another important 
indicator. I would add to Dr. Balfanz's, too, early childhood 
readiness, school readiness can be best measured by the time 
they get to the third grade. Did they hold on? And are they 
reading at grade level? And that is a huge predictor. In fact, 
that is a predictor for prison beds, if you will.
    And then, middle school, we have talked about the 
transition to ninth grade is fundamental.
    Mr. Scott. Thank you very much.
    The gentleman from New Jersey, Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    And I thank all the witnesses today. This is really very 
useful.
    A number of you have spoken about the need for better data, 
the misleading data that currently exists. Mrs. Kondracke 
talked about including attendance data. I would like to explore 
this idea of how we can actually use the data.
    Let's go beyond just asking whether we can collect data, 
recognizing that we are not even doing that well yet. But I 
would like to not just get a retrospective diagnosis to see how 
much damage has been done over the past 4 years or even over 
the past year, but see if we can really get diagnostic 
information that can be used to make adjustments in each 
school, in each class, for each student.
    Not just an autopsy of what killed the student's academic 
growth, but something that will allow a school district, a 
principal, a teacher to know which students in which classrooms 
are making gains or not making gains, not just in general but 
on specific concepts and with specific standard skills.
    I know this is possible because some schools in New Jersey 
are actually doing it. My question for you is, is it asking too 
much that this be done everywhere?
    Ms. Kondracke. We absolutely must have----
    Mr. Holt. And I would like as brief a comment from as many 
of you as we can get.
    Ms. Kondracke. I will make one quick comment.
    We absolutely must have real-time data. And technology 
allows that, and so that is fundamental.
    We just worked with Gallup to produce a student poll, 
giving the students' point of view, in real time, that day. And 
we can measure, to the student and to the school level, where 
the kids are engaged, where they are doing well, and where they 
feel hopeful.
    And the sad part is, half the kids in this country do not 
feel hopeful. This was a 70,000-student sample. That is real-
time data. So if you learn that half the kids in your school 
don't feel hopeful, you can begin to work on some solutions 
that get them re-engaged and believing in their own future.
    Mr. Holt. Thank you.
    And let me say to Governor Wise, since he referred to the 
METRIC Act that Representative McCarthy and I had in the last 
Congress, because it didn't pass we thought we would make it 
even more difficult by making it more comprehensive. And we 
will introduce a more comprehensive version of it in this 
Congress.
    Mr. Wise. Which is critical, because you are going to be--
whether it is the teacher in the classroom making day-to-day 
decisions with hopefully good real-time data all the way to the 
decisions that you are going to make here in this committee 
room that will involve billions of dollars and millions of 
lives, you have to have good data. If we are going to have an 
outcome-based, standards-based, and empirically based system of 
education, we can't do it without good data systems at every 
level.
    Mr. Holt. Thank you. Thank you very much, Governor Wise.
    If there is time----
    Mr. Balfanz. Yeah, I think that the other thing----
    Mr. Holt. Dr. Wotorson actually had some things to say 
earlier in his testimony.
    Please.
    Mr. Balfanz. Okay.
    I think, quickly, the thing that makes it go from a few 
schools to a lot of schools is recognizing that teachers are 
going to have been to be trained to use the data and given time 
to do the data analysis. So that is going to have to factor 
into our redesign of the school day.
    We can't ask them, ``Well, just in your free time, look at 
the data and figure it out.'' We are going to have give them 
training structure and ability to use the data effectively, as 
well as just putting it in their hands, but then giving them 
the ability to actually act upon it and figure it out.
    Mr. Wotorson. I was just going to offer really quickly, in 
response to your question about whether or not we are asking 
too much of authorities, I absolutely think we are not. We 
don't have the luxury, quite frankly, to continue to allow the 
vast majority of our kids to no longer be successful and to 
drop out of school.
    And so, given the fact that historically we have tried a 
number of things in other areas in our country and in our 
economy, we have spent an incredible amount of money on wars, 
on any number of things, but the most critical thing that sits 
before us right now is the future of this country as it relates 
to what is going to happen to these young kids. And so it is 
about time that we devote the resources, we make the hard 
choices, commit the energy to roll up our sleeves and do the 
hard work.
    Mr. Holt. Do any of you know of any school systems that 
have implemented data systems that have, you know, found the 
teachers and the school systems that would actually know how to 
use the good data systems and applied it to student learning?
    Mr. Gordon. Absolutely. Certainly, that is why, every 6 
weeks, Mastery closes down and the grown-ups get together and 
review the data and plan for the next 6 weeks. Uncommon 
Schools, which operates schools in Newark, in New Jersey, does 
the same. We learned a lot from them. There is, I think, a lot 
of work being done.
    But, again, I would re-emphasize that none of this work 
would have occurred had not the outcome been clear that we are 
accountable for. Because if I am accountable for that outcome, 
of course I am going to try to collect data; of course I am 
going to try it make sure that data is useful; of course I am 
going to train my staff to respond to the data. Unless that 
goal is set at the end of the road, everything else is not 
going to follow.
    Ms. Phillips. There are a number of places, and we can 
share them with you. The problem is that part of what prevents 
us from being able to scale what really works in this country 
and to share practice is that it happens in individual places 
and everybody is having to reinvent their whole system. Not 
that systems can't be different, but as long as they don't 
share common standards and are able to talk to each other, then 
we continue to get these isolated pockets rather than teachers 
being able to lift up and share their practice.
    I was in a school last week where teachers came together on 
an ongoing basis to share real-time data and talk about student 
performance. It happens in classroom after classroom, but we 
aren't able to lift it up and share it across this country. And 
that is a sad thing.
    Mr. Holt. Thank you very much.
    Mr. Scott. Thank you.
    The gentlelady from California, Ms. Davis?
    Mrs. Davis. Thank you very much.
    To the panel, I appreciate your being here and also citing 
San Diego as having some programs that do work. They are, just 
as you described, though, pockets. And that is what is 
difficult.
    You haven't spoken too much about the training of 
principals and the role that they play. Clearly, leadership, we 
know, is a big factor here. How do you see that, then, as 
scaling up? I mean, is it the kind of academies that make a 
difference? Are they just wonderfully gifted people who just 
really know how to put these teams together? There are barriers 
to putting teams together; we know that.
    So where does the leadership of the key individual there 
play? And how do you see that in terms of what we as Congress 
can do?
    Any of you, all of you.
    Mr. Wise. I think you have just touched on what is one of 
the fastest emerging discussions about the role of leadership. 
Quality teachers need good leaders, and it makes it much easier 
for a quality teacher to be a quality teacher.
    And so, one role that Congress could be looking at--I mean, 
there are examples of efforts to prepare principals. But one 
area that Congress could be looking at is, A, what is the best 
research?
    Second is the academy concept. It may be that we are going 
to be needing to look at so-called West Point-type approaches 
for school leadership. I also know that other organizations are 
also looking to see how they can assist in this.
    Mrs. Davis. Excuse me. Can I ask you, Governor--and I will 
let you continue--but we do have some, certainly. Harvard has 
an exceptional school. Have we gone back to see, what are those 
outcomes? I mean, the principals trained under those programs, 
are they somehow able to do what other principals cannot do? Or 
do they face the same barriers in creating the highly 
enthusiastic teams that come together?
    Mr. Wise. Let me turn to Dr. Balfanz or Dr. Phillips, if 
they want to jump in on this one.
    Mr. Balfanz. The one thing I think is important to keep in 
mind, especially when we are trying to turn around sort of 
large middle and high schools--like, California has many large 
middle and high schools, and those schools have easily 150 
teachers in them. And we make a mistake when we think that one 
lone principal can ride in there with the best training in the 
world and transform 150 adults.
    So I think we also have to think about training leadership 
teams together, the principal and his leadership team, his 
assistant principals, his counselors, and actually put some of 
the money in our school transformation things to give them the 
time to be trained together and even have a residency in a 
successful similar school.
    There is no better training than real training on the 
ground, not theoretical but be in a building that has the 
challenges that you are going to have, that is working, and 
spend time therewith your leadership team so you can all have a 
common vision and a common experience. And then when you go to 
your school, you are already working together with common 
understanding.
    Mrs. Davis. I mean, there is a medical model that we know 
does work in training exceptional people licensed. The national 
board certification, for example, tends to look at that. I know 
you have suggested that, well, certification doesn't exactly 
matter. Reflective teaching probably matters a great deal, but 
that doesn't have to necessarily be a national board-certified 
teacher.
    We are all searching, I think, for how to do this. And, 
again, getting back to the Congress, when we are looking at 
accelerated learning, if we had better ninth-grade transition 
teams that actually really thought through that period for 
those students who are entering who are truly, you know, two, 
three, four grades below level, do we bring those folks to a 
central place to learn from someone?
    Ms. Kondracke. I think the genius of the American education 
system is there is local innovation. And we have seen that in 
our college system. We have the greatest postsecondary system 
in the world, but we have failed to introduce that kind of 
innovation, creativity, flexibility, measurement, 
accountability. We have somehow failed to introduce that or 
expect that of our secondary schools.
    And so, Congress can incentivize by offering innovation 
grants, opportunity grants. They can motivate. Dollars count, 
and we are cash-strapped for our education system. And so I 
would just be sure that the moneys that you decide to allocate 
reward outcomes, and then that you use your power to set some 
national standards. So you can set a framework and you can 
incentivize more excellence and more creativity by offering 
resources.
    Mrs. Davis. Thank you, Mr. Chairman. My time is up.
    Mr. Gordon. If I could just give a snapshot, at least in 
terms of the schools that we operate, the leadership training 
that is done by the traditional schools of education does not 
add value at all. And I think your instincts of looking at the 
medical model and apprenticeship model is certainly a lot more 
helpful, in our experience.
    Mrs. Davis. Thank you.
    Mr. Scott. Thank you.
    The gentleman from New Jersey, Mr. Payne?
    Mr. Payne. Thank you very much.
    I guess I have a question that we know that the better-
trained teachers certainly generally perform better. And I just 
wonder if anyone--and you may have mentioned it in your 
testimony, and, as you know, I came late, or I will tell you I 
came late if you didn't know it anyway.
    But the question is, how do any of you have any suggestions 
on how we can try to attract real quality teachers to the 
poorer schools and in the difficult parts? I mean, human nature 
and even the educational system, you know, after you get tenure 
and you can move up, you know, you have an opportunity to move 
to a school where the higher performers--generally speaking, I 
guess. That is the way it used to be when I taught.
    Is there any way that we can try to keep--or do you have 
suggestions how we can keep the top teachers in the toughest 
schools? It kind of is counter-human-nature, I guess.
    Mr. Wotorson. If I may, one of the perhaps easiest and 
perhaps most obvious would be to really incent those teachers 
going into those particularly needy areas, incenting their 
going in terms of paying, in terms of innovative things like 
assistance with home purchasing. Any range of things that have 
been tried but on a relatively small scale that are really 
critically important that we scale up and start doing now.
    Mr. Balfanz. I think the other thing to consider, though, 
is that that can get them in the door, but to keep them you 
have to fix the school. What drives teachers out of these 
schools is not so much the pay and the hours, it is the 
craziness. ``The school doesn't work; my efforts are in vain.''
    So I think there is both a strategy to get them in, but to 
keep them we have to realize we have to transform the school. 
If the school works, the teachers will stay. They have the 
passion, they are feeling successful. They will want to be 
there. What drives them out is when they feel the school is 
crazy.
    Ms. Phillips. It is one of those very difficult and complex 
problems for which we don't have a magic bullet or a ready 
answer, but it is around things that people have said.
    It is not only the compensation, which is an issue and the 
fact that you need to incent teachers to do that; it is also 
about some of the other conversations. Do they have a good 
school leader that they can rely on? Do they have access to 
their colleagues? Do they have access to the kind of materials 
and things they believe they need when they walk in the 
classroom every day?
    But all of those things are within our power to change.
    Mr. Payne. Thank you very much.
    Also, in our schools, we find that there are, you know, 
absenteeism. And I don't know if the, you know, the level of 
the school have increased absenteeism.
    But what do we do about the substitute question? I mean, 
the school is going to get substitutes. Is there any suggestion 
on how that system could be improved so that there is real 
education going on if there is a substitute for that day or 
week or if a teacher gets sick and is going to be out for a 
long period of time?
    Ms. Phillips. As a superintendent, I had to try a variety 
of things, because--and the first district where I was a 
superintendent, I had high substitute rates often and a 
difficulty in recruiting teachers in. So, over time, I had to 
try all the things we have talked about today in order to 
create an environment in the district where teachers wanted to 
be, and wanted to be on an ongoing basis.
    But then I had to do a number of creative things, like 
create a more permanent pool of substitutes and train those and 
assign those out to buildings, so that when a teacher was 
absent there was a familiar face that was familiar with the 
school in an ongoing way.
    So there are a number of solutions, a variety of sort of 
creative and innovative solutions that people use. Part of the 
key, then, is giving schools and school operators and school 
principals and stuff flexibility to use those.
    Mr. Payne. And how important do you think class size is? 
Would anybody like to touch that?
    Ms. Phillips. There is no doubt that, you know, there are 
certain points at which class size becomes untenable. But the 
problem we have in the country is that there is very limited 
evidence about the impact of class size except in some of the 
early years. And, in fact, there is some growing evidence that 
having an effective teacher is far more powerful than reducing 
class size not by one or two students, but actually by several 
students.
    And so, I think as we think about how we are allocating 
dollars in this country and we think about things from master's 
degrees to class size, we should take a really hard look at 
what the evidence says and decide if that is the most effective 
way to allocate our dollars, or when, in fact, it is the most 
effective way to allocate our dollars, and clearly bears a 
really hard look.
    Mr. Balfanz. And to answer that, one of the best uses of 
the stimulus dollars, to really at the secondary level do the 
studies to figure out what is the best way to use extended time 
and what is the best way strategically to use class-size 
reduction.
    Mr. Payne. Since my time has expired, one last question 
before it totally expires, just about the--we are having this 
new surge in the movement for charter schools. I mean, charter 
schools are here, and some of them are very good, and et cetera 
and et cetera. But it seems like there is a new national 
movement, especially on the East Coast, to almost make it all 
charters.
    If everyone could just give me a quick answer on the 
question of, are public schools, the way they are performing, 
are they still relevant today? Or is this charter avalanche 
that is coming down, which is certainly well-orchestrated and 
well-funded, is that going to be the wave of the future?
    And if we could just go right down.
    Mr. Balfanz. Sure. I think they are an important tool in 
the tool basket, and in certain places they have been very 
successful. But when we look at the data nationally, we see 
just as many dropout factory charter schools as we see other 
high schools. So just charter schools alone doesn't solve the 
problem.
    Mr. Payne. Yes?
    Mr. Wotorson. I would largely agree with Dr. Balfanz. We 
should look at charters, particularly those that have been 
successful and that are successful and give us good models, we 
should look at those for implementing things in the regular 
public schools.
    But we shouldn't look at charters as the panacea to the 
problem. We ought to commit ourselves to fixing our public 
schools and learning where we can.
    Ms. Kondracke. Building on that, the lessons to be learned 
from great charter schools--and there are uneven successes, but 
there are some great charter schools--the lessons to be learned 
is--I think the genius behind charter schools is the innovation 
that is allowed, the autonomy, the management, the opportunity 
to make decisions and be the master of the destiny of your 
school and your environment, and to drive results and feel 
pride and build a team and feel pride. And if we can take that 
kind of a lesson and that kind of a genius breakthrough and 
infuse that into the public school system, we could have 
something.
    Mr. Gordon. I think we should be encouraging schools that 
work to grow in scale, be they charter or district. And I 
wouldn't place a value on one or the other. I think the value 
of having a system like that is that you create an 
accountability-based system that serves taxpayers and serves 
students.
    So I would avoid the question of charter versus district 
and focus on: Are we expanding schools that work and are we 
eliminating schools that don't?
    Ms. Phillips. Yeah, the key issue is schools that work. We 
funded charters as a Foundation for a period of time, as well 
as districts and States. And we will continue to try to put 
high-quality choices in front of students, high-quality public 
school choices.
    I think the key is, if you look at schools that work across 
this country, whether they are in districts or whether they are 
independent charters, they all carry a set of ingredients that 
we have talked about today, from being really clear about their 
standards and curriculum, to having good data systems, to 
enticing really effective teachers and leaders.
    And when we talk to innovative school district leaders, 
when we talk to charter leaders, when we talk to anybody who is 
really getting outcomes for kids, they will say those are the 
things we need, and we need the flexibility to carry them out, 
as well as we need to continue to push the edges of innovation.
    Mr. Wise. The key, to me, isn't whether or not you call it 
charter or public; it is what are the elements in it. And just 
as Dr. Phillips said, every time we look at a school that is 
beating all of the odds, we see the same elements, whatever it 
is called.
    And another couple of those elements: personalization, 
there is a direct personal relationship for students in that 
school; and engagement. Those students are engaged; it is not 
``drill and kill.''
    So it is the elements that are important.
    Mr. Payne. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Scott. Well, thank you very much.
    And I want to thank our witnesses for their testimony. You 
know, this is really a case of pay me now or pay me later. We 
have heard that you can predict from the third grade which 
direction, which trajectory the children are on.
    And you really have to wonder what kind of people would 
look at a child in the third grade that can't read, knowing 
that that problem will put them on a trajectory towards 
prisons, and start building prisons rather than come up with 
some literacy programs to get them back on another trajectory. 
That other trajectory is not only more civilized, but it is 
also less expensive. And that is essentially what we have been 
doing. And the testimony we have heard today outlines the fact 
that we could do a lot better.
    So I want to thank all of our witnesses.
    And, without objection, members will have 14 days to submit 
additional materials or questions for the hearing record.
    And, without objection, the hearing is adjourned.
    [Whereupon, at 5:24 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
